<html>
<title> - DIVERSITY AT THE DEPARTMENT OF HOMELAND SECURITY: CONTINUING CHALLENGES AND NEW OPPORTUNITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
DIVERSITY AT THE DEPARTMENT OF HOMELAND SECURITY: CONTINUING CHALLENGES 
                         AND NEW OPPORTUNITIES

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 2009

                               __________

                           Serial No. 111-39

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                  U.S. GOVERNMENT PRINTING OFFICE
55-020                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012010

                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2

                               WITNESSES
                                Panel I

Ms. Jane Holl Lute, Deputy Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Ms. Christine Griffin, Vice-Chair, Equal Employment Opportunity 
  Commission:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Ms. Yvonne D. Jones, Director, Strategic Issues Team, Government 
  Accountability Office:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                                Panel II

Mr. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security:
  Oral Statement.................................................    55
Mr. Mark Sullivan, Director, U.S. Secret Service, Department of 
  Homeland Security:
  Oral Statement.................................................    56
Mr. Jayson Ahern, Acting Commissioner, U.S. Customs And Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................    57
Ms. Gale Rossides, Acting Assistant Secretary, Transportation 
  Security Administration, Department of Homeland Security:
  Oral Statement.................................................    59

                                Appendix

Questions From Chairman Bennie G. Thompson for Jane Holl Lute, 
  Deputy Secretary, Department of Homeland Security..............    77
Questions From Ranking Member Peter T. King for Jane Holl Lute, 
  Deputy Secretary, Department of Homeland Security..............    81
Questions From Chairman Bennie G. Thompson for Christine Griffin, 
  Vice-Chair, Equal Employment Opportunity Commission............    88
Questions From Honorable Mike Rogers for Christine Griffin, Vice-
  Chair, Equal Employment Opportunity Commission.................    89
Questions From Chairman Bennie G. Thompson for Yvonne D. Jones, 
  Director, Strategic Issues Team, Government Accountability 
  Office.........................................................    89
Questions From Honorable Mike Rogers for Yvonne D. Jones, 
  Director, Strategic Issues Team, Government Accountability 
  Office.........................................................    93
Questions From Chairman Bennie G. Thompson for W. Craig Fugate, 
  Administrator, Federal Emergency Management Agency, Department 
  of Homeland Security...........................................    93
Questions From Honorable Mike Rogers for W. Craig Fugate, 
  Administrator, Federal Emergency Management Agency, Department 
  of Homeland Security...........................................    96
Questions From Chairman Bennie G. Thompson for Gale Rossides, 
  Acting Assistant Secretary, Transportation Security 
  Administration, Department of Homeland Security................    97
Questions From Ranking Member Peter T. King for Gale Rossides, 
  Acting Assistant Secretary, Transportation Security 
  Administration, Department of Homeland Security................   100
Questions From Chairman Bennie G. Thompson for Mark Sullivan, 
  Director, U.S. Secret Service, Department of Homeland Security.   102
Questions From Ranking Member Peter T. King for Mark Sullivan, 
  Director, U.S. Secret Service, Department of Homeland Security.   107
Questions From Chairman Bennie G. Thompson for Jayson Ahern, 
  Acting Commissioner, U.S. Customs and Border Protection, 
  Department of Homeland Security................................   108
Questions From Ranking Member Peter T. King for Jayson Ahern, 
  Acting Commissioner, U.S. Customs and Border Protection, 
  Department of Homeland Security................................   111


DIVERSITY AT THE DEPARTMENT OF HOMELAND SECURITY: CONTINUING CHALLENGES 
                         AND NEW OPPORTUNITIES

                              ----------                              


                      Wednesday, October 14, 2009

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Norton, Jackson Lee, 
Cuellar, Clarke, Richardson, Lujan, Pascrell, Cleaver, Green, 
King, Lungren, Rogers, Dent, and Austria.
    Chairman Thompson [presiding]. The Committee on Homeland 
Security will come to order.
    The committee is meeting today to receive testimony on 
``Diversity at the Department of Homeland Security: Continuing 
Challenges and New Opportunities.''
    Good morning. I would like to thank our witnesses for 
appearing before us today.
    This hearing has been postponed a few times. I am pleased 
that the deputy secretary, Lute, is here. We met and discussed 
many of these issues over the August recess.
    I know and understand that the diversity challenges facing 
this Department were inherited, not created by the current 
administration. I do not place blame on you for creating the 
problems, but I am holding you responsible for delivering 
solutions.
    This is the second hearing this committee has held on this 
topic. Our first hearing focused on the lack of diversity 
within the Senior Executive Service.
    That hearing was prompted by a staff report which found 
that while racial minorities constituted 20 percent of the 
workforce, they are only 10 percent of the Senior Executive 
staff. In short, relatively few minorities rise to leadership 
levels at DHS.
    Today we will examine diversity among the employees who are 
the Department's boots on the ground. This population 
constitutes the majority of the agency's workforce and is the 
face of DHS.
    From data that the Department provided, it appears that 
challenges exist and are acute in several components. We have 
invited those components here today.
    But let me be clear. I am not interested in a numbers game. 
Creating a diverse workforce is not about simply creating 
appropriate numerical ratios. The many and varied homeland 
security challenges faced by this Department could be better 
addressed in an environment that values diversity.
    We all know that people from diverse backgrounds are likely 
to have different life experiences. We are all enriched and 
informed by our life experiences. Diversity values the 
perspective these experiences can bring to an organization.
    Solving problems, formulating plans, and executing policies 
can all benefit in an environment that rejects a one-size-fit-
all approach. My hope is that diversity will replace the echo 
chamber of agreement with a true marketplace of ideas.
    The drive for diversity must be a quest to not only look 
like America but to think as freely as Americans. This 
Department, the newest Federal agency, has an opportunity. 
While this opportunity exists, it will not last long.
    OPM predicts that a large percentage of the Federal 
workforce may retire within the next 3 years. The Partnership 
for Public Service found that 33 percent of the workforce are 
minorities and 43 percent are women.
    We are also told that the Department is likely to hire 
65,000 new employees in the next 3 years. There will be many 
workers leaving and many new workers coming on board. This is 
the moment. Now is the time.
    If the Department does not figure out how to diversify its 
workforce, we will run the risk that non-inclusive hiring 
patterns will be solidified.
    I look forward to the testimony, but I also look forward to 
the actions that follow.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman. Mr. Chairman, today the 
committee is revisiting the topic of diversity among employees 
at the Department of Homeland Security.
    I am pleased to see so many high-ranking officials from the 
Department. I especially want to acknowledge the Secret Service 
director, Mr. Sullivan. I believe this is his first time before 
the committee.
    We certainly welcome you and thank you for being here.
    We appreciate all of you for taking the time to be here.
    Mr. Chairman, at the committee's last hearing on diversity, 
Members heard about the steps the Department is taking to 
develop equal employment opportunities, and I certainly look 
forward to the testimony here today.
    But that being said, I do want to note that there is much 
this committee has not done. For instance, in the past year, 
Republican Members have requested hearings on topics as the 
threat of homegrown terrorism, actions of al Qaeda within the 
United States, the WMD Commission report that warns us about 
the use of weapons of mass destruction against the United 
States.
    Republican Members have also requested a site visit to the 
detention center at Guantanamo. Especially since the Secretary 
of Homeland Security is on the committee which will play a key 
role on the ultimate disposition of Guantanamo and the 
detainees, we believe this is a vital hearing that should be 
held. Also, there should be a site visit.
    We add to that the fact that the committee has not adopted 
an authorization bill this year. This Friday we will see the 
Homeland Security Appropriations Act coming before the full 
House which also includes language about the transfer of 
Guantanamo detainees.
    Mr. Chairman, obviously the issue of diversity is 
important, but there are other issues, and probably none is 
more than the threat of terrorism.
    We have seen the recent arrests in Houston, Texas; 
Springfield, Illinois; New York City, and these are on-going. 
Certainly, the one in New York is still an on-going 
investigation with ramifications that could go further.
    So I would just ask, Mr. Chairman, that we do focus on 
these issues as well, particularly on the issue of Guantanamo, 
which, again, is going to be--it is out in the public eye no 
matter what one's position is on the issue. It is something 
that has real ramifications for the security of this country.
    There is a direct correlation and a direct role for this 
committee to play because of the role that Secretary Napolitano 
will play in the final disposition of Guantanamo.
    For the purpose of this committee, but more importantly for 
the security of the country, I believe that that hearing is 
essential, as well as a site visit to Guantanamo.
    So with all of that, Mr. Chairman, I thank you for yielding 
me the time, and I look forward to the testimony today.
    Chairman Thompson. Thank you very much.
    Other Members of the committee are reminded that under 
committee rules opening statements may be submitted for the 
record.
    I welcome the first panel of witnesses. Our first witness 
is Dr. Jane Holl Lute, the deputy secretary of the Department 
of Homeland Security. The Senate confirmed Secretary Lute on 
January 2009, and she brings to the Department over 30 years of 
military and Senior Executive experience in the U.S. 
Government.
    Our second witness is Ms. Christine Griffin, vice chair of 
the Equal Opportunity Commission. The Senate unanimously 
confirmed Ms. Griffin and she was sworn in on January 3, 2006.
    Ms. Griffin's work at the EEOC includes the development and 
approval of enforcement policies, the authorization of 
litigation and the issuance of the commissioner's charges of 
discrimination.
    I welcome you back to the Hill today, Ms. Griffin.
    Our third witness is Ms. Yvonne Jones, director of 
strategic issues team at the Government Accountability Office. 
Ms. Jones manages teams analyzing Federal Government human 
capital issues and 2009 fiscal stimulus oversight and reporting 
issues.
    We thank all our witnesses for their service to the Nation 
and for being here today. Without objection, the witnesses' 
full statements will be inserted in the record.
    I now ask each witness to summarize her statement for 5 
minutes, beginning with Deputy Secretary Lute.

 STATEMENT OF JANE HOLL LUTE, DEPUTY SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Lute. Thank you very much, Mr. Chairman.
    Mr. Chairman, Representative King, Members of the 
committee, it is a pleasure to be here today, joined by several 
of my colleagues, to discuss the diversity challenges that 
confront the Department of Homeland Security.
    The last time we discussed these issues, Mr. Chairman, as 
you noted, it was over ribs at E&L's Barbecue in Jackson. As 
nice as it is to see everyone here this morning, believe me, I 
would rather be eating those ribs, talking about this.
    But we owe a debt of gratitude to you, Mr. Chairman, for 
your persistent focus on the challenge of creating a truly 
diverse Department of Homeland Security. So thank you for your 
hospitality during our visit to Mississippi, and thank you for 
keeping us all focused on this problem.
    There is a problem. As important as it is to have this 
hearing, it is also important, Mr. Chairman and Members of the 
committee, for you to know that we don't need a notice for a 
Congressional hearing to know that we have a challenge and a 
problem with diversity at DHS.
    Secretary Napolitano and I are dissatisfied with where 
things stand, and we are committed to changing course. I say 
that with the full knowledge that many have--before me have 
come before you, sat at this table and said the same thing, and 
yet the problems persist. We know this.
    I also know that having run large, complex, far-flung 
bureaucracies that it is only through persistent and insistent 
leadership at the top that these kinds of problems are 
corrected.
    I have submitted a statement for the record and attached 
some relevant information culled from the Department's various 
components. Mr. Chairman, as you have said, thank you for 
putting my full statement into the record.
    It is important to note that the data that you have before 
you does not--in fact, it cannot--reflect the number of serious 
conversations nor the tone of those conversations that we at 
the Department have had about addressing the challenge of 
diversity.
    I have spoken personally with each of our component heads 
and the other leadership of the Department and reminded them 
that their performance in their own jobs will be evaluated, at 
least in part, as mine will be, on how well we do in building a 
workforce that is competent, effective, and reflective of the 
diverse array of talent and experiences this great country has 
to offer.
    Building a successful Department requires us to draw on the 
diversity of our cultures, histories, and our experiences. The 
broad array of complex threats that DHS responds to and is 
responsible for interdicting requires that the Department 
itself build upon a diverse base of knowledge and experience.
    Mr. Chairman, the workforce of the Department of Homeland 
Security is dedicated, talented, and fully committed to doing 
their job to protect the American people. At the senior-most 
levels, however, the Department of Homeland Security's 
workforce does not reflect the dream of equal opportunity upon 
which our homeland was founded. We are committed to changing 
that, beginning with the Secretary right on down through the 
leadership.
    We want a Department of Homeland Security that embodies the 
diversity of the American people we protect. We want a 
Department of Homeland Security that upholds our Nation's 
promise of equality and fairness at all levels of government.
    Let me be clear. As you have said, Mr. Chairman, we seek a 
diverse Department not for the sake of diversity, but for--or 
for the sake of appeasing this committee, but for the value 
that a diverse workforce has. I can tell you from 30 years very 
often representing the most diversity in meetings, being the 
only woman in session after session, that the lack of diversity 
hampers our ability to make wise and informed decisions.
    Through employing a diverse workforce, we can be more 
successful in achieving our mission of protecting the American 
people. It is what has made our Nation strong for over 200 
years, and it will help our Department become stronger for the 
future.
    In my written statement I have outlined some of the 
strategy principles and plans that will guide diversity efforts 
at DHS. In 2008 the Department created a 5-year diversity 
action plan to address diversity.
    Building on this longer-term plan, in April of this year 
the Secretary initiated a 120-day action plan to identify 
additional ways to accelerate our efforts, including drafting 
new performance standards for all managers and supervisors, 
initiating new processes for implementing partnering agreements 
with universities, colleges, and other institutions to boost 
minority recruiting internships and academic projects.
    We are expanding our outreach efforts to veterans and 
integrating that outreach into our diversity effort. We are 
deploying new analytic tools to track diversity across our 
workforce.
    Much remains to be done. You have the Secretary's 
commitment. You have my commitment to give diversity efforts 
and programs the attention they deserve at the very highest 
level of the Department. I look forward to working with this 
committee to build and strengthen our still young but very 
capable Department so that we can fully realize our potential.
    Thank you for your time today. I stand ready to answer any 
questions you might have.
    [The statement of Ms. Lute follows:]

                  Prepared Statement of Jane Holl Lute

                              INTRODUCTION

    Chairman Thompson, Ranking Member King, and Members of the 
committee: Thank you for the opportunity to testify today about the 
Department of Homeland Security's (DHS) efforts to increase diversity 
among our 225,000 member Federal workforce, attract new talent to the 
Department, and expand our outreach to diversity-serving organizations 
and educational institutions across the United States.
    At the outset, let me emphasize that creating a diverse workforce 
at DHS remains a top priority for Secretary Napolitano, for me, and for 
all the Department's leadership. We believe our Nation's homeland 
security workforce should reflect America's homeland. It should reflect 
America's own diversity and the extraordinary backgrounds, skills, 
education, and experience of the American people.
    By reflecting America's diversity, our workforce will provide a 
wider range of ideas and solutions to protect our homeland, create a 
more equitable and inclusive organization, and bring new energy and 
perspectives to our important mission. But it is not enough for us to 
merely look like America. We must embody America's promise, the promise 
of equal opportunity at all levels of governance and leadership. We 
have a lot of work to do to bring a more diverse group of leaders to 
the senior-most positions at DHS.
    Past efforts have not yielded satisfactory results. Indeed, many of 
the Department's diversity efforts have fallen well short of their 
intended goals, especially when looking at senior leadership positions.
    We are acting swiftly and deliberately to change this situation. 
Today I would like to share with you our diversity strategy; the core 
principles and goals that guide the Department's diversity efforts; our 
plans for initiating changes and making necessary improvements; and the 
results we expect to achieve.

                         DHS DIVERSITY STRATEGY

    In April 2008, the Department approved a diversity strategy that 
set forth four guiding principles to improve diversity hiring and 
outreach and to make DHS more effective by:
  <bullet> Recruiting, developing, and retaining qualified individuals 
        at all levels within the Department whose diverse backgrounds, 
        experience, education, and skills will advance our mission;
  <bullet> Integrating diversity into our organizational culture, not 
        as a stand-alone program;
  <bullet> Recognizing that diversity is a matter of equity and 
        fairness: a means to build, foster, and enhance inclusion; and
  <bullet> Leveraging the full range of diversity currently present in 
        the DHS workforce.
    As part of this strategy, we established three overarching goals to 
increase diversity across our mission operations, outreach efforts, and 
senior leadership. Specifically:
    Integrating diversity into our mission operations by:
  <bullet> Establishing a senior-level Diversity Council to ensure the 
        highest level of commitment to diversity as a means of 
        conducting business;
  <bullet> Identifying appropriate metrics and outcomes to measure the 
        effectiveness of diversity's impact on our organizational 
        performance; and
  <bullet> Integrating diversity strategies into our comprehensive 
        human resource operation (recruitment, staffing, performance 
        management, development, recognition, retention, succession 
        planning, and workforce planning).
    Maximizing our diversity potential by:
  <bullet> Undertaking outreach efforts in the areas of recruitment, 
        collaboration with professional associations, and partnerships 
        with colleges and universities; and
  <bullet> Designing and revising recruitment, retention, employee 
        development, and recognition strategies using empirical data 
        that encompasses potential applicants, employees, and the U.S. 
        workforce.
    Strengthening our commitment to diversity in the Department's 
leadership ranks by:
  <bullet> Establishing robust, on-going recruitment, development, and 
        retention initiatives to ensure a qualified, diverse cadre of 
        executives and senior managers prepared to lead DHS;
  <bullet> Ensuring all DHS leaders have access to training, tools, and 
        support needed to serve as diversity champions;
  <bullet> Emphasizing the value of a ``Diversity Advocate'' leadership 
        competency in the performance management process; and
  <bullet> Assigning managers and supervisors as active mentors to 
        promote, guide, and enhance career planning and professional 
        development of a diverse workforce.

                         DIVERSITY ACTION PLAN

    In November 2008, the Department's Office of the Chief Human 
Capital Officer (CHCO) issued a Human Capital Strategic Plan outlining 
specific plans and actions to implement the diversity strategy across a 
5-year period, from fiscal year 2009 to fiscal year 2013.
    Initial efforts under this plan have included the establishment of 
the high-level Diversity Council; the establishment of a Departmental 
Recruiting Council; the creation of a new Veterans Outreach Program; 
the appointment of an SES Diversity Program Executive within CHCO; and 
the introduction of a ``Diversity Advocate'' performance goal for all 
SES performance plans.
    In April 2009, at the direction of Secretary Napolitano, the 
Diversity Council initiated a 120-Day Action Plan to assess progress 
under the Diversity Action Plan and determine what additional steps 
could be taken over a 120-day period to accelerate the Department's 
diversity efforts.
    The key elements of this 120-Day Action Plan include:
  <bullet> Initiating targeted marketing and outreach for all vacant 
        SES positions, including partnering with groups such as 
        minority-focused professional organizations;
  <bullet> Establishing performance measurements for DHS executives 
        that include diversity recruitment and outreach efforts;
  <bullet> Implementing revised DHS-wide procedures for SES selection 
        to enhance diversity, and expanding efforts to educate our 
        workforce on SES application procedures and requirements;
  <bullet> Conducting organizational assessments to identify barriers 
        to enhancing diversity;
  <bullet> Implementing partnering agreements with diverse universities 
        and colleges for recruiting, internships, and academic 
        projects;
  <bullet> Implementing diversity management training;
  <bullet> Establishing a centralized DHS student hiring program as a 
        means to develop a pathway for diverse talent;
  <bullet> Continuing to leverage current veterans outreach efforts as 
        an integral part of diversity outreach; and
  <bullet> Establishing corporate- and Component-level goals and 
        accompanying action plans for hiring individuals with 
        disabilities.
    Some progress has been made in these areas. CHCO recently drafted 
diversity performance standards for all DHS managers and supervisors. 
These standards are being validated in accordance with Office of 
Personnel Management (OPM)-approved methodology. We expect to release 
them in fiscal year 2010. The Department also has completed a draft 
version of a new long-term DHS Diversity Strategic Plan, which is 
currently under review by our Diversity Subcouncil.
    DHS has initiated a new process for implementing partnering 
agreements with universities and colleges to boost minority recruiting, 
internships, and academic projects. To facilitate this effort, we have 
established a Minority Serving Institutions (MSI) working sub-group 
under the aegis of the DHS Recruiting Council.
    We have expanded outreach to veterans and veterans' organizations. 
For example, on July 17, the Department hosted its first Veterans Job 
Fair in Washington, DC. I attended and spoke to a group of attendees. 
I'm pleased to report that more than 745 veterans attended this event. 
Secretary Napolitano also has met with leaders of key veterans 
organizations to discuss outreach opportunities, and we have re-
convened the Department's Veterans Advisory Forum to solicit input.
    In addition, the Department invited more than 50 diversity-serving 
organizations to participate in the first-ever DHS Diversity Forum, an 
open discussion about how to enhance diversity among our SES and senior 
leadership ranks. That forum took place on September 16, and I am 
optimistic that those conversations will lead to fruitful partnerships 
with organizations that can help us identify the best and brightest 
from a variety of communities. We have also distributed SES vacancy 
announcements to diversity executive-related associations across the 
United States.
    Finally, to more effectively analyze our recruitment and hiring 
results, CHCO is in the process of deploying a new applicant workforce 
tool, which will allow us to more accurately capture, track, and 
isolate our diversity data.

                  OUTREACH TO EDUCATIONAL INSTITUTIONS

    DHS' outreach to academic and educational institutions is a 
priority. We will build upon existing efforts to engage historically 
black colleges and universities (HBCUs), Tribal colleges and 
universities (TCUs), and minority-serving institutions (MSIs), while 
creating new initiatives to further this work. For example:
  <bullet> The DHS Office of the Chief Human Capital Officer supported 
        the Black Executive Exchange Program and developed 
        relationships with campus administration officials and faculty 
        at 16 HBCUs, including Alabama State University, Clark Atlanta 
        University, Morris-Brown College, Coppin State University, 
        Howard University, Lincoln University, Mississippi Valley State 
        University, Spelman College, St. Augustine's College, Winston-
        Salem State University, Lincoln University, Tennessee State 
        University, Huston-Tillotson University and Hampton University.
  <bullet> DHS Office for Civil Rights and Civil Liberties (CRCL) co-
        sponsored a workshop titled ``Developing Program Opportunities 
        between the DHS and Tribal Colleges and Universities (TCUs).'' 
        Three TCU Presidents and more than 30 DHS officials 
        participated and were able to explore mutual goals and identify 
        opportunities to merge resources and support.
  <bullet> FEMA developed a 5-year plan to assist TCUs to develop 
        effective proposals to compete for grants and cooperative 
        agreements; increase the use of TCU facilities to host FEMA 
        events; recruit students for internships in emergency 
        management careers; increase collaboration between TCU faculty 
        and FEMA program managers; and develop, present, and replicate 
        emergency management courses on TCU campuses.
  <bullet> U.S. Customs and Border Protection (CBP) visited and 
        contacted approximately 20 HBCUs, 30 HSIs, 25 women's, and over 
        60 veterans' organizations during fiscal year 2009, both for 
        recruitment and outreach purposes. CBP plans to further enhance 
        its list of targeted organizations, primarily focusing on 
        events targeting Asians, American Indians, and persons with 
        disabilities.
  <bullet> CBP employed 107 college students in the Student Career 
        Experience Program (SCEP) during fiscal year 2009. Twenty-seven 
        SCEP students completed the program and were converted to 
        career-conditional appointments during this period. Forty 
        percent were minorities and 74 percent were females.
    In addition, the Department's MSI Outreach Planning Task Force 
(MOP) intends to host four regional awareness activities in fiscal year 
2010 for colleges, students, and the general public, focused on States 
in the lower south and Delta region (Louisiana, Mississippi, Alabama, 
Georgia); Tribal Colleges (Arizona and New Mexico); and Criminal 
Justice internships (California, New York).

                     COMPONENT DIVERSITY ACTIVITIES

    Beyond these efforts, we are taking a very hard look at diversity 
hiring, recruitment, and retention across our operational components. 
Under the aegis of the Diversity Council, DHS created an ``inventory'' 
of current diversity initiatives, challenges, actions, and functions at 
each major operating component to establish a baseline of past efforts, 
identify gaps, and ensure future efforts are consistent with overall 
Departmental goals and policy.
    Specifically, in April 2009, DHS asked its components: Whether 
their offices had established a diversity management function and 
metrics to determine the effectiveness of diversity efforts; whether 
they had a diversity strategy; whether they had provided diversity-
based training to managers; and whether they had conducted formal 
assessments related to diversity.
    Summaries of these efforts are attached to this testimony for each 
of the four operational components that have been asked to appear 
before the committee today (TSA, FEMA, CBP, and Secret Service).

                               CONCLUSION

    The bottom line is that much remains to be done. Secretary 
Napolitano and I are not satisfied with where things stand and we are 
resolutely committed to achieving and sustaining a diverse DHS 
workforce.
    We know, based on the numbers, we have a lot of work to do in this 
area. I can assure you that the Secretary and I have made diversity a 
top management priority at the highest ranks of the Department. We have 
created a diversity plan designed to achieve results and we are 
committed to ensuring serious and sustained senior-level attention is 
given to this critical issue.
    I appreciate the committee's support as we continue to grow and 
mature the Department and create a workforce that reflects America's 
homeland, embodies America's promise, and provides equal opportunity at 
all levels of governance and leadership. I look forward to keeping you 
updated on our progress.

                    ATTACHMENTS--COMPONENT SUMMARIES

              TRANSPORTATION SECURITY ADMINISTRATION (TSA)

    TSA's principal diversity efforts are aligned with the Office of 
Civil Rights and Liberties (OCRL) and the Office of Human Capital 
(OHC), and considerable partnering occurs between OCRL and OHC. In 
addition, TSA's Office of Law Enforcement/Federal Air Marshal Service 
(OLE/FAMS) has a dedicated staff to address diversity challenges unique 
to its mission.
    Subsequent to TSA's creation of a Diversity Action Plan in 2007, 
TSA has undertaken numerous initiatives to promote workplace diversity, 
including the following:
  <bullet> Implemented the Career Resident Program, a career intern 
        program leading to permanent positions with career promotion 
        potential at TSA Headquarters. This program recruited from 
        partner minority serving institutions. The first cohort of 36 
        new employees, which is 72 percent minority and women, came on 
        board last month;
  <bullet> Conducted a barrier analysis to identify barriers to 
        recruiting and retaining women as Federal Air Marshals (FAMs). 
        The findings offer specific recommendations for recruitment of 
        female FAMs;
  <bullet> Initiated collaborative relationships between OLE/FAMS and 
        major professional law enforcement diversity organizations--
        including the National Organization of Black Law Enforcement 
        Executives (NOBLE), Women in Federal Law Enforcement (WIFLE), 
        Hispanic American Police Command Officers' Association 
        (HAPCOA), National Asian Peace Officers' Association (NAPOA) 
        and National Native American Law Enforcement Association 
        (NNALEA)--to promote the recruitment, retention, and diversity 
        of law enforcement professionals;
  <bullet> Implemented a Diversity Action Plan (DAP) in OLE/FAMS to 
        pursue diversity outreach activities at the local level to 
        recruit applicants for law enforcement careers as FAMs;
  <bullet> Implemented a Recruitment Working Group to consolidate 
        recruitment events to ensure we reach out to diverse candidates 
        more effectively;
  <bullet> Expanded relationships with minority-serving institutions, 
        including establishing an Intergovernmental Personnel Act (IPA) 
        2-year rotational at Tougaloo College in Mississippi, a 
        historically black college.
    Also, since 2008 OCRL has promoted an enhanced relationship with 
professional organizations serving underrepresented populations in 
TSA's mid- and senior-level positions, while OHC has made diversity a 
key consideration in developing and launching new programs such as New 
Horizons, Career Evolution Program; Career Resident Program; and the 
Associates Degree Program.
    Other diversity programs and initiatives that have a cross-
organizational impact include the diversity training for all employees, 
including TSA's Senior Leadership Team; diversity recruitment at job 
fairs and conferences that target people with disabilities; and 
recruiting from a diverse candidate pool for Senior Management and/or 
Executive positions.
    To gauge progress, OHC has developed performance metrics to 
demonstrate results of diversity initiatives in recruitment and hiring, 
career development, strategic and workforce planning and performance 
evaluation and policy development.
    In addition, OHC prepares a quarterly Diversity Selection Report 
(DSR) for Assistant Administrators in each line of business to 
demonstrate hiring practices that may be a barrier to attaining a 
diverse workforce. The DSR includes data on the race/national origin/
gender (RNO) of current employees, supervisory employees, promoted 
employees, and qualified internal candidates for open positions during 
the previous quarter. OHC uses the DSR as a tool to highlight potential 
employment opportunities to increase the diversity of their offices.
    TSA has recently selected the second Diversity Advisory Council, 
which will convene on Sept. 21, 2009. The Council serves as a think 
tank for TSA's Building and Maintaining Diversity initiative and 
coordinates the activities associated with creating, developing, and 
retaining a diverse and highly skilled workforce at all levels.

               FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)

    While FEMA has a number of policies aimed at recruiting minority 
workers, it does not have an overarching diversity plan. That needs to 
change.
    FEMA's Human Capital Strategic Plan stresses the importance of 
creating and maintaining a diverse workforce that reflects the rich 
cultural and ethnic diversity of the United States even at the highest 
levels of the Agency. In addition, consistent with Equal Employment 
Opportunity Commission Regulations, the Director of FEMA's Equal Rights 
Office reports directly to the Administrator. FEMA has also developed a 
minority intern program aimed toward attracting students from HBCUs, 
TCUs, and HSIs.
    The ``Diversity Intern Program'' is part of a White House 
initiative begun last year to improve the Federal Government's 
recruiting efforts at minority colleges and universities. The program 
is designed to attract exceptional individuals into a variety of 
occupations and to increase the balance of minorities within FEMA's 
regional offices. Under FEMA's program, 20 positions are being 
established for students who are attending, or have graduated from, 
minority institutions. Ten of these positions are career intern 
positions reserved for graduates. The intern positions last for 2 
years, and could eventually lead to a full-time position with the 
Agency. The other 10 positions are short-term internships for students 
who are sophomores, juniors, or seniors. Administrator Fugate has 
identified this program as a top priority and funding for it is 
forthcoming.
    In addition to the ``Diversity Intern Program,'' FEMA's Emergency 
Management Institute (EMI) has a program aimed at expanding outreach to 
HBCUs. In January, EMI sponsored a conference with HBCUs to discuss how 
to establish an emergency management curriculum. One of the goals of 
the conference was to expand the number of minority students who pursue 
careers in emergency management. FEMA intends to expand these 
conferences to Tribal and Hispanic-serving institutions.
    Although all of these efforts are important, they do not constitute 
a comprehensive plan to ensure a diverse workforce. The need for this 
plan is underscored by the current workforce statistics at FEMA. At the 
GS-12 level and below, racial minorities represent 34 percent of the 
workforce. This compares favorably to the 28 percent minority 
representation in the overall Federal workforce at those grade levels. 
Racial minority workers make up a quarter of the Agency's workforce at 
the GS-13 and -14 levels. And at the GS-15 level, minority workers 
comprise 17 percent of the workforce.
    The statistics for gender diversity showed a similar trend. While 
females accounted for 57 percent of the FEMA workforce at the GS-12 
level and below, they represent 39 percent of the GS-13 and GS-14 
workforce. At the GS-15 level, women accounted for 28 percent of the 
workforce.
    As these numbers indicate, more needs to be done to encourage 
greater representation of minorities in the higher grade levels at 
FEMA. Not only do we need to find ways to recruit additional minorities 
for the FEMA workforce, but we also need to encourage FEMA's minority 
employees to stay and develop their careers within the agency. The 
longer their tenure, the more likely it is that they will rise in the 
organizational structure and assume leadership positions. This is 
exactly why a comprehensive diversity plan is so important for the 
future of FEMA.
    Administrator Fugate has made the development of a diversity plan a 
top priority for FEMA, and he has been actively working with his senior 
staff to ensure that a final plan is approved and in place by the end 
of the year.
    As it is currently drafted, the plan will add a number of key 
objectives to FEMA's overall strategic plan to:
  <bullet> Strengthen FEMA's commitment to workplace diversity and 
        FEMA's awareness of diversity's direct link to successful 
        organizational performance;
  <bullet> Cultivate the recruitment, development, advancement, and 
        retention of a diverse workforce;
  <bullet> Proactively identify potential barriers that impede the 
        development of a diverse workforce; and
  <bullet> Establish accountability and monitoring mechanisms to ensure 
        that these objectives are being met in a timely fashion.
    Goals and objectives are important, but so are the specific tactics 
and strategies used to meet these goals. That is why FEMA is committed 
to developing realistic methods to achieve a more diverse workforce, 
especially in the higher GS levels. To identify these strategies, FEMA 
is seeking input from a variety of sources, including its own 
employees.

                   U.S. CUSTOMS AND BORDER PROTECTION

    U.S. Customs and Border Protection (CBP) values diversity as a tool 
for achieving readiness and accomplishing its core mission. CBP fully 
embraces the concept of diversity and inclusion management to create 
and maintain a positive work environment where the similarities and 
differences of individuals are respected and valued.
    CBP is the largest uniformed Federal law enforcement agency in the 
country. It stations over 20,000 CBP officers at access points around 
the Nation, including at air, land, and sea ports. It has deployed over 
19,000 Border Patrol Agents between the ports of entry. These forces 
are supplemented with 1,133 Air and Marine Agents, 2,392 Agricultural 
Specialists and other professionals. These personnel are key players to 
the implementation of the Administration's Southwest Border Security 
Initiative announced by Secretary Napolitano on March 24, 2009.
    CBP cannot perform its mission with the success it has shown 
without an outstanding and diverse workforce--in fact, CBP is 
successful because of its workforce. CBP has a higher percentage of 
Hispanics, Asians, and Pacific Islanders within its workforce than the 
Federal average and is equal to the average for Native Americans. The 
table below illustrates CBP's workforce demographics over between 
fiscal year 2006 and fiscal year 2009.

----------------------------------------------------------------------------------------------------------------
                                                                                                     Fiscal Year
                                                           Fiscal Year   Fiscal Year   Fiscal Year   2009 as of
                                                              2006          2007          2008        8/29/2009
----------------------------------------------------------------------------------------------------------------
                                                            43,545        47,606        52,543        58,290
Male....................................................        75.7%         76.9%         77.8%         78.2%
Female..................................................        24.3%         23.1%         22.2%         21.8%
White...................................................        56.3%         56.4%         57.7%         58.1%
Black...................................................         7.1%          6.5%          6.1%          6.0%
Hispanic................................................        31.5%         32.4%         31.8%         31.5%
Asian American..........................................         4.5%          4.2%          3.8%          3.8%
Native American.........................................         0.6%          0.5%          0.5%          0.5%
Non-Hispanic in PR......................................         0.1%          0.1%          0.1%          0.0%
----------------------------------------------------------------------------------------------------------------

    However, CBP recognizes it has low numbers of females and African 
Americans in its workforce compared to the Government and civilian 
labor force averages. Women and African Americans are underrepresented 
throughout CBP, but especially within the CBP Office of Border Patrol.
    CBP is constantly working to create a work environment that 
recognizes diversity, fosters inclusion and provides equal opportunity. 
To further these goals, CBP established a Human Capital Advisory 
Committee to focus on improving the morale of the workforce and 
providing recognition for employees who perform at high levels each 
day. CBP has developed a draft diversity plan and an executive 
recruitment hiring strategy. In addition, CBP utilizes diversity 
strategies to advance its mission by focusing internal and external 
diversity activities.

Internal and External Diversity Activities
    The responsibility to establish and maintain a diverse workforce is 
not limited to managerial actions regarding recruiting and employment; 
it is the responsibility of all CBP employees to work to dispel 
stereotypes and to build a work environment that is based on mutual 
respect. By fostering a positive work environment based on diversity 
and inclusion, we can leverage the strengths afforded by the cultural 
perspective of each person to achieve our homeland security mission. To 
integrate diversity and inclusion principles into CBP's organizational 
culture, CBP focuses on external and internal outreach and cultural 
awareness. In fiscal year 2009, as part of CBP's external outreach 
program, CBP increased community outreach activities by 13 percent, 
from 39,426 in 2008 to over 44,553 in 2009 year-to-date.
    To foster diversity and cultural awareness internally, CBP 
increased the number of employees participating in Diversity and 
Special Emphasis Committees (committees) by 93 percent, from 60 in 
fiscal year 2008 to 115 in fiscal year 2009 year-to-date. The increase 
in the number of committees led to a 59 percent increase in the number 
of internal diversity and cultural awareness activities, from 247 in 
fiscal year 2008 to over 393 in fiscal year 2009 year-to-date. Employee 
attendance and participation in diversity and cultural activities 
increased by over 72 percent, from 16,828 in fiscal year 2008 to over 
28,894 in fiscal year 2009 year-to-date. In addition, the number of 
employees receiving diversity and EEO training increased by 11.3 
percent over fiscal year 2008. CBP provided training to 5,629 
employees.

Recruitment and Hiring
    CBP has undertaken a targeted recruitment effort during the past 2 
years in an attempt to raise the number of women and African Americans 
in its workforce. CBP continues to work towards the goal of increasing 
female and African American representation in its workforce by 
increasing community outreach activities and directing CBP National 
Recruitment Team events toward diversity-oriented programs.
    In addition to recruiting and hiring events at minority serving 
colleges and universities, CBP has reached out to special emphasis 
organizations like the Southern Arizona Federal Women's Program 
Interagency Council, Northwest Job Exposition, Peninsula Women's 
Exposition, Pierce County veterans, and participated in several 
diversity events such as Diversity Employment Day (Minneapolis, MN), 
Job Fairs sponsored by Congressmen Bennie Thompson and Lincoln Diaz-
Balart, Diversity Jobs USA, Metro Diversity Partners, National Society 
of Black Engineers, and Hispanic Alliance for Career Enhancement 
(HACE).
    CBP's overall workforce increased by 10 percent, from 52,543 
employees in fiscal year 2008 to over 57,811 as of August 2009. Since 
2007, the number of executives on board increased by 30. While the 
percentage of female and African American executives of the current 
executive population decreased 1 percent and 1.4 percent respectively, 
the actual number of executive females increased from 23 to 29 (26 
percent increase) and the number of African American executives 
remained the same (5). Since 2008, senior management reviews the status 
of recruitment efforts on a monthly basis in meetings chaired by the 
Commissioner or Acting Commissioner, and CBP produces monthly 
recruitment and hiring status and analysis reports outlining progress 
toward annual hiring goals.
    CBP facilitated five targeted recruitment events to recruit 
Auditors for the Office of Internal Trade in spring 2009. These hiring 
events continue to modernize job fairs and streamline the way CBP hires 
candidates for the positions. The events took place in Boston; Long 
Beach, CA; Miami; New York; and Washington. From the five events, CBP 
offered positions to more than 60 candidates from diverse backgrounds.
    In May 2009, CBP hosted its first career fair targeting careers in 
the human resources profession. Local newspaper ads were placed, a news 
release was issued, and various special emphasis organizations and 
individuals were contacted to attract potential applicants to the 
event. Over 300 people from diverse backgrounds attended the fair.
    From June through July 2009, CBP conducted its first Federal Career 
Intern Program (FCIP) Virtual Job Fair for entry-level positions 
including Accountant, Budget Analyst, Contract Specialist, Human 
Resources Specialist, IT Specialist and Management and Program Analyst. 
Promotion of the virtual job fair was posted on Career Builder in 
addition to a CBP news release and postings at multiple community, 
professional, and special emphasis organizations Nation-wide to attract 
applicants to the on-line job fair. The advertising and outreach of the 
fair resulted in over 40,000 views by the public and approximately 
4,500 applications for the positions advertised.
    With regard to CBP's Senior Executive Service (SES) ranks, the 
representation of women increased from 23.7 percent to 25.7 percent 
between fiscal years 2007 and 2009; Hispanics represent 12.8 percent, 
whites 80 percent, African Americans 5 percent, and Asians 2 percent of 
the SES ranks. To continue our efforts to increase the representation 
of all employee groups at the SES level, we must implement a diversity 
strategy to create a diverse pool of qualified candidates. The tables 
below illustrate CBP SES workforce demographics between October 2007 
and September 2009.

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
      CBP-SES GENDER Profile              October 2007
                                         September 2009
                                             Change
                                   -----------------------------------------------------------------------------
Female............................         23       28.75%           29          28%          +06         -.75%
Male..............................         57       71.25%           75          72%          +18         +.75%
----------------------------------------------------------------------------------------------------------------
      Total.......................             80
                                               104                  +24      +30.00%
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
       CBP SES--RNO Profile               October 2007
                                         September 2009
                                             Change
----------------------------------------------------------------------------------------------------------------
White.............................         68       85.00%           82       79.00%          +14         -.75%
Hispanic..........................         07        8.75%           15       14.4%           +08        +5.65%
African American..................         05        6.25%           05        4.8%            00        -1.45%
Asian American....................         00       00.00%           02        1.9%           +02        +1.9%
----------------------------------------------------------------------------------------------------------------
      Total.......................             80
                                               104                  +24      +30.00%
----------------------------------------------------------------------------------------------------------------

    Building upon prior successes, CBP has enhanced its workforce 
planning and analysis efforts to assist in developing strategies, 
solutions and tools for managing human resources needs, to include a 
focus on diversity improvement activities. To that end, the following 
tools and activities are underway to strengthen CBP's workforce 
diversity:
  <bullet> Workforce Profiles.--This quick reference document provides 
        quarterly workforce data and analysis to assist the agency with 
        its recruitment, hiring, and succession management activities. 
        The workforce profiles focus on diversity data to include 
        gender, race and national origin, and veterans.
  <bullet> Workforce Plans.--These plans identify short- and long-term 
        strategies for building and sustaining a diverse and quality 
        workforce. Based on a thorough analysis of data, strategies are 
        identified to address workforce gaps and challenges. The 
        strategies may target recruitment, retention, and succession 
        efforts of particular concern or unique to a program office.
  <bullet> Workforce Planning Training.--CBP has begun to train 
        management and employees on the workforce planning process. 
        During these sessions, time is spent discussing the gaps 
        analysis exercise that examines areas of improvement with 
        respect to diversity, competencies and skills, and staffing 
        numbers. The gaps analysis is critical to workforce planning 
        because it drives the strategies that are later developed for 
        closing gaps and adequately preparing the agency for future 
        workforce needs.
  <bullet> DHS Efficiency Retention Subgroup.--CBP participates on this 
        subgroup responsible for identifying best practices that could 
        be implemented across DHS for retaining a talented and diverse 
        workforce.

                      UNITED STATES SECRET SERVICE

    The Secret Service recognizes its responsibility to ensure that the 
fundamental rights of its employees and all applicants for employment 
are respected and protected. All applicants are provided a full and 
fair opportunity at employment, training, and career advancement 
without regard to race, color, religion, national origin, disability 
(physical or mental), gender, age, reprisal, sexual orientation, 
genetic information, or parental status. Its Equal Employment 
Opportunity (EEO) program continually provides its internal and 
external customers with professional leadership that promotes equality 
for all.

Elimination of Barriers
    The Secret Service is committed to finding and removing barriers to 
entry and barriers to promotion whenever or wherever they are 
identified. The barrier identification and elimination planning process 
includes the review and analysis of workforce data and information, 
Affirmative Employment Plans, agency policies, procedures, strategies, 
and performance reports dealing with recruitment, retention, or 
accessibility.
    The major approaches, which make up the EEO Plan to Eliminate 
Identified Barriers, are as follows:
  <bullet> Provide training for employees that address diversity 
        awareness, EEO guidance and regulations, including providing 
        reasonable accommodation to employees with disabilities and 
        ensuring compliance with the documentation requirements of 
        Section 508 and accessibility for Persons with Disabilities; 
        and, Federal hiring/selection procedures.
  <bullet> Monitor recruitment initiatives and other initiatives and 
        policies established by the Workforce Planning Office, the 
        Recruitment Program, or the Diversity Management Program at the 
        Secret Service.
  <bullet> Focus the Secret Service's resources for barrier analysis 
        and elimination on areas of primary concern for the agency. 
        Those areas are recruitment and retention.
  <bullet> Ensure accountability of Secret Service managers and 
        supervisors in the area of EEO as outlined in EEO Management 
        Directive 715.

Secret Service Recruitment Initiatives
    Recruitment and hiring of qualified applicants from ethnically 
diverse backgrounds is a top management priority and an important 
component of the Secret Service's recruitment business plan.
    The recruitment of special agents and Uniformed Division officers 
is conducted through the Secret Service's 164 field offices throughout 
the world. However, overall coordination of minority recruitment and 
outreach is administered through the Recruitment Program at Secret 
Service headquarters in Washington, DC.
    The Recruitment Program uses numerous methods to attract and 
recruit potential candidates from ethnically diverse backgrounds. On 
average the Recruitment Program will attend over 300 career fairs a 
year. Many of these events are held at HBCUs, HSIs, TCUs, and women's 
colleges. The Recruitment Program will advertise career opportunities 
with ethnically diverse magazines, radio stations, and websites. 
Further, the Recruitment Program will target select cities to host 
recruitment events, which have a large population of individuals from 
ethnically diverse backgrounds.
    The Secret Service Recruitment Program has implemented a yearly 
national recruitment strategy with specific initiatives, incentives, 
and strategies to attract and recruit the best and the brightest high-
quality candidates for a diverse workforce. Key elements include:
  <bullet> Attendance at career fairs throughout the United States, 
        including those specifically targeting minority groups, Nation-
        wide military recruitment events, and Nation-wide diversity 
        conferences. Specifically, the Secret Service attended 1,083 
        career fairs from fiscal years 2007-2009 and 154 Nation-wide 
        military recruitment events.
  <bullet> Focused outreach at HBCUs, HSIs, TCUs, and women's colleges 
        and universities.
  <bullet> Sponsor Secret Service recruiting and testing events in 
        cities throughout the United States which have high minority 
        populations.
  <bullet> Targeted recruiting of veterans of the United States Armed 
        Forces, who represent a source of highly qualified, ethnically 
        diverse candidates for Secret Service positions in all 
        occupational categories.
  <bullet> Using the services of a contractor, LEAP Frog solutions, a 
        minority women-owned business, to help coordinate print, on-
        line, and radio advertising that specifically target ethnically 
        diverse populations.

African-American Recruiting Initiatives
    The Recruitment Program has consistently maintained an aggressive 
and proactive recruiting approach as it pertains to the African-
American community. In fiscal year 2008, the Recruitment Program 
attended 20 career fairs specifically targeting African-Americans. The 
Recruitment Program attended five national conferences and sponsored 
seven recruiting events in cities with large African-American 
populations. In fiscal year 2009, the Secret Service attended 29 career 
fairs specifically targeting African-Americans; attended six national 
conferences; and sponsored six recruiting events in cities with large 
African-American populations. Additionally, the Recruitment Program 
advertises career opportunities in several print magazines, radio 
stations, and websites specifically targeted towards the African-
American community.
    Additionally, in support of Executive Order 13256, which 
established the President's Board of Advisors of HBCUs, the Secret 
Service participated in the White House Initiative on Historically 
Black Colleges and Universities (WHI/HBCUs). Secret Service involvement 
in this initiative was part of a continuing effort to effectively 
engage the African-American community and promote public service as a 
professional career.
    This meeting also served as an opportunity to better assist the 
Secret Service with developing comprehensive strategies to strengthen 
support for African-American students, share ideas and information, and 
recognize promising best practices to accelerate African-American 
success in higher education.
    The Recruitment Program also initiated a Service-wide program of 
conducting college and university educational presentations to career 
counselors. This program will provide an opportunity for college and 
university career counselors to become educated about the duties and 
responsibilities of the Secret Service's dual mission and to promote 
the Secret Service to their students.

Hispanic/Latino Recruiting Initiatives
    The Secret Service Recruitment Program has maintained an aggressive 
recruiting approach as it pertains to the Hispanic/Latino community. In 
fiscal year 2008, the Recruitment Program attended 23 career fairs 
specifically targeting Hispanics/Latinos; attended three national 
conferences; and sponsored six events in cities with a large Hispanic/
Latino population. In fiscal year 2009, the Recruitment Program 
attended 18 career fairs specifically targeting Hispanics/Latinos; 
attended three national conferences; and sponsored five events in 
cities with large Hispanic/Latino populations.
    The Recruitment Program advertises career opportunities to the 
Hispanic/Latino community through a variety of media outlets, including 
print magazines, radio and websites. The Secret Service also has 
advertised career opportunities on the Univision television network in 
the past.
    In compliance with Executive Order 13171 (Hispanic Employment in 
the Federal Government), the Secret Service also has cultivated a 
partnership with Excelencia in Education. This new partnership is part 
of a continuing effort to effectively engage the Hispanic community as 
partners and promote public service as a professional career. In 
addition, the Secret Service has sponsored career advertisements in the 
Hispanic Association of Colleges and Universities Capitol Forum 
Program, and advertised career opportunities with the Excelencia in 
Education Hispanic Serving Institutions Almanac and on their website.

Native-American Recruiting Initiatives
    The Secret Service has maintained a recruiting effort as it relates 
to the Native-American community. In fiscal year 2008, the Recruitment 
Program attended two career fairs specifically targeting the Native-
American community. In fiscal year 2009, the Recruitment Program 
attended five events specifically targeted at the Native-American 
community. The Recruitment Program has recognized that additional 
efforts and outreach need to be focused towards this community. On Oct. 
27, 2009 the Secret Service Recruitment Program is scheduled to 
participate in a career fair at the Haskell Indian Nations University 
in Lawrence, Kansas.
    The Recruitment Program has established a relationship with the 
White House Initiative for Tribal Colleges and Universities (WHITCU). 
This Partnership will assist the Secret Service in establishing and 
maintaining a working relationship with over 35 recognized WHITCU 
institutions.
    To increase the number of American Indian/Alaskan Natives recruited 
for employment opportunities during fiscal year 2008, the Secret 
Service has partnered with DHS Office for Civil Rights and Civil 
Liberties and the WHITCU to meet with seven Tribal Colleges and 
University Presidents in Washington, DC.

Asian-American Recruiting Initiatives
    The Recruitment Program continues to develop its recruitment 
efforts to inform the Asian-American community about career 
opportunities within the Secret Service. In fiscal year 2009 the 
Recruitment Program attended four career fairs specifically targeted to 
the Asian-American Community.
    The Recruitment Program has begun to work with field offices 
throughout the country with significant Asian-American populations to 
coordinate outreach activities to educate this community about career 
opportunities with the Secret Service.

Women Recruiting Initiatives
    The Recruitment Program has consistently maintained a proactive 
recruiting approach in its efforts to recruit women. In fiscal year 
2008, the Recruitment Program attended 16 career fairs specifically 
targeting women and two national conferences. Thus far in fiscal year 
2009, the Recruitment Program has attended two career fairs 
specifically targeting women and two national conferences, with 
additional events already scheduled this year.
    The Recruitment Program also has advertised in Professional Women's 
Magazine and Essence Magazine, and it has distributed pamphlets to over 
74 women's colleges and universities.

Military Recruitment Strategies
    Our Nation's Armed Forces are a source of highly qualified, diverse 
candidates for Secret Service positions in all occupational categories. 
The Recruitment Program developed a coordinated system of advance 
planning and recruiting tools in order to establish a pipeline of high-
quality candidates to fill vacancies and to enhance and maintain long-
term relationships with the military community. These events will 
assist the Secret Service in achieving the strategic staffing/workforce 
needs in hiring special agent, Uniformed Division officer, and 
administrative, professional, and technical personnel.

Special Agent Hiring
    As a result of its recruiting efforts, between Oct. 1, 2007 and 
Sept. 30, 2008, 426 (34.22 percent) of the 1,245 applicants for the 
USSS Special Agent position who voluntarily identified their race were 
women and minorities. In fiscal year 2008 the Secret Service hired 169 
new Special Agents. Out of the 169 new hires, 42 (24.9 percent) were 
women and minorities.

Uniformed Division Officer
    The Secret Service also actively recruited for the Uniformed 
Division Officer position in fiscal year 2008. Between Oct. 1, 2007 and 
Sept. 30, 2008, these efforts yielded 1,134 applicants for Uniformed 
Division Officer position of whom 516 (45.50 percent) were women and 
minorities. In fiscal year 2008, the Service hired 149 new Uniformed 
Division Officers. Out of the 149 new hires, 51 (34.2 percent) were 
women and minorities.

USSS Diversity Management Program
    The Secret Service's Diversity Management Program continues to 
maintain a constituency base with several external law enforcement 
organizations in order to implement strategies for ensuring best 
practices throughout the agency's diverse population.
    In an effort to maximize the career development potential for its 
workforce, the Secret Service designates employee representatives to 
attend various national minority training Conferences on a yearly 
basis. These training expeditions are sponsored by the following law 
enforcement organizations: Hispanic American Police Command Officers 
Association; Women in Federal Law Enforcement; National Organization of 
Black Law Enforcement Executives; National Asian Peace Officers 
Association; and the National Native American Law Enforcement 
Association.

Annual Conference Participation
    The Secret Service chose 25 representatives within the special 
agent and Uniformed Division ranks to attend this year's Women in 
Federal Law Enforcement 10th Annual Leadership Training Conference. A 
team of recruiters from the Recruitment Division also provided 
information to potential candidates who were interested in future 
employment with the Service.
    For more than 15 years, the Secret Service has been an avid 
supporter of the National Organization of Black Law Enforcement 
Executives (NOBLE). This year, the Secret Service's Diversity 
Management Program sent 26 representatives to NOBLE's annual 
conference, where they took full advantage of a training agenda 
designed to prepare future leaders for the next level in their law 
enforcement careers. The conference provided an opportunity for the 
Secret Service to recruit more African Americans.
    The Secret Service also served as co-sponsor of the National Asian 
Peace Officers Association (NAPOA) 22nd Annual Training Conference. 
Over 35 Secret Service employees within the special agent, Uniformed 
Division, and the administrative, professional, and technical ranks 
participated in this year's NAPOA conference. The NAPOA Executive Board 
also hosted an open job fair at the conference.

 SPECIAL PROGRAM PLAN FOR THE RECRUITMENT, HIRING, AND ADVANCEMENT OF 
                 INDIVIDUALS WITH TARGETED DISABILITIES

    The Special Program Plan for the Recruitment, Hiring, and 
Advancement of Individuals with Targeted Disabilities evaluates 
employment trends and participation rates in agency employment programs 
for individuals with targeted disabilities. The Secret Service 
currently employs 15 individuals with targeted disabilities.

        JOHNS HOPKINS UNIVERSITY--MASTERS IN MANAGEMENT PROGRAM

    In order to further develop future leaders of the Secret Service, 
supervisors, and managers are selected biennially to participate in a 
2-year program offered by Johns Hopkins University. Upon successful 
completion, participants receive a Masters in Science and Management 
Degree from the Johns Hopkins University of Business and Education.
    The program has a multi-disciplinary curriculum, which includes 
practical and theoretical management, human resources management, and 
leadership courses. Since 2003, 90 Secret Service employees have been 
selected by the Director to attend the program, 35 of whom were 
minority or female.

         SENIOR EXECUTIVE SERVICE CANDIDATE DEVELOPMENT PROGRAM

    For fiscal year 2008, the Secret Service Senior Executive Service 
Candidate Development program had 19 candidates. Ten (52.6 percent) of 
the candidates were minority or female.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Vice-Chair Griffin to summarize her 
statement for 5 minutes.

 STATEMENT OF CHRISTINE GRIFFIN, VICE-CHAIR, EQUAL EMPLOYMENT 
                     OPPORTUNITY COMMISSION

    Ms. Griffin. Thank you for inviting me to testify today on 
behalf of the Equal Employment Opportunity Commission and to 
speak to the importance of diversity in the Federal workforce, 
specifically at the Department of Homeland Security.
    I am currently the acting vice chair of the EEOC, and in 
that capacity I have taken a particular interest in diversity 
issues in the Federal workforce. I was nominated by President 
Obama on May 12 to be deputy director of the Office of 
Personnel Management. I was confirmed by the Senate on July 31, 
but have not yet been sworn in. It is from this unique 
perspective that I speak today.
    The United States Government employs over 2.5 million men 
and women across the country and around the world. The ability 
of our Government to Federal agencies to meet the complex needs 
of our Nation and the American people rests squarely on these 
dedicated and hard-working individuals.
    Perhaps now more than ever before with increasing public 
expectations of Governmental institutions, Federal agencies 
must position themselves to attract, develop, and retain a top-
quality workforce that can deliver results and ensure our 
Nation's continued growth and prosperity.
    Equal opportunity in the Federal workforce is the key to 
accomplishing this goal. With proper implementation, the Equal 
Employment Opportunity Commission's guidance to Management 
Directive 715 helps agencies uncover and undress all 
impediments to fair and open competition in the Federal 
workforce. MD-715 sets forth guidance for agencies regarding 
their affirmative employment programs under both Title VII of 
the Civil Rights Act and the Rehabilitation Act.
    One of the major changes that MD-715 brings to the Federal 
community is the focus on barrier analysis. In order to develop 
a competitive, highly qualified workforce, Federal agencies 
must fully utilize all workers' talents without regard to race, 
color, religion, national origin, sex, disability, or sexual 
orientation. This goal cannot be accomplished when barriers to 
equal employment opportunity persists in an agency's policies, 
procedures, or practices.
    MD-715 instructs Federal agencies to stop merely treating 
the symptoms of discrimination and start finding the root 
causes of the problem. As such, barrier analysis is the core 
philosophy of this guidance.
    Barrier analysis begins with analyzing all source material 
available to the agency. This, of course, includes the basic 
workforce statistics, but workforce statistics are not the end 
at all. They are rather the beginning of the analysis.
    The Department of Homeland Security has submitted its MD-
715 report to the EEOC annually for each of the last 5 years. 
The Department has been able to identify numerous issues 
affecting opportunity within its workforce. However, we have 
seen very little analysis up until now attempting to actually 
uncover and examine and remove the barriers to equal 
participation at all levels of the workforce.
    In 2005, for example, the Department reported to the EEOC a 
plan to conduct a detailed barrier analysis due to lower-than-
expected participation rate for females throughout the 
Department. They also recognized the need to capture applicant 
data to analyze and measure its recruitment efforts. But our 
view indicates that the Department has really failed to provide 
the adequate resources necessary to resolve these issues.
    Another point of concern. While diversity at the senior 
levels of the Department were raised by this committee, DHS has 
not been able to share how it will analyze and go about 
implementing appropriate steps to address diversity at the 
senior level.
    We stand ready to assist the Department in meeting the 
serious challenges, and let me assure the committee that OPM 
Director John Berry and I are committed to increasing diversity 
within the Federal Government as a whole and in the Senior 
Executive Service in particular.
    OPM has the responsibility to annually report to Congress 
on progress in achieving a diverse workforce under the Federal 
Equal Opportunity Recruitment Program. In addition, OPM is in 
the process of creating an SES office whose primary mission is 
to ensure that the Federal Government draws from a diverse pool 
of individuals who are trained and ready to join the SES ranks.
    We should look to agencies that have increased the 
diversity of the workforce with best practices on how to 
accomplish these achievements.
    Ours is a Government filled with employees capable of 
keeping our planes and trains running safely and on time. We 
can send men and women into space, and it is full of people who 
daily protect us from all the dangers aimed at our homeland and 
our citizens abroad. I refuse to believe that creating a broad 
and diverse workforce is somehow beyond our capabilities as 
well.
    Thank you for your time, and I look forward to any 
questions you might have.
    [The statement of Ms. Griffin follows:]

                Prepared Statement of Christine Griffin
                            October 14, 2009

    Good morning Chairman Thompson and Members of the committee. Thank 
you for inviting me to testify today on behalf of the Equal Employment 
Opportunity Commission (EEOC) to speak to the importance of diversity 
in the Federal workforce, specifically at the Department of Homeland 
Security. I am currently the acting vice chair of the EEOC, and in that 
capacity have taken a particular interest in diversity issues in the 
Federal workforce. I was nominated by President Obama on May 12 to be 
the Deputy Director of the Office of Personnel Management. I was 
confirmed by the Senate on July 31, but have not yet been sworn in. It 
is from this unique perspective that I speak today.
    The United States Government employs over 2.5 million men and women 
across the country and around the world. The ability of our Government, 
through Federal agencies, to meet the complex needs of our Nation and 
the American people rests squarely on these dedicated and hard-working 
individuals. Perhaps now more than ever before--with increasing public 
expectations of Governmental institutions--Federal agencies must 
position themselves to attract, develop, and retain a top-quality 
workforce that can deliver results and ensure our Nation's continued 
growth and prosperity. Equal opportunity in the Federal workplace is 
key to accomplishing this goal.
    In order to develop a competitive, highly qualified workforce, 
Federal agencies must fully utilize all workers' talents, without 
regard to race, color, religion, national origin, sex, age, disability, 
or sexual orientation. While the promise of workplace equality is a 
legal right afforded to all Federal applicants and employees, equal 
opportunity is more than a matter of social justice. It is a national 
economic imperative. Federal agencies must make full use of its talent 
by promoting workplace practices that free up opportunities for the 
best and brightest talent available. All workers must compete on a fair 
and level playing field and have the opportunity to achieve their 
fullest potential. The productivity of an agency is based on the 
productivity of its staff. One sure way to contribute to maintaining 
satisfied and productive employees is to treat them fairly and equally.
    Creating a level playing field requires a significant effort by all 
agency management. From the agency head to first line supervisors, 
equal employment opportunity must be integrated into every aspect of 
the agency. This includes everything from agency personnel policies and 
practices to the agency's culture. With proper implementation, EEOC's 
guidance through Management Directive 715 (MD-715) will help agencies 
uncover and address all impediments to fair and open competition in the 
Federal workplace. MD-715 sets forth guidance for agencies regarding 
their affirmative employment programs under both Title VII of the Civil 
Rights Act and the Rehabilitation Act. In this directive, EEOC 
introduced six essential elements it would use to measure the 
effectiveness of an agency EEO program: Demonstrated commitment from 
agency leadership; integration of EEO into the agency's strategic 
mission; management and program accountability; proactive prevention of 
unlawful discrimination; efficiency; and responsiveness and legal 
compliance. EEOC also provided a self-assessment diagnostic tool to 
help agencies determine possible deficiencies which may compromise the 
effectiveness of their EEO efforts.

                            BARRIER ANALYSIS

    One of the major changes that MD-715 brings to the Federal 
community is the focus on barrier analysis. In the past, affirmative 
employment in some instances was finding under-representation and 
trying to reach statistical parity with labor force data. Barrier 
analysis is a more in-depth process by which agencies uncover, examine, 
and remove barriers to equal participation at all levels of the 
workforce.
    MD-715 instructs Federal agencies to stop merely treating the 
symptoms of discrimination (under-representation), and start finding 
the root causes of the problems (barriers). As such, barrier analysis 
is the core philosophy of this guidance. Barrier analysis begins with 
analyzing all source material available to an agency. This, of course, 
includes basic workforce statistics. Workforce statistics, however, are 
not the end at all, but rather they are the beginning of the analysis. 
Other material that should be used by an agency include EEO complaint 
trend information, exit interviews, internal audits or studies, 
external audits or studies, and employee surveys. Agency EEO 
professionals should also take a close look at all of the agency's 
employment processes, beyond hiring and firings, to include 
disciplinary actions and performance awards.
    In the past, an agency may have made a concerted effort to hire 
more women into their workforce, but never examined why women were 
historically excluded from certain opportunities. Such exclusion may 
have resulted from societal discrimination or the agency's own 
practices. As a result, while the number of women hired increased, the 
attrition rate for women was much higher than men because the 
inequitable systems were left in place. The low participation rate for 
women was a symptom but to find the root cause the agency would need to 
analyze and improve all relevant employment policies, procedures, and 
practices that limited opportunity.
    In order to develop a competitive, highly qualified workforce, 
Federal agencies must fully utilize all workers' talents, without 
regard to race, color, religion, national origin, sex, disability or 
sexual orientation. This goal cannot be accomplished when barriers to 
equality employment opportunity persist in an agency's policies, 
procedures or practices.

                           HOMELAND SECURITY

    The U.S. Department of Homeland Security (DHS) became the Nation's 
15 and newest Cabinet Agency 6 years ago, consolidating numerous 
programs and agencies from across the Federal Government into one 
unified organization with an overriding and urgent mission: To secure 
the American Homeland and protect the American people.
    This consolidated organization employs over 170,000 individuals. 
Men comprise 68% of the Department's workforce while women comprise 32% 
of the workforce. Men occupy 76% of the Department's senior-level 
positions. Government-wide, men account for 57% of the Federal 
workforce and 71% of the senior-level positions.
    The Department has the highest participation rate of Hispanics in 
comparison to all Cabinet and large Federal agencies at nearly 20% of 
the workforce. However, Hispanics account for only 6% of the 
Department's senior-level positions. Hispanic females account for less 
than 1% of the senior-level positions. Government-wide, Hispanic 
employees account for 8% of the Federal workforce and 4% of the senior-
level positions.
    White employees account for 60% of the Department's workforce and 
87% of the Department's senior-level positions. Of this latter number, 
White females only account for 21% of the senior-level positions. 
Government-wide, White employees account for 65% of the Federal 
workforce and 85% of the senior-level positions.
    Black employees account for 14% of the Department's workforce and 
5% of the Department's senior-level positions. Black females only 
account for a little over 1% of the Department's senior-level 
positions. Government-wide, Black employees account for 19% of the 
Federal workforce and 8% of the senior-level positions.
    Asian employees account for 4% of the Department's workforce and 
1.5% of the Department's senior-level positions. Government-wide, Asian 
employees account for 6% of the Federal workforce and 3% of the senior-
level positions.
    Employees with disabilities account for 3.5% of the Department's 
workforce. Employees with targeted disabilities account for 0.39% of 
the Department's workforce. EEOC has paid particular attention to the 
progress of individuals with targeted disabilities because these 
individuals tend to have more severe disabilities that are immediately 
apparent to potential employers and which the employers are likely to 
believe will require accommodation. Individuals with targeted 
disabilities (IWTD) serve as the indicator for the success or failure 
of the Federal Government's efforts with respect to all individuals 
with disabilities. To assist Federal agencies, EEOC has set a benchmark 
for agencies to increase the participation rate of IWTD. This benchmark 
is 2% of the workforce. Currently, the Federal Government has dropped 
to an average participation rate of 0.88%.
    The Department has submitted annual reports (MD-715 Reports) to 
EEOC for each of the last 5 years. The Department has been able to 
identify numerous issues affecting opportunity within its workforce. 
However, we have seen very little analysis attempting to uncover, 
examine, and remove barriers to equal participation at all levels of 
the workforce.
    In 2005, the Department reported to EEOC that it planned to conduct 
a detailed barrier analysis due to lower than expected participation 
rates for females throughout the Department. Our review indicates that 
the Department has failed to provide adequate resources necessary to 
analyze and solve the issue. For example, since 2005, the Department 
has recognized the need to capture applicant data to analyze and 
measure its recruitment efforts, but resources have not been allocated 
to collect this crucial data.
    Another point of concern--while diversity at the senior levels of 
the Department has been raised by this committee, DHS has not shared 
with EEOC how it has engaged in substantive efforts to analyze what is 
going on at the senior level and how it will implement appropriate 
steps to address diversity at the senior level.
    We stand ready to assist the Department in meeting these serious 
challenges. Let me assure the committee that OPM Director John Berry 
and I are committed to increasing diversity within the Federal 
Government as a whole and in the Senior Executive Service in 
particular. OPM has the responsibility to annually report to Congress 
on progress in achieving a diverse workforce under the Federal Equal 
Opportunity Recruitment Program (FEORP). The FEORP report contains 
information on the representation of minorities and women in the 
Federal Government and provides information on agency practices in 
support of FEORP. OPM has also taken other steps to increase Federal 
agencies awareness of the importance of a diverse workforce; for 
example, it has partnered with EEOC to promote our LEAD Initiative and 
the use of special appointing authorities to increase the hiring of 
people with disabilities within the Government. It has worked with our 
military to promote Federal career civil service jobs to soldiers 
transitioning to civilian life. It has engaged in outreach efforts to 
minority organizations such as Historically Black Colleges and 
Universities and Hispanic-Serving Institutions to broaden the appeal of 
Federal employment. In fact, as I speak to you today, OPM is in the 
process of creating an SES Office. One of its primary missions is to 
ensure that the Federal Government draws from a diverse pool of 
individuals who are trained and ready to join the SES ranks. I am 
personally committed to greatly expanding on these efforts once I 
assume my position as Deputy Director.
    We all know the statistics by now. Yet too many Federal agencies 
look at the production of these reports as goals in and of themselves, 
rather than the tools to reach the broader objective of a diverse and 
inclusive workforce at all levels of Government. Knowing the statistics 
and determining whether there are any barriers to inclusiveness are two 
very different things. I won't rest until every Federal agency, 
including the Department of Homeland Security, has identified any 
barriers that might exist and has implemented a viable and effective 
blueprint for eliminating them.
    I do not believe such an effort requires a wholesale change of how 
the Government recruits, hires, and promotes its employees. As the 
President stated in his September 9, 2009, address to the Joint Session 
of Congress, ``it makes more sense to build on what works and fix what 
doesn't, rather than try to build an entirely new system from 
scratch.'' We can look to those agencies that have increased the 
diversity of their workforce for best practices on how they 
accomplished such achievements. We can learn from the mistakes made by 
other agencies whose diversity efforts have fallen short. Ours is a 
Government filled with employees capable of keeping our planes and 
trains running safely and on time; who can send men and women into 
space; and, who daily protect us from all the dangers aimed at our 
homeland and our citizens abroad. I refuse to believe that creating a 
broad and diverse workforce is somehow beyond our capabilities as well.
    Thank you for your time and I look forward to any questions you may 
have.

    Chairman Thompson. Thank you very much. I did omit your new 
appointment. Congratulations.
    Ms. Griffin. Thank you.
    Chairman Thompson. I do know you are kind of serving to 
keep up for him on the existing facility going, so we thank you 
for both jobs.
    Ms. Griffin. Thank you.
    Chairman Thompson. I do thank you for your testimony.
    I now recognize Director Jones to summarize her statement 
for 5 minutes.

STATEMENT OF YVONNE D. JONES, DIRECTOR, STRATEGIC ISSUES TEAM, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Jones. Mr. Chairman and Members of the committee, thank 
you for the opportunity to discuss the Department of Homeland 
Security's efforts to identify and address barriers to equal 
employment opportunity in its workforce.
    We have reported that it is important for Federal agencies, 
including DHS, to use available flexibilities to acquire 
develop, motivate, and retain talented individuals who reflect 
our Nation's diversity. This testimony is based on our recently 
issued report on equal employment opportunity and barrier 
analysis at DHS.
    I will discuss three points: First, the extent to which DHS 
has taken steps to identify barriers to EEO in the workplace; 
second, efforts DHS has taken to address identified barriers 
and what progress has been reported; and third, how DHS 
oversees and supports its components in identifying and 
addressing barriers.
    First, our review of DHS's MD-715 reports show that the 
agency has generally relied on workforce data to identify 
triggers, the term EEOC uses for indicators of potential 
barriers.
    However, according to the EEOC, in addition to workforce 
data agencies should consult a variety of sources such as exit 
interviews, employee groups, and employee surveys to identify 
triggers. By not considering employee input, DHS is missing 
opportunities to identify triggers.
    My second point is that once the trigger has been 
identified, agencies are to investigate and to pinpoint actual 
barriers and their causes. In 2007, through its Department-wide 
barrier analysis, DHS identified for barriers: (1) Over-
reliance on the internet to recruit applicants, (2) over-
reliance on noncompetitive hiring authorities, (3) lack of 
recruitment initiatives directed at Hispanics, and (4) non-
diverse interview panels.
    In its 2007 and 2008 MD-715 reports, DHS defined activities 
to address these areas. However, our analysis of the two 
reports also showed that DHS has extended nearly all of its 
original target completion dates by a range of 12 to 21 months 
and has not completed any planned activities to address and 
identify barriers.
    To ensure that agency programs are effectively implemented, 
it is important for agencies to use internal control activities 
such as establishing and tracking goals with timelines and 
establishing milestones. These controls allow agencies to 
pinpoint performance shortfalls and to suggest midcourse 
corrections.
    My third and final point is that DHS uses a variety of 
means to support its components, including preparing workforce 
data tables for components, providing written feedback on draft 
reports to components that prepare their own MD-715 reports, 
conducting program audits, and convening a council of the EEO 
directors from each component.
    Also, we learned that the reporting relationship between 
the DHS acting officer for civil rights and civil liberties, 
who is also the EEO line of business head, and component EEO 
directors is not a direct reporting relationship. The EEO 
directors report not to him, but to their component heads.
    While this EEO structure is similar to other cost-cutting 
lines of business in DHS, those lines of business have 
reporting relationships established through management 
directives. In contrast, the acting officer for civil rights 
and civil liberties stated that he relies on a collaborative 
relationship with the component EEO directors to carry out his 
responsibility.
    Based on our work described above, we recommended in the 
report that the Secretary of Homeland Security direct the 
officer for civil rights and civil liberties to develop a 
strategy to regularly include employee input and trigger 
definition and that the officer also be directed to identify 
essential activities and develop interim milestones necessary 
to complete all planned activities to address identified 
barriers to the EEO. DHS agreed with our recommendations.
    Mr. Chairman, this concludes my statement. I am happy to 
respond to any questions that you or Members of the committee 
may have.
    [The statement of Ms. Jones follows:]

                 Prepared Statement of Yvonne D. Jones
                           September 16, 2009
Equal Employment Opportunity.--DHS Has Opportunities to Better Identify 
              and Address Barriers to EEO in Its Workforce

                              GAO-09-1010T

    Mr. Chairman and Members of the committee: Thank you for the 
opportunity to discuss the Department of Homeland Security's (DHS) 
efforts to identify and address barriers to equal employment 
opportunity (EEO) in its workforce. Since its inception in March 2003, 
DHS has faced a number of challenges, one of which is effectively and 
strategically managing its large workforce (about 216,000 employees) to 
respond to current and emerging 21st Century issues.
    The Federal Government is faced with a workforce that is becoming 
increasingly eligible for retirement. We have reported that it is 
important for Federal agencies, including DHS, to use available 
flexibilities to acquire, develop, motivate, and retain talented 
individuals who reflect all segments of society and our Nation's 
diversity. The Equal Employment Opportunity Commission's (EEOC) 
Management Directive (MD) 715 provides that in order to attract and 
retain top talent, Federal agencies are to identify barriers to EEO in 
the workplace, execute plans to eliminate barriers, and report annually 
to EEOC.
    This testimony is based on our report that we plan to release at 
the hearing entitled Equal Employment Opportunity: DHS Has 
Opportunities to Better Identify and Address Barriers to EEO in Its 
Workforce.\1\ I will discuss: (1) The extent to which DHS has taken 
steps, according to its MD-715 reports, to identify barriers to EEO in 
the workplace; (2) efforts DHS has taken to address identified barriers 
and what progress has been reported; and (3) how DHS oversees and 
supports its components in identifying and addressing barriers. For 
this work, we analyzed DHS's identified barriers and plans to address 
those barriers obtained from its fiscal year 2007 and 2008 reports. In 
addition, we reviewed DHS policies, guidance, directives, and diversity 
plans related to identifying and addressing barriers. We interviewed 
DHS officials from its Office of Civil Rights and Civil Liberties 
(CRCL) and the Office of the Chief Human Capital Officer (OCHCO). We 
also reviewed MD-715 and EEOC instructions and guidance on MD-715, and 
interviewed EEOC officials from its Office of Federal Operations. We 
obtained information from the Office of Personnel Management's (OPM) 
Strategic Human Resource Policy Division on the availability of Federal 
Human Capital Survey (FHCS) data to Federal agencies. Our report 
contains a more detailed discussion of our objectives, scope, and 
methodology. Our work was performed in accordance with generally 
accepted Government auditing standards.
---------------------------------------------------------------------------
    \1\ GAO-09-639 (Washington, DC: Aug. 31, 2009).
---------------------------------------------------------------------------
    In brief, Mr. Chairman, we found that: (1) DHS has not regularly 
included employee input from available sources to identify potential 
barriers to EEO; (2) DHS has modified nearly all of its original target 
completion dates on planned activities to address identified barriers 
and has not completed any of those planned activities; and (3) DHS uses 
a variety of means to oversee and support components, including 
conducting program audits and convening a council of EEO directors from 
each of the components. I will cover each one of these in turn.
    First, our review of DHS's MD-715 reports showed that DHS has 
generally relied on workforce data to identify ``triggers,'' the term 
EEOC uses for indicators of potential barriers. More specifically, such 
workforce data can provide a very valuable perspective. However, DHS 
could provide additional perspectives by regularly including employee 
input from available sources. DHS generally relied on workforce data to 
identify 13 of 15 triggers, such as promotion and separation rates, as 
table 1 shows.

                   TABLE 1.--TRIGGERS IDENTIFIED IN DHS'S 2008 MANAGEMENT DIRECTIVE 715 REPORT
----------------------------------------------------------------------------------------------------------------
                Trigger                            Groups Affected                          Source
----------------------------------------------------------------------------------------------------------------
1. Participation rates in the total      Total females and White females....  Analysis of workforce data.
 workforce were below participation
 rates in the civilian labor force
 (CLF) (a).
2. Participation rates among officials   Total females and White females....  Analysis of workforce data.
 and managers (b) were below
 participation rates in the relevant
 civilian labor force (RCLF) (c).
3. Participation rates among             Total females and White females....  Analysis of workforce data.
 professionals (b) were below
 participation rates in the RCLF.
4. Participation rates among service     Total females and White females....  Analysis of workforce data.
 workers (b) were below participation
 rates in the RCLF.
5. Participation rates among General     GS-14: Hispanic males. GS-15:        Analysis of workforce data.
 Schedule (GS) grades GS-14 and GS-15     Hispanic males. SES: Hispanic
 and the Senior Executive Service (SES)   males, total females, African
 were below participation rates in        American females, and African
 DHS's total GS workforce population.     American males.
6. Participation rates among cross-      Total females and White females....  Analysis of workforce data.
 cutting, high-profile occupations (d)
 were below participation rates in the
 RCLF.
7. Participation rates among new hires   Total females and White females....  Analysis of workforce data.
 by type of appointment (e) were below
 participation rates in the CLF.
8. Award rates of quality salary         Total males, Hispanic males, White   Analysis of workforce data.
 increases were below participation       males, African American males,
 rates in DHS's permanent workforce.      American Indian/Alaskan Native
                                          males, American Indian/Alaskan
                                          Native females, and males
                                          identified as two or more/other
                                          races.
9. Separation rates (voluntary and       Voluntary: Total females, White      Analysis of workforce data.
 involuntary) were higher than            females, African American males,
 participation rates in DHS's permanent   and African American females.
 workforce.                              Involuntary: African American males
                                          and total females.
10. Participation rates (temporary and   DHS employees with targeted          Analysis of workforce data.
 permanent workers) were below the        disabilities (g).
 ``Federal high'' in DHS's total
 workforce (f).
11. Physical barriers to employment....  DHS employees with targeted          MD-715 self-assessment checklist
                                          disabilities.                        (part G) and comments made at a
                                                                               disability awareness training for
                                                                               managers.
12. Separation rates (total and          DHS employees with disabilities and  Analysis of workforce data.
 voluntary) exceeded participation        targeted disabilities.
 rates in DHS's permanent workforce.
13. Promotion rates (competitive and     DHS employees with disabilities and  Analysis of workforce data.
 noncompetitive) were below               targeted disabilities.
 participation rates in DHS's permanent
 workforce.
14. Participation rates were below the   DHS employees with disabilities and  Analysis of workforce data.
 ``Federal high'' in DHS's temporary      targeted disabilities.
 workforce.
15. Increased incidents of workplace     Muslims, Arabs, South Asians, and    November 19, 2001, EEOC,
 harassment, discrimination, and          Sikhs.                               Department of Justice and
 violence.                                                                     Department of Labor ``Joint
                                                                               Statement Against Employment
                                                                               Discrimination in the Aftermath
                                                                               of the September 11 Terrorist
                                                                               Attacks''.
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS's 2007 and 2008 MD-715 reports.
(a) The CLF is defined as those 16 and older (including Federal workers) who are employed or looking for work
  and are not in the military or institutionalized.
(b) EEOC uses nine occupational categories for the Federal workforce--officials and managers, professionals,
  technicians, sales, administrative support workers, craft workers, operatives, laborers, and service workers.
(c) EEOC defines the RCLF as the available pool in the CLF for a specific occupation, including geographic
  considerations of the recruitment area.
(d) According to DHS's 2008 MD-715 report, cross-cutting, high-profile occupations within DHS are mission-
  critical occupations that reside in multiple organizational elements or by their very nature are high-profile
  occupations, for example, transportation security officers.
(e) Types of appointment include permanent, temporary, and nonappropriated funds.
(f) EEOC has designated the ``FEDERAL high'' as the benchmark for comparing an agency's employment of
  individuals with targeted disabilities. The Federal high is of a Federal agency (with 500 or more permanent
  employees) that had the highest participation rate of employees with targeted disabilities during the prior
  fiscal year. For 2008, the Federal high was 2.65 percent.
(g) According to EEOC, to encourage the hiring, placement, and advancement of selected individuals with
  disabilities in affirmative action planning, EEOC has identified nine categories of targeted disabilities: (1)
  Deafness; (2) blindness; (3) missing extremities; (4) partial paralysis; (5) complete paralysis; (6)
  convulsive disorders; (7) mental retardation; (8) mental illness; and (9) distortion of limb, spine, or both.

    According to EEOC, in addition to workforce data, agencies are to 
regularly consult a variety of sources, such as exit interviews, 
employee groups, and employee surveys to identify triggers. Involving 
employees helps to incorporate insights about operations from a 
frontline perspective in determining where potential barriers exist. 
DHS does not consider employee input from such sources as employee 
groups, exit interviews, and employee surveys in conducting its MD-715 
analysis. Data from OPM's Government-wide FHCS and DHS's internal 
employee survey by race, gender, or national origin are available, but 
DHS does not analyze these data to determine whether employees perceive 
certain personnel policies or practices as possible barriers. By not 
considering employee input on DHS personnel policies and practices, DHS 
is missing opportunities to identify triggers.
    Once a trigger is revealed, agencies are to investigate and 
pinpoint actual barriers and their causes. In 2007, through its 
Department-wide barrier analysis, DHS identified four barriers: (1) 
Overreliance on the internet to recruit applicants, (2) overreliance on 
noncompetitive hiring authorities, (3) lack of recruitment initiatives 
that were directed at Hispanics in several components, and (4) 
nondiverse interview panels. In DHS's 2007 and 2008 MD-715 reports, DHS 
articulated planned activities to address these barriers. Nearly half 
of the planned activities involve collaboration between the civil 
rights and human capital offices.
    In regards to my second point, our analysis of DHS's 2007 and 2008 
MD-715 reports showed, as indicated in table 2, that DHS has modified 
nearly all of its original target completion dates by a range of 12 to 
21 months, and has not completed any planned activities.

               TABLE 2.--DHS IDENTIFIED BARRIERS, PLANNED ACTIVITIES, AND TARGET COMPLETION DATES
----------------------------------------------------------------------------------------------------------------
                                                                   Modified Target
                                                                 Completion Date From
                                                                  2008 MD-715 Report
        Identified Barrier            Planned Activities (a)      and (Original Date          2008 Update
                                                                   From 2007 MD-715
                                                                       Report)
----------------------------------------------------------------------------------------------------------------
Overreliance on the internet to     1. Partner with OCHCO to    (09/30/2009).........  No 2008 update was listed
 recruit applicants for cross-       ``Implement an enterprise-                         for this planned
 cutting, high-profile occupations.  wide recruitment                                   activity.
                                     strategy'' (b).
                                    2. Partner with OCHCO to    12/31/2009  (09/30/    OCHCO indicated that it
                                     ``Deploy applicant flow     2008).                 is working toward a
                                     tool to analyze                                    redeployment of the e-
                                     recruitment and hiring                             Recruitment System.
                                     results''.
                                    3. Collect and analyze      12/31/2010  (09/30/    A lesson learned in
                                     additional data that        2009).                 fiscal year 2008 was
                                     could more conclusively                            that targeted recruiting
                                     demonstrate a link                                 can be done more
                                     between overreliance on                            efficiently over the
                                     on-line recruiting media                           internet and that DHS
                                     and equality of                                    needs to develop an on-
                                     opportunity for                                    line methodology in
                                     applicants (c).                                    fiscal year 2009 to
                                                                                        reach active candidates
                                                                                        looking for jobs and
                                                                                        passive (not actively
                                                                                        looking) candidates who
                                                                                        have the appropriate
                                                                                        skills and education.
                                    4. Develop a financial      12/31/2010  (03/30/    See No. 3.
                                     grid with information       2009).
                                     about the employee
                                     group(s) targets for a
                                     specific recruitment
                                     tactic (d).
Overreliance on noncompetitive      1. Coordinate with OCHCO    12/31/2009  (09/30/    OCHCO indicated it is
 hiring authorities.                 to ensure that the          08).                   working toward a
                                     applicant flow tool has                            redeployment of the e-
                                     the capability to capture                          Recruitment System.
                                     the additional data
                                     identified in No. 2.
                                    2. Collect and analyze      12/31/2010  (09/30/    CRCL will identify any
                                     additional data that        2009).                 specific follow-on
                                     would more conclusively                            actions required after
                                     demonstrate a link                                 the potential barriers
                                     between overreliance on                            are confirmed.
                                     noncompetitive hiring
                                     authorities and equality
                                     of opportunity for
                                     applicants (c).
                                    3. Have the DHS Corporate   12/31/2010...........  N/A (f).
                                     Recruitment Council
                                     target candidates for
                                     components that have low
                                     participation rates (e).
Lack of specific recruitment        1. Partner with OCHCO to    (09/30/2009).........  CRCL participated in the
 initiatives directed to Hispanics   ``Implement an enterprise-                         DHS Corporate
 in several components.              wide recruitment                                   Recruitment Council,
                                     strategy'' (b).                                    which in fiscal year
                                                                                        2008 targeted five major
                                                                                        categories of candidates
                                                                                        to target.
                                    2. Coordinate with OCHCO    12/31/2009  (12/31/    OCHCO indicated that it
                                     to ensure that the          2008).                 is working towards a
                                     applicant flow tool has                            redeployment of the e-
                                     the capability to capture                          Recruitment System.
                                     the additional data
                                     identified under item No.
                                     3.
                                    3. Collect additional data  12/31/2010  (09/30/    CRCL will identify any
                                     that could more             2009).                 specific follow-on
                                     conclusively demonstrate                           actions required after
                                     a link between                                     the potential barriers
                                     problematic/insufficient                           are confirmed.
                                     responses to Executive
                                     Order 13171 and equality
                                     of opportunity for
                                     applicants and employees
                                     (c).
                                    4. Develop Department-wide  12/31/2010  (03/31/    No 2008 update was listed
                                     guidance to address the     2009).                 for this planned
                                     issue of levels of                                 activity.
                                     education among Hispanics
                                     in the pipeline.
                                    5. Have the DHS Corporate   12/31/2010...........  N/A (f).
                                     Recruitment Council
                                     target candidates for
                                     components that have
                                     underrepresentation (e).
Nondiverse interview panels.......  1. Collaborate with OCHCO   12/31/2009  (09/30/    No 2008 update was listed
                                     in the development of       2008).                 for this planned
                                     guidelines that addresses                          activity.
                                     the diversity/composition
                                     of interview panels.
                                    2. Collect additional data  12/31/2010  (09/30/    CRCL will identify any
                                     to determine the impact     2009).                 specific follow-on
                                     of nondiverse interview                            actions required after
                                     panels (c).                                        the potential barriers
                                                                                        are confirmed.
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS's 2007 and 2008 MD-715 reports.
(a) DHS has identified 12 unique planned activities. The planned activities listed total 14 because 2 planned
  activities are listed twice.
(b) This planned activity is listed twice.
(c) In the fiscal year 2008 MD-715 report, DHS specifies the additional information to obtain.
(d) According to DHS's 2008 MD-715 report, the financial grid will identify the cost-effectiveness and human
  capital yield that results from using a specific recruitment tactic to acquire specific employee groups. Also,
  the grid data will produce information about the investment costs allocated for each recruitment tactic for
  each employee group as well as information about the number of contacts made using a specific approach.
(e) This planned activity is listed twice.
(f) Not applicable. This planned activity was first identified in the fiscal year 2008 MD-715 report; therefore,
  it could not have been modified in the 2008 report.

    Although DHS officials reported completing other activities in 
fiscal year 2007 and 2008 associated with its EEO program, DHS said 
that it modified the dates because of staffing shortages. To ensure 
that agency programs are effectively and efficiently implemented, it is 
important for agencies to implement internal control activities,\2\ 
such as establishing and tracking implementation goals with 
timelines.\3\ This allows agencies to pinpoint performance shortfalls 
and gaps and suggest midcourse corrections. DHS has not developed 
project plans with milestones beyond what is included in its MD-715 
report and its Human Capital Strategic Plan. These documents include 
only the anticipated outcomes and target completion dates, not the 
essential activities needed to achieve the outcomes. For example, in 
DHS's 2007 and 2008 MD-715 reports, CRCL identified analyzing 
recruitment and hiring results using an applicant flow tool as a 
planned activity to address the barrier of overreliance on the use of 
the internet to recruit applicants. DHS's Human Capital Strategic Plan 
also identified analyzing recruitment and hiring results using an 
applicant flow tool as an action to achieve its Department-wide 
diversity goal. DHS does not articulate interim steps or milestones 
that would help it to achieve this outcome in either document. 
Identifying the critical phases of each planned activity necessary to 
achieve the intended outcome with interim milestones could help DHS 
ensure that its efforts are moving forward and manage any needed 
midcourse corrections, while minimizing modification of target dates.
---------------------------------------------------------------------------
    \2\ GAO, Standards for Internal Control in the Federal Government, 
GAO/AIMD-00-21.3.1 (Washington, DC: November 1999). We used the 
criteria in these standards, issued pursuant to the requirements of the 
Federal Managers' Financial Integrity Act of 1982 (FMFIA), to provide 
the overall framework for establishing and maintaining internal control 
in the Federal Government. Pub. L. No. 97-255, 96 Stat. 814. Also 
pursuant to FMFIA, the Office of Management and Budget issued Circular 
No. A-123, revised December 21, 2004, to provide the specific 
requirements for assessing and reporting on internal controls. Internal 
control standards and the definition of internal control in Circular 
No. A-123 are based on the aforementioned GAO standards.
    \3\ GAO, Results-Oriented Cultures: Implementation Steps to Assist 
Mergers and Organizational Transformations, GAO-03-669 (Washington, DC: 
July 2, 2003).
---------------------------------------------------------------------------
    My third and final point is that DHS uses a variety of means to 
oversee and support components, including providing written feedback on 
draft reports to components that are required to prepare their own MD-
715 reports, conducting program audits, and convening a council of EEO 
directors from each of the components.\4\ At DHS, according to the DHS 
Acting Officer for CRCL and the Deputy Officer for EEO Programs, 
component EEO directors do not report directly to CRCL but to their 
respective component heads. While this EEO organizational structure is 
similar to other cross-cutting lines of business (LOB), other cross-
cutting LOBs have indirect reporting relationships, established through 
management directives, between the component LOB head and the DHS LOB 
chief for both daily work and annual evaluation. In contrast, the 
Deputy Officer for EEO Programs stated that he relies on a 
collaborative relationship with the EEO directors of the components to 
carry out his responsibilities. A management directive interpreting the 
scope of authority delegated by the Secretary of Homeland Security to 
the Officer for CRCL to integrate and manage the DHS EEO program is 
awaiting approval.
---------------------------------------------------------------------------
    \4\ According to MD-715 guidance, components with a certain amount 
of autonomy from their parent agencies are to prepare their own MD-715 
reports. Components are to submit these reports to their headquarters 
for inclusion in the agency-wide report and must also file a copy with 
EEOC. DHS has eight reporting components that must prepare and submit 
their own MD-715 reports. DHS reporting components are the Federal 
Emergency Management Agency, Federal Law Enforcement Training Center, 
Transportation Security Administration, U.S. Citizenship and 
Immigration Services, U.S. Coast Guard, U.S. Customs and Border 
Protection, U.S. Immigration and Customs Enforcement, and U.S. Secret 
Service.
---------------------------------------------------------------------------
                    CONCLUSIONS AND RECOMMENDATIONS

    Input from employee groups reflects the perspective of the 
individuals directly affected by employment policies and procedures and 
could provide valuable insight into whether those policies and 
procedures may be barriers to EEO. Because CRCL does not regularly 
include employee input from available sources, such as the FHCS and 
DHS's internal employee survey, it is missing opportunities to identify 
potential barriers to EEO. For barriers DHS has already identified, it 
is important for DHS to ensure the completion of planned activities 
through effective internal control activities, including the 
identification of critical schedules and milestones that need to be 
completed by a given date. Effective internal controls could help DHS 
ensure that its efforts are moving forward, manage any needed mid-
course corrections, and minimize modifications of target completion 
dates. Additional staff, which DHS plans to add in 2009, could help DHS 
implement effective internal control activities.
    We recommend in our report that the Secretary of Homeland Security:
  <bullet> direct the Officer for CRCL to develop a strategy to 
        regularly include employee input from such sources as the FHCS 
        and DHS's internal survey in identifying potential barriers to 
        EEO; and
  <bullet> direct the Officer for CRCL and the CHCO to identify 
        essential activities and establish interim milestones necessary 
        for the completion of all planned activities to address 
        identified barriers to EEO.

                            AGENCY COMMENTS

    We provided a draft of our report to the Secretary of Homeland 
Security for review and comment. In written comments, which are 
reprinted in the report, the Director of DHS's Departmental GAO/OIG 
Liaison Office agreed with our recommendations.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or the other Members of the committee may 
have. For questions about this testimony, please contact Yvonne D. 
Jones.

    Chairman Thompson. Thank you very much.
    I thank all the witnesses for their testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel. I will now recognize myself for questions.
    Secretary Lute, you have heard the barrier analysis 
referred to by our other witnesses. Have you had an opportunity 
to either review past barrier analysis to see what is the 
status of those findings? Can you share that with the 
committee?
    Ms. Lute. Yes, Mr. Chairman, I have. I have also spoken to 
the component heads, and we have discussed how to understand 
these barriers in plain language. What is preventing our 
recruitment and retention and promotion and elevation to senior 
ranks of minority candidates?
    The barriers are something that emerge out of the MD-715, 
as was noted, and these are things that the component heads 
have assured me they are taking extremely seriously.
    For example, we know that we are weak on recruitment, that 
we are underrepresented in women, that our weakness in 
promotion in part relates to challenges of geography and 
mobility, and in part work related to quality of life show 
there has been an examination of these barriers within each of 
the components. We are looking to examine those comprehensively 
and to learn from each other those strategies that might help 
us overcome those barriers to doing better.
    Chairman Thompson. Thank you. Now, GAO made some 
recommendations about how you could structurally integrate 
those findings within DHS. Can you share with the committee how 
you plan to approach it from DHS's perspective?
    Ms. Lute. We agree with both of the principal GAO findings 
and believe, for example, in engaging our civil rights and 
civil liberties officer into understanding how we can remove 
those barriers and creating a better data understanding of how 
these barriers are operating. Understanding, for example, how 
is mobility and geography and remoteness of location, for 
example--how does that factor into people's unwillingness to be 
recruited to a site or to be transferred to a site when it 
might involve a promotion? So we want to drill down to a 
greater extent in terms of understanding the data, but then 
translate that understanding into policy recommendations so 
that we can make better progress here.
    Chairman Thompson. Thank you.
    Ms. Griffin, can you share with the committee whether or 
not those barrier analyses, in your experience, have proven 
beneficial in looking at issues like diversity?
    Ms. Griffin. Sorry--bears for them their organization. We 
have actually found that they then can develop a plan to 
address that. We never really ask an agency to do everything 
overnight. The MD-715 was really meant as a tool to be a 
strategic plan for the agency.
    So you do your barrier analysis, and you start planning: 
How am I going to address all of these issues? What is my plan 
going to be? How much time is it going to take me to do it? We 
found that agencies that take this seriously end up with a more 
diverse workforce.
    Chairman Thompson. Dr. Lute, am I to understand that this 
will be an annual review, this 715? How do you look at this 
process going forward?
    Ms. Lute. We look at the 715 not only as an accountability 
document, Mr. Chairman, but as a management document as well. 
As Ms. Griffin has just said, when you drill down and 
understand what are really presenting barriers to recruitment 
or retention--are we having non-diverse panels, for example? 
When you don't have diversity on your panel, you are less 
likely to select the candidate who is diverse.
    We need to look at that and understand where is that 
happening. That is an easy one to fix. So we look at this as an 
annual exercise, for sure, but also something that will be 
constantly instructive to us as leadership to reduce those 
barriers where we can.
    Chairman Thompson. You referenced input from staff. Can you 
explain to us the process by which that input is received back 
from staff?
    Ms. Lute. One of the findings from the GAO report was that 
we relied on workforce data and that we did not pull in input 
from the staff, either through staff surveys or staff 
associations. In fact, what we discovered as we have begun to 
look at this issue systematically, Mr. Chairman, is that we did 
not have a Department policy on staff association. So, we have 
corrected that.
    While many of the components have had a policy on 
encouraging staff associations and outlining the requirements 
or the issues to be followed when creating a staff association, 
we did not have one at the Departmental level. In consequence, 
we only have three staff associations in the third-largest 
department in this Government. So we corrected that.
    Yesterday I signed the management directive outlining a 
Departmental policy on staff associations. This would be one 
means, meeting regularly with the staff associations to hear 
from them providing input and feedback to these processes.
    Chairman Thompson. Thank you very much.
    I now recognize the gentleman from California for 5 
minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Thank the witnesses for being here.
    Ms. Jones mentioned that, as I understand it, I think the 
third point you made at the end was that there is under-
representation of Hispanics in the Department. Is that correct?
    Ms. Jones. That is what we learned from our review of the 
MD-715, yes.
    Mr. Lungren. Okay. As I look at the military, it doesn't 
appear that there is under-representation of Hispanics in the 
military, which would suggest that maybe the veterans pool 
would be an excellent pool to attempt to attract people into 
DHS.
    Secretary Lute, in your testimony, you made mention of the 
Department's effort to reach out to veterans. You talked 
about--I know that the Department hosted its first veterans 
jobs affair in July, I think. You had 745 people, something 
like that, show up.
    What has the Department done since then? Does that appear 
to be a pool that you ought to be working with, not only 
because we want to make sure our veterans are properly 
appreciated, but also that it might assist you in the under-
representation that evidently now occurs with respect to 
Hispanics?
    Ms. Lute. Thank you for that question. This is an issue 
that speaks to my heart. I am a veteran. As the senior veteran 
in the Department of Homeland Security, I take very seriously 
our outreach in connection to veterans for their ability to 
continue to serve.
    In this respect, I would like to point out that the 
Department's overall representation in Hispanics is just over 
18 percent. The U.S. population is 15.5 percent. The real issue 
is our representation of Hispanics at management levels where 
we are under-represented and at more senior levels and doing 
what we can to encourage the promotion and retention of 
Hispanics as well as other minority candidates.
    We believe that outreach to veterans is an important aspect 
of a successful strategy.
    Mr. Lungren. Well, what are you doing beyond the fair is my 
question?
    Ms. Lute. So we have followed up. We have increased our 
numbers of veterans that have been brought into the Department. 
The Secretary has declared that she would like us to be 
employing over 50,000 veterans by the end of 2010. We are 3,500 
away from that figure. But this is also a rich source of 
information, leads, and of possibilities and of creating the 
culture that we want to create of committed service to our 
country from a very diverse pool that veterans represent.
    Mr. Lungren. Okay. I guess my question is, though, what are 
you doing? You had a job fair. You had 745 people.
    Ms. Lute. Right. We have brought in 3,000 veterans in that 
intervening period of time. We have--the Secretary has set a 
mark on the wall for us to achieve. We are continuing our 
outreach.
    Mr. Lungren. Okay. Let me ask you a question. This is a 
general question, but I would like the three of you to respond 
to it.
    I am one of those who, frankly, has been offended by the 
reaction I have seen on television to a personality named 
Letterman. The way I view it from what he has said and what is 
come out, it appeared that there was in that environment a 
hostile environment for women working. The reason why I am 
offended is not only that environment existed--but the reaction 
I have seen on television and the reaction I have seen in the 
general press with some exceptions has been, well, he is a 
celebrity. That is what you do, and so forth.
    If that message goes out to women--and I have two 
daughters, and I have two granddaughters. If that message goes 
out to women that a hostile environment as far as a person in 
authority making it clear how you advance, that is a terrible, 
terrible message. So I guess I would have two questions. When 
you are talking about triggers, is there a way to see if in 
certain areas of your Department there might be a hostile 
environment with respect to superiors dealing with women?
    Second, is it your observation that what I have seen with 
respect to Letterman and the response an aberration to where we 
are as a society? Or is it such a problem today that hostile 
environment with respect to a superior dealing with women 
establishing an everybody knows what is going on and if you 
want to advance, that is what you do, if you don't want to 
advance or if you don't want to play that game, you are not 
going to advance--whether that is--that is the norm now.
    I would have thought that we have gone far beyond that and 
that major corporations, major organizations, governmental or 
non-governmental would understand that that is a time past and 
that we--the law doesn't allow it and we don't allow it. But 
what I have observed in response to that--those things on the 
show has got me questioning whether I am right and whether we 
have made much progress. I know that is a general question, but 
you three are experts in this area. I would love to hear what 
you have to say on that.
    Ms. Griffin. Well, off the top of my head, I don't have 
statistics right now on the complaints we see in the Federal 
workforce. But that is what I would look at. If I was in an 
agency, I would be looking at what are the complaints that are 
alleging sex discrimination or retaliation filed by women. That 
would tell me--I would be looking at that data continuously at 
an agency. That would tell me where I might have problems.
    So if you see that you have complaints alleging sexual 
discrimination or retaliation filed by a lot of women in a 
certain department or an area of the country or, you know, 
something that shows you a trend or a bad supervisor or a bad--
--
    Mr. Lungren. But without that input from employees, can you 
really reach that? I mean----
    Ms. Griffin. It is hard. If someone isn't complaining and 
telling you about it, it is pretty difficult to discover it 
unless, you know, someone else is coming forward.
    Mr. Lungren. Ms. Jones.
    Ms. Jones. With respect to our engagement, when we examined 
the MD-715 from the Department of Homeland Security, there were 
a number of cases in which they noted that by examining 
workforce data that the percentage of women in certain 
occupations was lower than their percentage in the relevant 
comparative labor force.
    As we noted in our report, we felt that other information 
sources should be used to gather information about why women 
and other groups appear to be under-represented. As Ms. Griffin 
said, we noted that if you don't have or are making use of 
complaint data or other kinds of data, for example, by talking 
to employee associations, it could be difficult to know to what 
extent a barrier persists or to know whether you have 
identified all of the barriers. So I would simply reiterate 
what I and others have said, is that it would be helpful for 
the Department to use other sources of information to get at 
the bottom of this issue.
    Ms. Lute. I have been addressing this issue for 32 years. I 
am the mother of daughters as well. I take very seriously and I 
take very personally the work climate that women are exposed to 
because they don't always tell you. They think there is merit 
in silence.
    I take very seriously my responsibilities as a leader. 
Leaders get the work climate they deserve. You have to 
encourage a climate not where people earn respect. Human beings 
deserve respect. Human beings deserve respect. You can tell a 
leadership climate by walking into an office--how do people act 
with each other? How do they act with their bosses? If you are 
not walking around, if you are not talking to people, you won't 
find this out because it is not going to come walking to your 
desk.
    It is not just through associations. You have to make a 
concerted effort as a leader to reach out and understand what 
is the work experience like for entry-level employees, for 
working level employees who are not in management positions. 
Who comes to the meetings? Who does the work? Are people 
getting recognized? Are people getting thanked? Are basic human 
courtesies being observed?
    You can tell the climate of a workforce, the climate in a 
working environment. That is your responsibility as a leader to 
do so.
    So, what--it is my personal commitment--it is certainly the 
Secretary's personal commitment that Homeland Security will not 
only be a department where diversity can thrive, but where we 
are the leading edge of best practice in the Federal Government 
for a diverse workforce.
    Mr. Lungren. Okay.
    Chairman Thompson. Thank you very much.
    In support of Mr. Lungren's comment, Mr. Cao raised a 
question about some issues going on at the FEMA office in New 
Orleans with respect to employee complaints.
    Secretary Lute, I want to thank you for sending the tiger 
team to look into that issue. I think there were some actions 
taken from that. But I think part of what we are trying to say 
is if you are on notice about things happening, then it is 
incumbent upon the Department to take action. That was 
something that came out of some hearings. I would hope that 
that disbanded operating procedure Department-wide.
    The Chair now recognizes other Members for questions they 
wish to ask the witnesses. In accordance with our committee 
rules, I will recognize Members who were present at the start 
of the hearing based on seniority on the committee alternating 
between majority and minority. Those Members coming in later 
will be recognized in order of their arrival.
    The Chair now recognizes for 5 minutes the gentleman from 
New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. I want to associate 
myself with the comments of Mr. Lungren from California and all 
of our panelists. I hope everyone recognizes the real need for 
this kind of a hearing. We not only need to ensure diversity 
within the Department, and not because it is politically 
correct, but simply because it is the right thing to do. Many 
times it takes us a long time to figure out what the right 
thing to do is.
    Amongst all of our Federal departments spread throughout 
the Government, I cannot think of too many more that may 
actually have more interaction on a daily basis with the public 
than DHS, from our airports to our borders, every day. It 
reflects the diversity of the American people themselves. If we 
do not recognize that diversity, then we are doomed to continue 
the us-versus-them mentality that pervades our domestic 
security relationship.
    Ms. Jones, I have a question for you. In your report, you 
emphasized the importance of obtaining employee input to 
identify barriers to equal employer opportunities. In fact, 
there are many examples of how other Federal agencies have used 
this information to identify barriers. In your opinion, why has 
DHS failed to conduct exit interviews and gather other employee 
input to identify barriers? Part B of that question, how does 
the failure to perform exit interviews affect the Department's 
chances of success in its efforts to improve diversity?
    Ms. Jones.
    Ms. Jones. Yes. I need to inform you that, in terms of the 
focus of our engagement, we were principally focused on looking 
at the contents of the MD-715 analysis as well as the barriers 
that had been identified. While we recognized that exit 
interviews would be a viable and important source of 
information and recognized that, on the basis on reviewing 
EEOC's MD-715 instructions, we did not look specifically at why 
the Department did not conduct more exit interviews with their 
staffs.
    Mr. Pascrell. Why do you think that would be--well, let me 
ask you this question. How significant would you think that 
would be?
    Ms. Jones. Sir, that is a little bit difficult to tell. If 
we--to say. As we mentioned in the report, there are many other 
sources of information that we think that the Department could 
use, that EEOC has said that they can use. That has been 
mentioned at the hearing. So we didn't actually collect the 
kind of information that would permit us to weigh, for example, 
the importance of doing exit interviews as compared to employee 
information that you would get from an employee feedback survey 
or other sources of information, like complaint data.
    Mr. Pascrell. Well, it would seem to me that, if you are--
and I believe you are--but if you are really trying to get a 
handle on this particular problem, which we recognize, or else 
we wouldn't be here, that folks that are leaving the Department 
would be of--give us tremendous amount of information about 
where we stand. I mean, what am I missing when I recommend 
that?
    Ms. Jones. No, I think we, as we noted in our report, we 
agree with that--with the premise that there--information 
should be collected from exit interviews. We simply didn't 
focus on that particular activity that DHS could undertake as 
distinguished from other activities.
    Mr. Pascrell. Yes. I am not caught up in the process. I am 
not a process person. I want to see results. But it seemed to 
me that that is a good mechanism, as you have pointed out, to 
really get to the heart of the issue. Particularly, somebody is 
going to be a lot more apt to speak, I think, when they are 
leaving, rather than when they are coming into a Department as 
to what they have seen and what they have heard. I would think 
that this should be a priority. That is my opinion.
    Ms. Jones. Well, we certainly think that it would be a 
viable source of information amongst others.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes Mr. Austria for 5 minutes.
    Mr. Austria. Thank you, Mr. Chairman.
    I would like to add my voice to those here today who have 
talked about the importance of improving diversity throughout 
the Department of Homeland Security. It is without question a 
worthy goal. I think it is important that diversity be promoted 
at all employment levels of the Department and throughout the 
Federal Government. I think we have seen some improvement. I 
know this is the second committee hearing we have had on this 
particular issue in the last 17 months. We have seen some 
improvement. I certainly appreciate the testimony today.
    However, I do think that everybody in this room would agree 
that the critical mission of DHS remains protecting the 
American people. I think, I hope, that that is where the view 
of this--the focus of this committee remains. But let me--I 
would like to ask--just follow up on a couple of questions that 
were raised today.
    In talking about some of the changes that have occurred, 
Dr. Lute, in particular--Mr. Chairman, if I can.
    You have talked about--you have looked back at some of the 
past barriers that you have seen within DHS. You have talked 
about, touched on, some of the future changes. You talked about 
the climate of a work force, how important that is. The follow-
up on what Mr. Lungren had brought up earlier, you see that 
there are barriers or things that would be deterring women or 
minorities from taking these type of positions within the 
Department.
    Ms. Lute. Thank you. Yes, we do. We have encouraged the 
components to look very carefully and--at these barriers with a 
common-sense eye to understanding how they function to inhibit 
people from taking up positions or being promoted.
    One, which I mentioned, was non-diverse interview panels. 
If you are seating--sitting in front of an interview panel of 
all men, for example, the chances are that the candidate 
selected will be a man. So, we have to institute diversity in 
our interview panels.
    We have looked, for example, at the Air Marshal's program 
to understand what are barriers to entry and barriers to 
continued service there. One, of course, is the mobility, the 
frequent travel, the flying around. There is a--to a certain 
extent, some of those things we can't change. It is in the 
nature of the job. But we can look at predictability of 
schedules and other aspects of job performance, which may 
reduce or mitigate those barriers.
    Equally, we are looking at degree requirements. Are they 
really essential for our advanced degree requirements. This is 
true for everyone across the board, not just minority or female 
applicants.
    Many of our positions are law enforcement positions. They 
require extensive background checks, security clearance, et 
cetera. These are standards for everyone, not just minorities. 
But we are looking at these closely, to see if there are not 
hidden barriers within those requirements as well.
    Mr. Austria. Thank you, Mr. Chairman.
    I appreciate that answer. Let me ask you, are you--and I 
wasn't clear on this--regularly gathering information from 
employees, getting input from employees to try to identify 
potential barriers and how to overcome those barriers?
    Ms. Lute. We have been relying on the MD-715. It is not 
good enough. We have to make more outreach to our employees 
directly. Hence, my signing yesterday of a management directive 
regarding the establishment of employee associations. We need 
greater interface with those associations.
    We need greater interface, as was mentioned earlier, with 
those who are exiting. We do conduct exit interviews. We don't 
do it comprehensively enough. We don't have a good enough 
handle yet on that data, what that data is telling us. We are 
going to make improvements in all of those areas.
    Mr. Austria. One follow-up question to your responses is, 
you talked about the different positions within DHS that you 
are having to deal with in trying to overcome what these 
barriers--how do you--I mean, how do you do this when you have 
so many different areas?
    I know we are going to have testimony from FEMA, from some 
of the other groups that are coming in. I mean, how do you do 
that as a Department overseeing that? I would certainly like to 
get response from our other two panelists as well, as to how 
they view that as well.
    Ms. Lute. You need a multitude of strategies or strands.
    Mr. Austria. Well, for example, you have got first 
responders out there.
    Ms. Lute. Right.
    Mr. Austria. We have been working on a program in our area 
dealing with first providers, with the health care side of 
things, which is a little bit different than those first 
responders that go into the field. I don't know if you are 
familiar with Calamityville. We are trying to create a national 
site for providers, which would be health care side of things.
    How do you distinguish between the two different areas, you 
know, trying to identify those barriers?
    Ms. Lute. Oh, in fact, we rely on the inputs from our 
components who know their specialized areas very well. But we 
are also trying to promote One DHS, because we think there is a 
lot of overlap between these areas. We want to encourage the 
interplay of the expertise from emergency managers, to law 
enforcement, to the policy side, to other expertises as well 
that we have in the Department.
    As Ms. Griffin said in her opening statement, every single 
day, this country is interfacing with the public and providing 
services across the array of homeland security 
responsibilities. We think we need to bring these together and 
understand how we can best take advantage of that expertise and 
bring it up through the ranks.
    Mr. Austria. I know my time is up, Mr. Chairman. But thank 
you----
    Chairman Thompson. Well, I mean, we will let the other two 
witnesses answer the question. Can you turn the mic on, please?
    Ms. Griffin. Sorry, I keep doing this. I keep turning it 
off. But you authorize the right of the director to have 
oversight over the other components. Make sure you start 
collecting all of the data that you need and start really 
analyzing it and start looking at the barriers. So, look at 
your complaints.
    Look at--do the exit interviews in a comprehensive way that 
is also consistent. So, you are asking the same things of 
people that are leaving, so that you can analyze that.
    The associations are important. Conduct employee surveys. 
All of that information will certainly lead to identifying what 
your barriers are, and then helping you come up with the 
strategies. But authorizing people to do this and making their 
role important in the organization, reporting directly to the 
leadership, is important.
    Ms. Jones. I would simply briefly add, besides what we said 
in our report, that the EEOC's instructions for completing the 
MD-715 and doing the barrier analysis contain lots of examples, 
not just instructions on how to fill out forms, but lots of 
examples and ways that agencies can do about, both identifying 
triggers and identifying barriers, and then taking steps to 
overcome the barriers.
    Mr. Austria. Thank you, Mr. Chairman.
    I would just like to invite the--Dr. Lute to come down and 
to meet with some of the folks I have talked to from the 
National Center of Medical Readiness and Calamityville and get 
their input; because I--they have talked to me about this to 
some degree. I think going out and hearing first-hand what, in 
the field, and seeing what is going on, I think, would be very 
helpful.
    I thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair now recognizes gentlelady from New York, Ms. 
Clarke, for 5 minutes.
    Ms. Clarke. Thank you. Thank you very much, Mr. Chairman. I 
would like to associate myself with many of the comments I 
heard from my colleagues. It is very interesting to hear how we 
discuss this topic. It seems though there is a category for 
women, and there is a category for minorities. There is also 
the intersection of women who are minorities. I think we need 
to be very conscious of that as we speak, and as we look at how 
we promote.
    One of the sentiments that I am really picking up from this 
hearing is somewhat of the same-old, same-old. Being a woman in 
a nontraditional position myself, I just seem to hear the same 
commentary over and over. I am--maybe I am hypersensitive, Mr. 
Chairman, but it just appears that way.
    One of the things that concerns me that, as a relatively 
new agency, Homeland Security has a golden opportunity to 
recreate itself, to really step out of the box, if you will, to 
create a new culture, a culture of productivity and promotion, 
one that mentors new employees as opposed to the same-old, 
same-old.
    I know that, when you are dealing with law enforcement, 
there is oftentimes the sort of paramilitary set-up that we are 
accustomed to, because, again, we are all kind of conditioned 
around the same-old, same-old male-dominated institution 
building.
    I would like to raise a couple of questions. One, Deputy 
Secretary Lute, about the Diversity Council. I have looked at 
all of the strategic planning, all of the 1-day--120-day plans, 
but what makes that process new and different and not the same 
old bureaucratic, ``Let's do a timeline,'' ``let's''--you know, 
it just seems like it--we are creating more bureaucracy to do 
something that is very fundamental and very specific.
    What is the practical application of the outcome of the 
Diversity Council? Then I would like to open that up to the 
other panelists to speak to.
    Ms. Lute. Thank you for that, Congresswoman. I think it 
would be fair to say that Secretary Napolitano could not have 
been clearer in her instructions to me.
    She and I represent two women that--the only two women who 
are the heads of a major Federal department, third-largest in 
the United States Government. If the culture doesn't change 
under our watch, shame on us.
    She could not have been clearer to me in how she intends to 
create a culture of excitement, create a culture that is truly 
different and capitalizes on the very deep commitment that 
every single man and women who works in Homeland Security feels 
for the job that they have chosen to do.
    We want to build on that. We want to be a place that 
innovates, a place that welcomes, a place that is open, a place 
that marshals the very best expertise. Neither the Secretary 
nor I believe that if you emphasize diversity you are somehow 
sacrificing quality. Nothing could be further from the truth.
    In fact, it is insulting to think that somehow you are 
sacrificing standards of performance because you are looking 
for diversity of perspective, diversity of input, and 
reflecting the interaction that we have with the American 
public.
    The Secretary will--does herself engage me on this issue. 
Every week she asks me how we are doing. The Diversity Council 
is something that I am taking a personal interest in. Our 
outreach to veterans is something I am taking a personal 
interest in.
    The climate that women have to operate in our Department is 
something I take a personal interest in. So if--I am like you. 
I have been around a long time. So many of the words have 
already been said. It is time for deeds.
    Ms. Griffin. I would just say that, you know, when you have 
leadership that is committed to something, like making a 
workforce diverse, it gets done. I think what we are seeing a 
President who is saying this is important to me.
    We are seeing the appointees that he is putting in charge 
of different agencies saying it is important to me. I think we 
are going to see a difference. But it has to come from 
leadership.
    If leadership doesn't say this is important to me and, oh, 
by the way, I am measuring your performance and your success on 
how you accomplish these goals, then it doesn't happen.
    But if leadership is saying it, that is when you--that is 
when you see it happen. Good agencies that are good on this 
issue are good because someone at the very top said this is 
important to me and I want you to get it done.
    It is not rocket science. It is going out and recruiting 
people and hiring them when you have an applicant pool that is 
diverse.
    Ms. Jones. I would just simply say it would be another 
mechanism for discussing these kind of issues in DHS and 
potentially identifying issues, potentially perhaps identifying 
triggers, but bringing them to the attention of management so 
that they could be discussed and thoroughly analyzed through 
the MD-715 process and other internal decision-making and 
discussion processes at DHS.
    Ms. Clarke. Secretary Lute, are all of the employees in the 
Department of Homeland Security aware that there is an emphasis 
on the diversity of the workforce? Has that been something that 
has permeated the--all of the ranks? Has there been a 
discussion with all of the employees about promotion and 
mentoring?
    Is there that sort of conversation taking place within the 
agency, or is this something that management is doing in 
isolation of the rank and file who are there? Do they 
understand the value of it? Is that a discussion that takes 
place?
    Ms. Lute. I would say the answer to that is not yet. The 
message has not fully filtered down. But it is something that 
we take very seriously as a leadership responsibility. But the 
rank and file are a rich source of ideas, of input, and of 
energy into changing this culture that we have.
    Again, we want to be a Department that is at the leading 
edge of best practice in this area.
    Ms. Clarke. Mr. Chairman, I know my time is up.
    I would just suggest to you that informing the workforce of 
the goals that you are trying to set may help in terms of 
changing that culture.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Gentleman from Pennsylvania, Mr. Dent, for 5 minutes.
    Mr. Dent. Thank you, Mr. Chairman.
    Also, thank you to Deputy Secretary Lute for joining us 
today. I appreciate your willingness to come before this 
committee before your most senior team members to speak on the 
issue of diversity.
    I would also like to thank Director Sullivan for making his 
inaugural appearance before this committee, I know, during the 
second panel. So thanks to him as well.
    Ms. Lute, while the Chairman and others have asked some 
important questions about both past and future diversity 
initiatives at the Department, I would be remiss if I didn't 
ask you and your team a few important questions about the 
deadly terrorist threats that still face our great Nation and 
the Department's efforts to counter those threats.
    In a recent interview with Bloomberg television, Secretary 
Napolitano, when questioned about sleeper terrorist cells 
operating in the United States, responded, ``It is fair to say 
there are individuals in the United States who ascribe to al 
Qaeda-type beliefs.''
    For clarity's sake, please answer directly yes or no. Do 
you have reason to believe that al Qaeda has sleeper terrorist 
cells positioned within the United States?
    Ms. Lute. Congressman, as the Secretary said, we know that 
there are individuals who are influenced by al Qaeda. We are 
actively partnering with the FBI and with the National 
Counterterrorism Center to develop intelligence products that 
further analyze what beliefs exist here.
    We anticipate providing that information to our State and 
local tribal partners as soon as we have handles on the extent 
of these beliefs among these individuals. But we know that 
there are--individuals here are influenced by these beliefs.
    Mr. Dent. Specifically as it relates to terror cells, do 
you believe that they exist in the United States?
    Ms. Lute. Congressman, I think I would stand on what I have 
just said.
    Mr. Dent. Do you believe we should expect more terrorist 
arrests in the United States like last month's arrest of 
suspected terrorist Najibullah Zazi as well as separate arrests 
in both Illinois and Texas?
    Ms. Lute. I think we are--as I have said, we are working 
closely with the FBI and the NCTC to identify and develop 
intelligence and understanding about individuals who hold these 
beliefs and leading toward appropriate action to be taken at 
the appropriate time.
    Mr. Dent. While the full committee has held hearings on 
H1N1, FEMA housing, and the President's fiscal year 2010 
budget, we have yet to have any hearing whatsoever on the 
closure of the detention center at Guantanamo Bay.
    Following a small bipartisan delegation to Gitmo earlier 
this year, I asked the full committee to schedule a visit to 
the terrorist detention center. I am still waiting for the 
committee to find time in its busy oversight schedule to 
accommodate a 1-day trip to this facility.
    Since I see the majority is not scheduling a trip any time 
soon to Gitmo, let me ask you, Ms. Lute, have you ever visited 
the detention facility at Guantanamo Bay, Cuba?
    Ms. Lute. I have.
    Mr. Dent. Are you aware of prison facilities in the United 
States that would be capable of providing a comparable level of 
security? If so, where?
    Ms. Lute. At the President's instruction regarding the 
closure of Guantanamo, an extensive interagency effort has been 
undertaken to examine all of the options for the disposition of 
the detainees that are held there, and that work is still under 
way.
    Mr. Dent. Mr. Chairman, I would only like to reiterate the 
concerns of the Members of this committee about moving the 
terrorists held at Gitmo to the United States for any reason, 
even prosecution. It certainly presents a number of serious 
challenges to this Nation.
    I would also like to renew our request for a Member 
congressional delegation to Gitmo as soon as possible. I think 
we need to see this situation firsthand. So I just wanted to 
make that comment.
    Finally, a few other questions, Ms. Lute. Can you elaborate 
generally on the Department's role in the terrorism 
investigation, particularly in light of what is happened 
recently with the Zazi case?
    Ms. Lute. Congressman, the Department works very closely 
with our interagency partners in the Department of Justice, the 
FBI, the National Counterterrorism Center, to identify and 
investigate and work through any and all information that we 
have regarding those who might pose a threat of violent 
extremism in this country and remain an active part of that 
effort together with our colleagues to successfully ensure that 
they do not pose any threat to the American people.
    Mr. Dent. Do you feel the Department was fully equipped to 
contribute to the Government-wide case against Mr. Zazi? If 
not, what additional resources would you recommendation DHS 
have to strengthen its antiterrorism role?
    Ms. Lute. The Department is actively part of the 
interagency process that is working on these cases. We have a 
number of issues related to data, to activities on the ground, 
that we are engaged in with our interagency partners, and we 
feel as though the Department is making an extremely valuable 
contribution to keeping this country safe.
    Mr. Dent. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes gentlelady from California, Ms. 
Richardson, for 5 minutes.
    Ms. Richardson. Well, thank you, Mr. Chairman.
    Actually, Deputy Secretary, I would like to congratulate 
you because you just answered a bunch of questions that had 
nothing to do with the subject of what we are here to talk 
about today.
    I point that out because diversity is very important. 
Although we always want to take advantage of an opportunity 
when we have key people here, I think we shouldn't minimize the 
point of why we are here today, which is to talk about 
diversity at the Department of Homeland Security and what 
challenges and opportunities must be addressed, because I would 
venture to say if we focused more on diversity and we had more 
people in the Department who were diverse, we could be more out 
in the community and see some of the things that are 
happening--hear some of the things that are happening--so we 
could respond to the questions and to the people of what Mr. 
Dent is referring to.
    So I want to kind of bring us back on track of what the 
purpose of this hearing is all about.
    Deputy Secretary, in your analysis we talked about a 120-
day plan, and that has now passed. That was due in August 2009. 
Some of the outreach that you reflected, particularly within 
the African American community, is the HBCUs. Now, I didn't--
unfortunately, I didn't go to one of them. I went to both UCLA 
and USC.
    So what I would like to say is we need to make sure that 
our strategy--although I would agree that that is a key place 
in terms of concentration of where you can see folks, I think 
we have to think broader than that and realize that students 
are going to many different colleges, and so the same strategy 
that you are considering at our HBCUs need to be considered at 
other universities as well.
    So I wanted to get your thoughts on that. I also--building 
upon what Congresswoman Clarke talked about, I think it is 
important, if we are going to talk about diversity and 
outreach, that we think of new models.
    So I would say: Are we thinking about PSAs, are we thinking 
about radio, are we thinking about YouTube? What other things 
are we thinking about to begin to get into this entry-level 
position and other positions that we can move people up the 
ladder within the Department?
    So I wanted to get your thoughts of have you guys talked 
about that beyond the HBCUs and beyond the traditional outreach 
techniques that you are talking about in this report.
    Ms. Lute. Thank you, Congresswoman. I am also a Trojan.
    Ms. Richardson. Oh, I didn't know that.
    Ms. Lute. I was born in----
    Chairman Thompson. That doesn't change the testimony.
    [Laughter.]
    Ms. Richardson. Not at all.
    Ms. Lute. I was born in north New Jersey. I went to State 
school in New Jersey, East Orange and Montclair. We are very 
aware that while the HBCUs represent a very rich source of 
talented individuals that there are many talented individuals 
across the country at many institutions, both obvious and not 
so obvious.
    So yes, in fact, we had that discussion just yesterday. How 
do we broaden our outreach and learn what we have learned from 
talking to HBCUs about reaching out to communities more 
broadly, No. 1.
    No. 2, our workforce is a tremendous resource. It is a 
tremendous asset for us in creating this climate of diversity 
and excitement and of best practice. Where did they come from? 
What do we know about them and their backgrounds?
    How can we build on the calling that they felt to come to 
Homeland Security and attract others who may feel inspired by 
the role model that they represent?
    Not just senior role models, but role models of people 
doing this every single day, working moms and dads who have 
multiple languages in their background, who may be the first 
members of their family to go to college or to work for the 
Federal Government--how do we exploit that experience in a 
positive way to create this climate of excitement?
    So on both changing the way we reach from the outside--new 
media, just as you say, exploiting that in a positive way, but 
also internally, using our workforce as the rich resource it 
is.
    Ms. Richardson. So I would recommend, for example, we just 
had our conference of the CBC. There is a hip-hop caucus. I 
would be happy to supply you maybe with some contact that you 
may want to explore and talk about ideas of how we might 
outreach to other avenues.
    My last point--and I would like to--we have Administrator 
Fugate, who is here. I am going to be on the floor in just a 
moment talking about some of the response with American Samoa. 
Let me just share with you why I think diversity is so 
important.
    I happen to represent the largest Samoan population here in 
Congress. I might seem a little odd--from California. I 
represent the second-highest amount of Cambodians outside of 
Cambodia. So for me when we talk about diversity, it is 
important because these are the people who we need to get 
involved in your Department so when we are responding, when we 
have disasters, when we need to make decisions of, yes, this 
way or, no, this way--because I want to be very frank.
    I am not satisfied with what happened in American Samoa. I 
am not satisfied with the chain and all of what happened there. 
I will discuss that at another point and hopefully another 
hearing that the Chairman will allow.
    But I think that diversity is key. It is critical. I 
appreciate the efforts that you are making so far. Thank you 
very much.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you for calling 
this hearing and pulling together two panels of individuals who 
have significant responsibility within the Department. This is 
our second hearing on diversity. It is important.
    I would reemphasize that the points that were made by the 
full committee Ranking Member as well as Mr. Dent that I would 
like to see these kind of panels pulled together so that we can 
talk about things in addition to this such as the weapons of 
mass destruction threat, Guantanamo Bay, and the progress or 
lack of progress with SBI and many other important issues.
    But having said that, I want to commend Ms. Lute and the 
Department. I represent a district with six universities, three 
of which are HBCUs. Your Department has for the last 3 years 
done an incredibly good job of reaching out repeatedly 
participating in job fairs at Alabama State and Tuskegee and 
has committed to Talladega College. Hasn't been there yet, but 
I do appreciate that very aggressive role that has been taken 
over the last 3 years.
    I want to talk a little bit about a subject that you 
touched on earlier. That is this problem with continuity within 
the workforce in DHS, particularly at the upper levels. This 
has been a recurring theme for the last--well, since the 
Department was organized. But it has been particularly 
problematic in the last few years.
    What is the Department doing to deal with this level of 
exodus from the upper level management levels of the Department 
that continues to create these constantly evolving roles within 
the Department or goals or objectives or lack thereof?
    Ms. Lute. Congressman, one of the things that we need to 
get a better handle on is why stuff is happening. As I 
mentioned earlier, we do do some exit interviews. We don't do 
them comprehensively and----
    Mr. Rogers. Why? Somebody--Mr. Pascrell asked that question 
earlier. Why don't we do them comprehensively?
    Ms. Lute. This will be something that we will--I don't know 
why.
    Mr. Rogers. See? Now, what you are describing is exactly my 
point. Since this committee was established--and I came on with 
the Chairman from its onset--we have constantly seen this 
revolving door of people who have responsibility, not just the 
political appointees, but folks who are professionals, come and 
go. They don't have an institutional knowledge.
    It is like we never get a long-term view of what the 
organization--and I mean that all 22 agencies that are 
combined--have done and what they are going to do. It just 
seems like a real problem to me. I am wondering if you are 
seeing it.
    Ms. Lute. Congressman, I can tell you this is a relatively 
new Department. It is only 7 years old. That is actually good 
news. It is not 1 year old for the seventh time. It is a 
Department that has consistently built over the course of these 
7 years. But it is a vast Department, the third-largest.
    There is a lot of work to be done, bringing together 22 
agencies with legacy responsibilities even as they are given 
new responsibilities in the wake of 9/11 and the challenges 
that we discover on how to do homeland security better and 
better every year. So this Department in many ways lives in its 
past, its present, and its future at the same time. But that is 
something that we as a leadership understand and acknowledge.
    Those who have gone before us did it--done a tremendous job 
in creating this Department in establishing its place. It is 
not only the bureaucratic structure, but in the challenge of 
keeping Americans safe. We are building on that. As we confront 
these issues with this committee's help, we will continue to do 
so.
    Mr. Rogers. Well, I would urge you to consider making a 
look back at the positions of management responsibility within 
the full Department and just look and see the turnover and I 
think it is something that we have got to acknowledge happens 
and find a way to remedy that because there is great value in 
institutional knowledge and to make sure we don't repeat past 
mistakes.
    Lastly, I want to ask--goes back to Mr. Dent's question. 
What is the role--I don't want to go into Guantanamo. That is 
not fair. You weren't called here for that. But I would like to 
know more about Guantanamo. You asked--you mentioned earlier 
reaching into employee associations for help. Are you talking 
about unions? What are you talking about, employee 
associations?
    Ms. Lute. I am talking about employee associations like the 
black agents of the Secret Service, the National Association of 
African-Americans in DHS.
    Mr. Rogers. Okay, okay. That is it. Thank you very much.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman.
    I thank the witnesses for appearing.
    If I may, Mr. Chairman, I would like to engage in a 
colloquy with my friend, Mr. Dent. He left. Did he--yes. Okay. 
Sorry he left. I wouldn't have offered if I had known that he 
had left. When I had looked up just a moment ago, he was still 
here.
    Hence, I will engage in a soliloquy. There was reference 
made to--and I--I don't like doing this in the absence of a 
person. I would much rather have him here to give his response. 
But there was reference made to Guantanamo. Not wanting any 
person from Guantanamo to come to our continental United 
States. That wasn't the exact term that was used. But that was 
the import.
    I have some concern about the notion that we should not 
allow persons to come here who may be of harm to us simply 
because if we want to keep them contained, I think we do about 
as good a job as anybody in the world. As a matter of fact, I 
don't think that there is anybody in the world that can exceed 
our supermax prisons.
    The question becomes why would I want someone that may be 
of harm to me to be in the hands of someone else when I have 
the facilities, I have the capabilities of dealing with it 
myself and making sure that the person doesn't harm me. I 
wanted to talk a little bit about the logic that says give them 
to someone else or place them somewhere else when, in fact, I 
think that if we want to secure ourselves, we should secure 
ourselves by securing ourselves. Simply put, let's keep our 
hands on people that may want to harm us and we will know where 
they are and we will know how to properly deal with them.
    Sorry that he wasn't here to hear my commentary because I 
wanted to hear his response to it and engage in a colloquy. 
That is not for you to respond to, either, any of the 
witnesses.
    Having said this, let me move to the topic at hand. I 
concur with Ms. Griffin.
    I concur with you. It does start at the top. The tone and 
tenure of diversity is shaped by the person at the very top. I 
want to commend those at the top who are advocating diversity. 
I think it is important to do so.
    But I also understand that notwithstanding your best 
efforts, when you don't extend a hand to organizations that 
deal with this on a daily basis, you may miss something. My 
question--maybe I shouldn't ask a question. But my comment is 
this: I think that organizations like the NAACP, LULAC, 
organizations that deal with these issues daily can be of great 
benefit to you. They really can offer you paradigms that you 
may not consider.
    They can give you an opportunity to on occasions when you 
are not preparing for a Congressional hearing, to receive input 
from people who have studied these issues and can probably help 
you identify areas of weakness that you cannot identify 
yourselves because you don't deal with it on a daily basis. It 
is not your life's calling. It is not the thing that you wake 
up to every morning and that you go to bed with every night.
    These organizations and the people therein do this. They 
can help you make a difference.
    Finally, this: When I say I am for diversity, I truly mean 
that I am for diversity. I am an integrationist. I believe in 
integrating everything, by the way. That includes the money as 
well, something we haven't quite gotten around to. But that is 
another story, too.
    But I am a complete integrationist. I want to let you know 
that a climate that is friendly to people causes people to want 
to be a part of it. Integration is not only simply saying the 
doors are open, come in.
    It is extending the hand of friendship and saying you are 
welcome here. We want you here. This place is a place where you 
can build your life, your career. We want you, notwithstanding 
your race, your creed, your color, your gender, but also your 
sexual orientation.
    This country is great because it recognizes everybody's 
worth. If there are people who happen to be of a different 
persuasion than I, they still have worth. Because we sometimes 
don't make things friendly, we sometimes find that friendly 
people don't find their way into our organizations.
    So I am sorry I had to take up so much of your time and not 
get to a question. But I do thank you for listening. I hope 
that something I have said will be of benefit to someone that I 
will never meet and greet, but who will have an opportunity to 
serve our country within the agency that you work with.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. I thank you. I thank the Chairman and the 
committee for holding this hearing.
    On May 21, 2008, this committee held a hearing and as well 
was responding or did respond to a March 2008 report prepared 
by the committee's majority staff at that time that found that 
racial minorities constitute 20.3 percent of the DHS workforce, 
but only 10.8 percent of the DHS Senior Executive Service, 
which is, I think, the crux among many other issues of what we 
face today.
    I associate myself with a number of comments that have been 
made, one, the issue of terrorism is much better determined, as 
we have found out, when the intelligence agencies, DHS, 
Department of Justice have diverse populations, even those who 
speak different languages who are able to exist in their 
various levels. So it baffles me--and I recognize that the 
present administration is not even a year old and that this 
report that was done by our majority staff was done in the past 
administration, which I had several issues with--one, the rapid 
turnover, constant turnover and seemingly no solution to the 
constant turnover because if you had a solution, you might have 
a far greater outreach to reach to populations who might be 
very, very interested in this area.
    We expect that there will be 273,000 new Federal jobs 
coming up over the next couple of years. Sixty-five thousand of 
those will be new employees hired by the DHS. Fifty-four 
thousand of these positions will occur in various security and 
protection positions with about 25,000 on TSA. So I won't put 
any more numbers--and if I can get them, I will put them--and I 
think there were some numbers here that I wanted to put in 
before I asked questions.
    African-Americans comprise 14 percent of overall DHS 
workforce. While they only comprise 6.9 percent of the DHS SES. 
Hispanics comprise 19 percent overall of DHS, but only 5 
percent of SES. It goes on in terms of others. But White 
Americans comprise 85 percent. That is where the decisions are 
made.
    So, Secretary Lute, here are my questions. First of all, in 
July 2009, I had 4,000 people at a job fair in Houston. In 
September 2009, I had 4,000. So I had a total of almost 8,000 
people looking for work. It was promoted as a Federal job fair.
    I have a general complaint that maybe you will send an e-
mail. I think there is a lazy attitude with the Federal 
Government in its outreach. Everybody is on-line----
    Different ethnic populations are not on-line. They have 
paper. They like people to come out and recruit. So the first 
thing I would like to ask is the Department's attitude about 
sending real recruiters to various job fairs, which might 
include those held by members or city government or county 
government that might extend an invitation to you.
    The second question is I think the Department needs to put 
in place accountability measures. A report was done in 2008. I 
believe there should have been a definitive report that would 
come back to us, even with the young administration, so let me 
just make the caveat I know you all are working very hard, to 
account almost by a 6-month period of what kind of success you 
are making to this committee with respect to your diversity, 
which helps to enhance the security of this Nation.
    So, No. 1, what is your response to this issue of really 
sending real human beings and real recruiters out into the 
heartland of America, invited by whoever might invite you. No. 
2, what is your approach for accountability?
    No. 3, the Senior Executive Service position is aghast with 
no diversity. Those are the decision-makers. What is the 
definitive plans going forward of really diversifying? I 
believe those employees newly recruited will be the employees 
that will stay. I appreciate your answers.
    Ms. Lute. Thank you very much, Congresswoman. Recruitment 
is something that we have talked about a lot among the senior 
leadership of the components in the Department. We can't be 
passive. The kind of Department we want to be is not going to 
become that kind of Department if we exist in the passive 
voice. We have got to actively reach out.
    The very best colleges reach out with their alumni, 
reflecting the communities, that they are asked to go out and 
touch young people and demonstrate personally the kinds of 
opportunities that exist for them. That is a model that we can 
and will replicate in a recruitment as well.
    One of the findings of GAO was that we had an over-reliance 
on the internet. As you rightly point out, not all 
communities--they may have access to the internet--all the 
libraries have free internet access--that is--this is a 
cultural issue.
    We need to reach out to communities and meet them where 
they are and demonstrate where they are and where we are can be 
met by attracting young people and quality people willing to 
serve in homeland security.
    So on the recruitment side, we cannot rely on any single 
measure, and we certainly cannot rely simply on the internet. 
Even with the new media and its ability to touch people's 
lives, we know that there is a personal aspect.
    As Congressman Green said, we want to be home to the 
world's finest security professionals. We take that word 
``home'' seriously, a place where they can have careers, where 
their families can thrive, and they can imagine contributing to 
the welfare of this country and a long-term way.
    In terms of accountability, the Secretary has put me on 
notice. She has put herself on notice to the Chairman that we 
are accountable for how we are doing on diversity. I have 
spoken to each of the component heads personally and do so on a 
regular basis in this area. It is not simply about the numbers. 
It is about the climate, the welcoming climate, the mentoring, 
the fostering, the management climate that we create as 
leaders, for which we must be held accountable.
    Are people leaving? If so, why? We have tasked ourselves 
with the responsibility to get better data to understand what 
is the heart of our problem. How do we tackle the difficult 
problems first?
    With respect to SES employment and hiring opportunities, 
one strategy that I am very familiar with from previous 
positions that I have held is that you get better in this area 
one at a time by engaging with hires one at a time and ensuring 
could be considered a diverse pool? Was the panel that 
interviewed candidates itself diverse? Did people have a 
genuine opportunity for promotion from within?
    You have to create a climate where these kinds of things 
are fostered. We had a forum on September 16 reaching out to 
some of the organizations that Congressman Green mentioned, 
those who have experienced every single day and wake up 
thinking about opportunities for the diverse constituencies 
that they represent.
    We had a number of them come to that forum and share their 
ideas and best practices in the area of recruitment, in the 
area of creating a favorable workplace environment. We intend 
to learn from these best practices and continue that dialogue.
    Ms. Jackson Lee. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Texas, Mr. Cuellar, for 
5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman.
    I want to thank all of you all for being here. Secretary 
Lute, the questions are going to be directed to you, and thank 
you for the work that you have done.
    Every agency should have a vision, a mission, the strategic 
goals, the objectives, the accountability measures that 
Representative Lee talked about, in order to get results. If 
you don't have that, it is going to be hard to reach those 
results.
    Let me start off with what happened in Texas. Back in 1997 
when the 5th Circuit came out with the Hopwood decision--I 
don't know if you are familiar with that decision--basically, 
it had to do with admissions to the law school there at Texas. 
The court at that time said you cannot use race as a factor to 
get students into the law school, so there was a scramble as to 
how do we address that issue.
    I used to chair the budget at that time with higher 
education, so I got to talk to all of the universities in 
Texas. There was one that came up--the University of Houston--
that was just outstanding. Even after that decision not using 
race as a factor, they were able to get a good diversity. I 
asked the Dean, Mr. Samor, at that time, you know, how are you 
doing this when University of Texas and A&M and the other ones 
can't there. Why are you doing this, or how are you able to do 
that?
    Basically, his answer was very simple. He said, ``We just 
said we are going to get to hiring minorities''--I mean, not 
hiring minorities, but getting minorities looking for them. 
What was happening was a lot of them were looking at a pipeline 
that was very narrow. I think it has been mentioned by the 
other folks you just got to expand the pipeline. I think the 
same thing comes to, you know, to what we are trying to do 
here, get a good diversity.
    My question is this: Your human strategy strategic capital 
plan for the years 2009 to 2013 lists the governing bodies of 
human capital oversight, but the Diversity Council is not 
mentioned. I mean does that mean that it is not a priority to 
get the diversity that we are looking for? In other words, if 
you set the strategic plan and you don't even mentioned the 
Diversity Council there, then what is the priority that--what 
is the message that we are trying to give out here?
    Ms. Lute. Congressman, the message that we are trying to 
give out on diversity is that it is important, beginning from 
the Secretary right on down through the Department. We are 
trying to broaden the pipeline. We are trying to direct that 
pipeline to number of sources, so not just be a single place 
that we are looking to attract talented individuals of diverse 
backgrounds.
    We are trying to learn best practice from universities, 
from other organizations, from other parts of the Federal 
Government that have successfully made progress in this area.
    Mr. Cuellar. Madame Secretary, I am sorry. I don't mean to 
interrupt. Do you know why the Diversity Council is not even 
mentioned in the human strategic capital plan?
    Ms. Lute. I don't know.
    Mr. Cuellar. Can you----
    Ms. Lute. We will find out.
    Mr. Cuellar. Can we fix that?
    Ms. Lute. We will fix diversity in the Department of 
Homeland Security and the role of the Diversity Council. It is 
something I take a personal interest in.
    Mr. Cuellar. Okay. If I can ask just one other question, 
the sample--is the example that we give as leaders is very 
important. How many Hispanics and blacks do you have working 
right under you?
    Ms. Lute. The young lady that I had was just given a great 
opportunity--an Hispanic, the young Hispanic woman I had 
working in my office was just given a great opportunity, so I 
just lost her, and we are adding African Americans to my direct 
office very----
    Mr. Cuellar. Okay. So before you lost that young lady, you 
had one Hispanic and one--or three African Americans?
    Ms. Lute. No. Three African Americans are coming in. We 
are----
    Mr. Cuellar. So before that literally just one Hispanic.
    Ms. Lute. That is right, and that----
    Mr. Cuellar. Yes, and no African Americans coming in. The 
reason I say that is because we got to be productive in our 
words, but in also in our actions, and if you are in charge of 
diversity, I think it would set a good example that we would 
get more diversity in your office, your direct office also.
    Thank you very much.
    Thanks to all of you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I would like to just support my colleague from Texas. But, 
Secretary Lute, I think there was a problem getting minutes 
from the Diversity Council meetings. Now, have you found out 
whether or not minutes were taken or they just don't exist?
    Ms. Lute. We owe you an answer on that question, Mr. 
Chairman.
    Chairman Thompson. Okay. So you don't know yet. Well, I 
think part of Mr. Cuellar's concern is if you just put 
something in the Department, that window dressing, and don't 
give it any authority or anything, then that is real--a 
question as to whether or not this is legitimate or not. A 
simple thing like minutes would reflect a lot of legitimacy. If 
there are no minutes, then I think your concerns are even more 
compounded, because they didn't exist. But please look for the 
minutes.
    I recognize the gentleman from Kansas City for 5 minutes. 
Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. Let me apologize for 
my subbing for my colleague, my long-time friend, Mr. Green. We 
both are in Financial Services, and there is a markup of the 
financials Consumer Protection Agency, one of the most 
important pieces of legislation that would hopefully come out, 
so I apologize. We both felt that this subject was so important 
that we had to risk getting our Chairman upset with us by 
coming.
    Contrary to what many people believe about those of us who 
are people of color in the Congressional Black Caucus, I 
represent a district of only 17 percent African-Americans. I 
served as mayor of Kansas City, Missouri, for two terms before 
I came here.
    It is very clear to me that the people in my district 
expect me to be strong on issues of diversity. I think they 
would be upset and angry if I did not, and so I celebrate the 
Chair's interest in and willingness to diversity hearings. I 
appreciate him for a lot of the things that we are discussing 
now, that he is not hesitant to talk about these subjects, even 
though they are not supposed to be discussed in 2009.
    Ms. Griffin, I remember when the EEOC was formed, and it 
was considered to be one of the top agencies. Everybody was 
interested. Of course, things change and people are not that 
interested in equal employment opportunities anymore.
    I was very disturbed in your testimony. The one thing that 
disturbed me was you mentioned that the Department had not 
shared the substantive efforts they have taken to improve the 
diversity at senior levels.
    Maybe they don't know what they need to do, so maybe we 
could take this opportunity for you to share what you think the 
Department might be able to do with regard to improving its 
diversity at senior levels, since they have not--at least up 
until the time you prepared this report, they had not shared 
what they were doing.
    Ms. Griffin. Well, I actually think Secretary Lute talked 
about some of the changes that they are going to make with----
    Mr. Cleaver. If you would----
    Ms. Griffin. Did I do this again?
    Mr. Cleaver. Yes. Go ahead.
    Ms. Griffin. All right. Is that on?
    Mr. Cleaver. Well, try it again.
    Ms. Griffin. All right. Is that on?
    Mr. Cleaver. Okay. Thank you.
    Ms. Griffin. Okay. She shared some of the things that they 
are going to do with powers, creating a diverse panel that will 
be choosing people at the Senior Executive level, because she 
is right. The experiences--if you have all White men, you are 
more likely to have a candidate chosen who is also--looks like 
the people doing the choosing, and that to include women and 
include diversity on those panels is very important.
    I would actually like to extend to the Department of 
Homeland Security not only EEOC's assistance to help them 
figure out what is going wrong and how to fix it, but also to 
extend, as I go over to the Office of Personnel Management as 
the deputy director, the help from Director Berry and myself, 
diversity is going to be a No. 1 issue that we work on at OPM 
to come up with a plan for the whole Federal work force.
    This isn't only a problem that we see at the Department of 
Homeland Security, especially in the SES ranks throughout the 
Government. We are in the process right now, at OPM, of 
creating an SES office. One of the major functions of that 
office will be to come up with a plan and a strategy for all 
the agencies to use in order to create more diversity within 
the SES ranks.
    So, I would like to extend that to the Department. If we 
can show progress at the Department of Homeland Security, we 
can create, I think, a model for all the rest of the Federal 
Government.
    Mr. Cleaver. Mr. Chairman, may I have 10 more seconds, 
since her microphone was not at full volume when we----
    Chairman Thompson. Yes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Are you from Massachusetts?
    Ms. Griffin. I am. I am from Biloxi, Massachusetts.
    Mr. Cleaver. It is the way you wear your hair.
    Ms. Griffin [continuing] On Sunday.
    Mr. Cleaver. It is the way you wear your hair that gave you 
away.
    Ms. Griffin. Yes.
    Mr. Cleaver. I thought it was the accent.
    Ms. Jones, in your report, you stated that DHS failed to 
use timeliness or milestones to track the progress of 
activities aimed at eliminating the barriers to equal 
opportunity. Perhaps they did not know how to do this. I mean, 
maybe they did not know to use timelines or milestones. So 
maybe the role for you is to make suggestions on how they--why 
it is important to use timelines and milestones. Is that 
something that the GAO can do?
    Ms. Jones. Mr. Cleaver, we have some work, prior reports, 
that were issued on that topic, and which are cited in our 
report. But certainly, we would be happy to share with the 
Department of Homeland Security any of our work from any of our 
teams that would be helpful in that respect.
    Mr. Cleaver. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I would also like to thank our panel of witnesses for their 
valuable testimony and the Members for their questions. 
However, before being dismissed, I would remind our first panel 
of witnesses that the Members of the committee may have 
additional questions for you and will ask you to respond 
expeditiously in writing to those questions. I also remind 
witnesses of some commitments to get some information to us 
that came up during the hearing.
    I would again like to thank you. I would like to now ask 
the clerk to prepare the witness table for our second panel of 
witnesses. Thank you very much.
    I would like to welcome our second panel of witnesses. 
Before we begin, I would indicate that we plan to ask questions 
and--of the witnesses and forgo the opening statements.
    Those witnesses, our first witness is Craig Fugate, who is 
our new FEMA administrator, comes to us from Florida. Anytime 
someone gives up Florida for Washington, we want to 
congratulate you for that. Your history of working in the 
emergency management as well as a volunteer firefighter is 
well-established.
    Our second witness, Mr. Jayson Ahern, was named acting 
commissioner of U.S. Customs and Border Protection in March 
2009. During this interim period, Mr. Ahern continues to serve 
as chief operating officer also, overseeing daily operations of 
56,000 employee work force and an $11 billion budget.
    Welcome.
    Our third witness, Ms. Gale Rossides, thank you. Ms. 
Rossides is the acting administrator for Transportation 
Security Administration. She was one of the six original 
Federal executives hand-picked in 2002 to build TSA--
congratulations--and still around to see it. As you know, TSA 
also includes the Field Air Marshal's service and a security 
regime for highways, railroads, ports, and mass transit.
    We would like to welcome you also.
    Our fourth witness is Mr. Mark Sullivan. Mr. Sullivan was 
sworn in as the 22nd director of the United States Secret 
Service on May 31, 2006; has a distinguished career and 
received numerous awards, including a distinguished 
Presidential rank award in 2005.
    Welcome, Mr. Sullivan.
    Again, we thank all of you for coming to this hearing 
today.
    Since Mr. Cleaver and I will be here, there are a couple of 
markups going that most of our Members are tied up in, as 
already has been said.
    Mr. Fugate, I will start with you. A lot of what we do as 
Members of Congress, we interact quite a bit with your agency, 
especially in times of disaster. I think Ms. Richardson 
indicated a concern she had. My request, as Chair, is that, at 
some point, you schedule and opportunity to sit down with Ms. 
Richardson and work through those concerns that she raised.
    Generally Members are a little more concerned on issues 
when emergencies directly impact them. I am sure you will do 
it. I refer to the situation in New Orleans. That is a 
personnel-related issue. Can you tell us, other than removing 
the person that Congressman Cao talked about in New Orleans, 
whether other personnel actions have been taken there?

STATEMENT OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Mr. Chairman, I would not be able to speak 
specifically to others, other than my--before I was sworn in, 
the acting administrator, Nancy Ward, at the direction of the 
Secretary, did go down there, spend time with staff, talked to 
many people, both in the supervisory ranks, but also rank and 
file, and made the determination that, not only did she need to 
change the leadership down there; but also, there had to be 
better communication within the team.
    The decision was made to appoint Tony Russell, who was one 
of our Federal coordinating officers, on an acting basis, to go 
down there.
    As you know, Mr. Chairman, we were dealing with multiple 
situations there, not only with the personnel, but also with 
the backlog of projects within the States that we were serving. 
So, we have made progress.
    One of our--well, it is just a part of the business, 
though, in that, in doing projects that require large numbers 
of people be hired for a disaster, that there is also a 
lifespan to those disasters, when the work is done, the work 
force is being released. That was not laid out. There was not 
communication being done ahead of time.
    So, again, the situation that we found ourselves in was one 
that, I think, Nancy and Tony took the appropriate steps. It 
has moved forward. I am not saying that we have all problems 
resolved. But we do, I think, have the structure in place to 
continue working those issues and making sure that people are 
treated fairly and equitably as we go through the process of 
continued recovery in those States.
    Chairman Thompson. Well, thank you. I know you have heard 
the President might be on a trip that is going, I believe, 
tomorrow. I am almost certain that some of the this will come 
up at that discussion. So, I guess I am kind of preparing you 
in anticipation of what you probably all already know will come 
up, just given what people have said to us.
    In addition, one of the concerns, you heard talk about the 
barriers.
    Mr. Fugate. Yes, sir.
    Chairman Thompson. Have you done any kind of barrier 
analysis at FEMA?
    Mr. Fugate. Mr. Chairman, I have not done a formal one. But 
I can tell you just from looking at the applications and 
candidates that I have seen the last couple of--where I have 
had--one example is Federal coordinating officers--that, not 
only did I not see any diversity, I didn't see any diversity 
geographically or in skill sets. It seemed to be that we were 
almost going to central casting and getting live candidates who 
all looked the same, all had the same backgrounds and were 
geographically pretty much from the same area.
    As you know, those Federal coordinating officers are 
actually the people that work with the Governors in the States 
representing FEMA, working with those State governments. Many 
of these folks did not have any State or local experience.
    So, I looked at that, and I said, ``What is happening?'' 
They said, ``Well, you know, we post these jobs on-line. And we 
get--this is who applied.'' I am like, ``Well, that is the 
problem, then.'' We are going to have to go out and find folks.
    Again, when we are talking about Federal coordinating 
officers, I am talking about people that are senior, have 
experience managing emergencies or other complex operations. I 
said, ``Well, have we gone out to the associations?'' Like, 
within the International Association of Police Chiefs and Fire 
Chiefs, there is a Black caucus, there is a Female Chiefs 
Association, there is a Hispanic Chiefs Association, both 
within the International Association of Firefighters and Police 
Officers.
    I said, ``Have we gone to those folks and recruited?'' No, 
sir, we did not.
    So, we had changed that process to put more emphasis on we 
are physically going to go out to where we know there are 
people that have the skills sets that we desire. We are going 
to increase our candidate pool by going--not waiting for people 
to know about a job, not waiting for them to apply on-line, but 
we want to go recruit and tell people about the opportunities 
at FEMA and ask them to consider a service in their country, as 
serving in FEMA and those positions.
    Chairman Thompson. Thank you, and I appreciate your 
acknowledgment.
    Mr. Sullivan, might have been 3 years ago, or was it 2 
years ago you and I met out at the----
    Mr. Sullivan. It was right after I became director 3 years 
ago.
    Chairman Thompson. Right. There were some real issues that 
surfaced. Have we resolved a lot of those issues around 
recruitment of people, inter-level for the Secret Service?

  STATEMENT OF MARK SULLIVAN, DIRECTOR, U.S. SECRET SERVICE, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Sullivan. We have, sir. That day, I was disappointed, 
as was you. You and I had a conversation about that. I took 
that to heart. You know, every graduating agent class and every 
graduating agent class and every graduating uniform division 
class, the deputy director and I will meet with that class in 
my office for about an hour, hour and a half or so. It is right 
before graduation.
    Last week, we met with our latest agent class. It was 23 
agent trainees who will be graduating on October 20. Of that 
group of 23 individuals who came in and who will be graduating, 
a third were either minorities or women. We----
    Chairman Thompson. Well, in your--and congratulations on 
that. In picking a third of that class, did you lower any 
standards for the Secret Service? Or did you make any special 
considerations for those candidates? Or how did you find--how 
did you----
    Mr. Sullivan. No, the----
    Chairman Thompson [continuing]. Find the third?
    Mr. Sullivan. No, our standards are the same for everybody. 
I would say, No. 1, I do think the class that both you and I 
witnessed 3 years ago was an aberration. I will tell you, 
Chairman, that as happy as I was to a third, I want to see it 
higher than that. I think we can always do better.
    I do think, though, that we have been extremely aggressive 
over the--since 2007, we have done 1,100 job fairs. I have put 
out a message that--one of my priorities that I put out to our 
people--I put out annual priorities, and one of our priorities 
was recruitment with an emphasis on diversity.
    I go out and I do office meetings in the field and here in 
Washington, DC. During those meetings, what I emphasize is 
recruitment and diversity.
    I tell all of our people that we can't just depend on H.R., 
our human resource people, to do our recruitment, that 
everybody in this organization, our organization, has to be a 
recruiter.
    I appeal to our people, and I tell them that if they do 
believe that we are an organization that is looking for 
talented people of a diverse background, I want them to be out 
there and be recruiters whether they are at church----
    Chairman Thompson. Thank you. I guess my point is that with 
some enhanced methods of recruiting and leadership from the 
top, you were able to find a more diverse pool of applicants 
that did not lower the standards for the Secret Service.
    Mr. Sullivan. That is correct.
    Chairman Thompson. Thank you.
    Gentleman from Kansas City.
    Mr. Cleaver. Thank you, Mr. Chairman. I am going to move 
real quickly, so--but, Mr. Sullivan, since you are here, I am 
just curious. Does it make the Secret Service a little nervous 
when people show up at rallies with the President with guns?
    Mr. Sullivan. Recently we have seen people showing up at 
venues close--close to venues where the President is going to 
appear. According to the law, those people are within their 
rights to have that firearm. However----
    Mr. Cleaver. Yeah, I understand that. I was just concerned 
about the nervousness, but----
    Mr. Sullivan. We are nervous all the time.
    Mr. Cleaver. Okay. Thank you.
    Mr. Ahern, the committee staff requested from all of the 
participants today if we could get a diversity action plan. We 
did get one from Secret Service and from GSA. We did not get 
one from Customs and Border Protection.
    Do you have one?

 STATEMENT OF JAYSON AHERN, ACTING COMMISSIONER, U.S. CUSTOMS 
     AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Ahern. Yes, we do, and I regret it did not get here 
timely. We will certainly correct that. We do have a diversity 
plan. We actually have our Diversity Council meeting this week, 
which is the assistant commissioners that report to me. We will 
be meeting on Friday of this week.
    This calendar year--fiscal year, excuse me, 2010, will be 
our year of diversity, and we are going to be driving this from 
a leadership level down to the organization as we go forward. 
That will be reflected in our plan as well as our calendar 
events going forward. We will get that to you.
    Mr. Cleaver. I appreciate it.
    Are you near completion or----
    Mr. Ahern. It is complete, and it has been issued----
    Mr. Cleaver. Oh, okay.
    Mr. Ahern [continuing]. So I--again, I regret it did not 
get here.
    Mr. Cleaver. Okay. So what--when do you think we would get 
a chance to look at it?
    Mr. Ahern. We will submit that immediately.
    Mr. Cleaver. Okay. I appreciate it very much. Thank you.
    Chairman Thompson. Will the gentleman yield on that?
    One of the issues that we hear from CBP is that while you 
carry the lion's share of the Hispanic diversity within DHS 
when you look at the entry-level slots, but as you look into 
leadership, it changes.
    Does your plan reflect something that you will address that 
change?
    Mr. Ahern. Yes, it will. You know, and just--the numbers 
are certainly reflective of a lot of the hiring we have done in 
the Border Patrol over the last few years as we have doubled 
the size of the Border Patrol.
    Just looking at the Border Patrol agent population, it 
represents--about 50 percent of the 20,000 we have are of 
Hispanic descent. Our overall agency number is 31.6 percent for 
Hispanic.
    As we take a look also getting into the leadership ranks, 
those numbers are comparable to the civilian labor force, but 
we want to go ahead and improve and increase those numbers 
going forward, so we will be looking at our candidate 
development program.
    We will also be looking at the targeted pool of GS-14s and 
-15s that will be the eligible individuals pulling into those 
Senior Executive ranks going forward.
    We also just recently hired an individual who is going to 
be our succession management director as well that will be 
identifying people at the mid-career level to prepare them for 
Senior Executive positions in the near future.
    Chairman Thompson. What is the civilian percentage that you 
referenced?
    Mr. Ahern. For which population specifically?
    Chairman Thompson. For Hispanic.
    Mr. Ahern. I have got that, if you would just--for the--
just for the--31 percent--30 percent--almost 36 percent for--
31.6 percent for our labor workforce within CBP represents--of 
the civilian labor force--is 10.7 percent.
    Chairman Thompson. So is your goal 10.7 percent or 31 
point----
    Mr. Ahern. We are on board for--Hispanics is 31.6. The 
national civilian labor force is at 10.7. So our goal is to 
make sure we strive--better balances in the organization.
    Chairman Thompson. But I guess my point is that 31 
percent--are they at the entry level, or if I put the 
percentages in the Department, would 80 percent of that 31 
percent be entry level?
    Mr. Ahern. Have to get you the very specific--precisely.
    Chairman Thompson. Okay. I am sorry.
    Mr. Ahern. But just on average, 50 percent of the Border 
Patrol agents are of--Hispanic, and you take a look at the 
growth, a lot of those--at the five, seven, nine--
    Chairman Thompson. Well, and I think--and I am going to 
yield back to the gentleman. We have plenty of time.
    If you would, just get us the statistics from you all the 
way down.
    Mr. Ahern. We have that.
    Chairman Thompson. Well, thank you.
    Mr. Ahern. We will provide that.
    Chairman Thompson. Yield back.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Ms. Rossides, as you can imagine, most of us do a lot of 
traveling. I do 2,400 ground miles a week. In 6 years, almost 6 
years, I have spent 6 weekends here, so I do a lot of 
traveling.
    I am always amazed, and somewhat pleased, when I see the 
diversity with TSA employees in the airports. I think that has 
been almost all around the country.
    My pleasure turns to some pain when I realize that 80 
percent of them are at GS-9 or below. I also notice a 
tremendous turnover--this--I don't have any statistics on 
turnover. This is visual, you know, just going in and out of 
the airport.
    I mean, at National, for example, about four of the folk 
who have been there the whole time--we know each other, we ask 
about each other's family. The other folks seems like--it seems 
like it is a revolving door.
    I am wondering--I am wondering--maybe we need to take a 
look at this 80 percent and below who are GS-9, classified GS-
9. Is there an awareness of that?

    STATEMENT OF GALE ROSSIDES, ACTING ASSISTANT SECRETARY, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Rossides. Yes, sir. Yes, sir. In fact, you are correct. 
Our transportation security officer workforce that you see in 
the airports is one of the most diverse workforces in the 
Federal Government.
    Mr. Cleaver. I agree. I agree.
    Ms. Rossides. We also, as we have built the agency and in 
the most recent years, have looked at the issue of retaining 
that diverse workforce. The retention was as much a critical 
factor for us as our recruitment efforts.
    I am happy to say that our retention numbers are now, for 
the overall workforce, at about 7 percent. At one time, that 
revolving door that you saw had an overall retention of in 
excess of 30 percent--or an attrition rate.
    So we have done a number of things to focus on: How do we 
retain that workforce? One of the tremendous efforts has been 
in developing a whole series of career developmental 
opportunities, so that a TSO can become a supervisor there in 
the airport, they can become a mid-level manager, somewhere 
across the system move up to a Federal security director 
position.
    We have also had a new series of initiatives launched to 
bring people into headquarters jobs, because as we stood up the 
agency we hired people from all across America, from all sorts 
of backgrounds, and one of the things we are now doing is we 
are being able to bring people up from the officer ranks into 
headquarters positions and giving them career opportunities.
    Mr. Cleaver. So do you have any idea now what the 
percentage would be of minorities above GS-9?
    Ms. Rossides. Yes, sir. In our mid-level and senior-level 
ranks, women represent about 30 percent of the workforce and 
minorities represent about 30 to 35 percent.
    It is from the front-line workforce, where our diversity is 
over 45 percent, and the mid-level that we want to get even 
more employees into that level through our management 
development program. Then that becomes the pool for our 
Executive cadre.
    Mr. Cleaver. One final question, Mr. Chairman, if I could, 
please.
    Are the supervisors who are providing the direction in 
these airports--are they aware of or have they been told that 
there are consequences for not being inclusive and giving 
attention to issues of diversity?
    Ms. Rossides. Yes, sir. We have what we call our model 
workplace program in every airport in the country. In that 
program--the principle of that program is how to lead diverse 
teams in a very inclusive manner. Our supervisors have been 
trained in that.
    We also just, in the course of the last year, finished a 
coaching class for all supervisors about what it means to 
include and listen to the diverse opinions of their employees.
    Lastly, a tremendous amount of our focus is at the airport 
level, and every airport has an employee advisory council where 
they look at all of the issues of concern to the employees.
    Mr. Cleaver. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I now recognize our Ranking Member for 5 minutes, Mr. 
Austria.
    Mr. Austria. Thank you, Mr. Chairman--the opportunity to 
sit in this seat, so it is an honor to be here in this seat. 
But thank you.
    I apologize to our panel for walking in late on your 
testimony. I had two committees going on at the same time. But 
I just again want to echo what I said earlier about the 
importance of improving diversity throughout all your 
departments.
    I think it is extremely important that--and it be promoted 
at all employment levels, not just within your departments but 
within the Federal Government. I think it is very important.
    I would like to begin my questioning with Mr. Fugate, as 
far--with FEMA. I asked the Secretary--Deputy Secretary earlier 
of Homeland Security her thoughts on how you go about looking 
at the different areas within the Department to ensure 
diversity.
    One of the areas that I kind of focused in on was first 
responders versus, for example, first providers. I don't know 
if you are familiar with what is going on in Ohio.
    We just broke ground on a very important first provider 
training program that we are trying to put together that--you 
know, those citizens that are first on the scene after a 
disaster who have the training to provide initial basic medical 
care to the injured, that could mean the difference between 
life and death.
    Does FEMA have a plan to train and coordinate and ensure 
diversity to first providers as well as first responders? I 
know you have got two different tasks. First responders are out 
digging through the concrete. You have got firefighters, law 
enforcement, military.
    First providers are more on the health side--doctors, 
nurses, you know--and if so, could you describe that?
    Mr. Fugate. Congressman, the answer, I think, is--as far as 
the health care community is no, we don't have any specific 
programs. Most of our responsibility is in providing grants 
through the States for those programs. We don't really have 
that role as far as the hiring or any of that.
    But I would go back to--when you talk about the response 
community as a whole, when I got in the fire service, women 
were not yet accepted as firefighters. That has changed. It has 
gotten to the point now within the associations like the 
International Association of Police Chiefs and Fire Chiefs that 
we now have a critical mass of people who have moved up through 
the ranks and are now in senior leadership roles.
    Again, that is an area that I am trying to reach out to and 
recruit from because when you talk about the things we have to 
do--we talk about diversity. But one of my concerns is when you 
look at FEMA as a whole, we don't have a lot of representation 
from local and State folks that have done the work in the 
field. I think if we are to support that team, then we have to 
reflect that team. So we don't have--and I think this may be 
kind of a way of expressing this. We do not represent within 
FEMA many of the folks that we say that we are there to serve 
such as the health care community.
    So when we start talking about these issues, oftentimes we 
are at a disadvantage because we don't even have that local 
knowledge of what it is like to be in a hospital, what it is 
like to be in an emergency room, what it is like to be out 
there in a clinic when a gas spill occurs. That is another part 
of this. I think we oftentimes miss the opportunity that we end 
up getting similar job skill sets when I am looking at not only 
do how we get and recruit and expand the role of folks, but how 
do we get to people that traditionally have not always been 
attracted to FEMA or we haven't recruited.
    I mean, we do very good recruiting from the military. We do 
very good with the Coast Guard. We do very good--and, you know, 
those types of areas. But if you looked across our 
organization, many people who are looking for that second 
career--they haven't--I don't--and I think part of it is we 
haven't gone to them to recruit, to bring in the different 
professions to represent the things that FEMA supports.
    Mr. Austria. All right. I certainly appreciate that answer. 
But let me just say: This particular site, the old climate that 
is looking at first providers, the areas that you are talking 
about. It is extremely unique. It is a very--it is a 
collaboration within this project is what struck me.
    You have universities involved. We have the military 
involved, the veterans involved, all different levels of 
government, local, State, Federal. It is very unique. I would 
encourage you, if you are able to, to come down and see the 
site and talk to these individuals at the local level, the 
challenges that they are faced with this. I think it would be 
helpful from where you sit in Washington to be able to 
understand from a grass-roots level what they are trying to put 
together and the challenges they face.
    But moving on to just another question and also following 
up to what you mentioned, now that DHS has conducted its risk 
assessment with regard to the 100 largest metropolitan 
statistic areas and received its feedback from these same areas 
and given that all the information has been collected on a 
State and local basis, as you mentioned, is it safe to assume 
that the Department will be using the risk assessment 
methodology consistent with the previous 3 years?
    Mr. Fugate. Congressman, we are incorporating that in. We 
are looking at risk as a factor in the grants. But there is 
another factor, I think, that also is carrying a lot of weight. 
That is within the communities themselves is looking at some 
stability as to funding on the longer term.
    When you saw the fluctuations as people would look at how 
you would do that and numbers would go up and down, cities 
would drop on and drop off, it made it very difficult for 
communities to look at things that you could not do in just 1 
year in which you are trying to build capability and capacity 
over a multiple-year period. Then how do you sustain that?
    So as we have been going out and reaching out to 
communities and looking at risk factors, something else we are 
hearing is how do you maintain and sustain what you have built 
and how do they provide planning for a process that they are 
not going to be able to complete in 1 year. Having some 
stability in how we look at that risk so that they can build 
capability, not just based upon each year allocation trying to 
make determinations of projects that may take 3 to 4 years to 
build, maintain, and have that capability ready to serve their 
communities.
    Mr. Austria. I thank you for your testimony. I know my time 
is up.
    Thank you, Mr. Chairman. I appreciate it.
    Chairman Thompson. Thank you very much.
    Director Sullivan, there have been some disturbing 
incidents in the past that occurred on Secret Service property 
with respect to nooses and other things. Has that issue been 
addressed?
    Mr. Sullivan. Sir, I am familiar with the noose. Do you 
have any other examples you wanted me to----
    Chairman Thompson. Well, let's--the e-mails.
    Mr. Sullivan. Yes. I will speak to the noose first. Back in 
April 2008, an African-American employee walked into our 
training center and saw a noose hanging down from a doorway. 
That was reported to us by the special agent in charge of the 
Raleigh training center, who is also African-American. We asked 
her to immediately open up a fact-finding on that.
    I will tell you that we then broadened that to a full-bore 
inspection. We did numerous interviews. The person who was 
responsible for that--for putting up that noose came forward 
and acknowledged putting it up. It was his claim that he did 
not mean any racial insensitivity by that. Nonetheless, that 
had an incredible impact on our organization.
    I immediately issued two or three e-mails to our 7,000 
employees advising them that I would not tolerate any type of 
behavior like that. After the conclusion of the investigation, 
it was the opinion of all those who were involved in the 
investigation, to include the agent in charge of the Raleigh 
training center, that he did not intend that as a racial slur. 
However, that was an eye-opener for us.
    It showed us that there are things that are very hurtful to 
others and that we need to be more sensitive to that. I brought 
in a contract diversity trainer who in turn brought with her--a 
contract employee who is the head of African-American studies, 
I believe, at Houston University to do training for all of our 
management.
    I do believe that--I do believe in the result of that 
investigation that this was not an event that was intentionally 
done to hurt anybody, as I mentioned to you. It was an eye-
opener that all of us have to be sensitive to all those around 
us and that what might not be hurtful to one is going to be 
extremely hurtful to others.
    As far as the e-mails are concerned, we are involved in a 
10-year old African-American racial discrimination lawsuit. As 
part of the request by the plaintiff was for some electronic 
documents going back several years. When I was informed of this 
request in this order by the judge, I had two options. I could 
either do it internally, review all of the documents they were 
looking for or go to an outside contractor.
    I opted to go to an outside contractor. The outside 
contractor went through 20.1 million documents. Of that 20.1 
million documents, we found about 12,000 which were found to be 
responsive to the request.
    Of the 12,000 documents we found, there were 61 racially 
insensitive e-mails. These racially insensitive e-mails were 
divided into half, about half sent by African-American 
employees and half sent by White employees.
    As a result of receiving this information, I immediately 
ordered that we open up an investigation into this. We did 
several hundred interviews, not only of the people that sent 
the e-mail, the people that received the e-mail, but any 
additional addressee who happened to be on that e-mail. At the 
conclusion of this investigation, we took disciplinary action 
which was appropriate for each particular e-mail.
    We put a committee together which was inclusive by gender 
and by race to make sure that this was done fairly and 
transparently. But I will tell you that I will not tolerate any 
e-mails or any communication or any type of language that would 
convey any type of racial insensitivity. But to answer your 
question, we have dealt with both issues in a very serious way.
    Chairman Thompson. Thank you very much.
    We have been joined by Ms. Norton.
    You have 5 minutes.
    Ms. Norton. Mr. Chairman, I particularly appreciate that 
this committee is holding this hearing. I am on committee with 
jurisdiction over OPM. But unless the committees of 
jurisdiction assume the kind of responsibility you have, the 
agencies will not be held particularly accountable since OPM 
seems to cover the whole universe.
    Good job that it does, it is the committees of oversight 
that, it seems to me, have special responsibility. This is a 
responsibility that I think too few take.
    Recognizing I am impressed that we have a new 
administration that has put together some plans, I know that 
from my own experience as chair of the Equal Employment 
Opportunity Commission that it really does take foresight, 
particularly when an agency is in the position DHS is.
    I was astounded, Mr. Chairman, when I looked at articles on 
expansion of the Federal Government, which seems to be the only 
growing business in the United States today, to note that of--
that DHS was at the top of the list of agencies that were 
hiring new people. I have got to, therefore, ask you about what 
amounts to a real bonus for you that you are not going to have 
in the future. No. 1, even without the present crisis or should 
I say within the present crisis, your Department is expanding 
as few others are in the Federal Government, No. 1.
    No. 2, undoubtedly some of you have stimulus funds. I would 
like--and, No. 3, although there may have been some slowing in 
this, there are the retirements that we all cringe at because 
the baby boomers are such a large portion of the most promising 
of Federal workers today.
    So I would like to know whether or not your plans take into 
account what amounts to a one-time-only opportunity to 
diversify rather than doing what might come naturally, since 
there are going to be--every college graduate is out of work, 
everybody is looking for work. If those new jobs are not used--
and I am not sure how you are going to diversity--diversifying 
only within what you already have becomes increasingly 
difficult. I would like to know what you are doing to take 
advantage of the new funds you have and the natural growth you 
have that others do not have in order to get a more diverse 
workforce.
    Ms. Rossides. I can start with addressing your question. At 
TSA, we have a diversity action plan. Although our 
transportation security officers are a very diverse workforce, 
we are focusing on a number of things, first of all, on the 
career path and the career development of those individuals so 
that they can move up and assume the mid-senior and executive 
level positions in TSA.
    We have done a barrier analysis of the Federal Air Marshall 
Service because our--we are under-represented in women in the 
Federal Air Marshall Service. As a result of that----
    Ms. Norton. But not in minorities.
    Ms. Rossides. No, the minority representation is better 
than it is in females. It is at about 30 percent minority. But 
the challenge we found for women particularly is the schedule, 
obviously, of the travel that is associated with the position 
and that when women were hired, they did not have a good 
appreciation of the demands of the job. So a lot of our work 
now is in the candidates' identification and education stage so 
that applicants have a full understanding of what the job 
requirements are before they actually go through the whole 
process and come on-board.
    The other areas that we are focusing on is in our Executive 
ranks. We don't just rely upon the traditional USAJOBS method 
for recruiting. But we have gone to technical trade 
organizations. We have gone to major newspaper publications. We 
have gone to all of the various diversity associations, 
national law enforcement associations, NOBLE, the Asian-
Hispanic Law Enforcement Associations. We have tried to cast a 
very wide net to educate about the opportunities within TSA and 
the job openings.
    Ms. Norton. What about your colleagues at the table, before 
my time is up, please?
    Mr. Sullivan. Ma'am, for Secret Service, as I mentioned 
earlier, an important part of our recruitment is to make sure 
that all----
    Ms. Norton. Are you getting new people?
    Mr. Sullivan. Yes, ma'am.
    Ms. Norton. You are expanding, too?
    Mr. Sullivan. Yes, ma'am. We are looking to hire about 125 
agents and about 150 administrative professional and technical 
people. So I believe it is very important to make sure that all 
of our employees realize that we do value diversity, and we are 
looking to hire. We want them to be part of that recruitment 
effort.
    On March 28 of this year, we had a career fair day here in 
Washington, DC. We had about 3,000 people attend that career 
fair. We got very good results from that.
    We have been bringing people in to interview them, and 
looking to bring those people into jobs right here in----
    Ms. Norton. So, those indicate that you will have diversity 
in those new hires?
    Mr. Sullivan. Yes, ma'am.
    Ms. Norton. What about Mr. Fugate?
    Mr. Fugate. We are not so much in a growing. We are looking 
at converting a lot of our core positions into full-time 
positions as we go through our budget.
    Our probably biggest opportunity is going to be in 
retirements, as you pointed out. If you look at the 3- to 5-
year horizon, depending upon how many people take option, we 
have probably got about half of our permanent work force that 
will be eligible for retirement.
    That is really, I think, for me, not only a challenge, but 
also the opportunity is, we did not do--again, when you look at 
our senior level, SES 14s and 15s, when that group moves on, I 
am not sure--in fact, I know we haven't done what we need to do 
to make sure that we have taken the next tier of folks where we 
do have diversity, that they are ready to move up----
    Ms. Norton. Now, how are you going to prepare them to move 
up? Because this is where you get the SES problem.
    Mr. Fugate. Yes, I understand. I have a couple of 
opportunities that I had not had before with some of our staff 
that has come on board.
    Chief Kelvin Cochran, who is running U.S. Fire 
Administration, has built these type of programs, both in 
Shreveport and Atlanta. Rich Serino, who just was confirmed as 
the deputy administrator, has also worked to build these teams. 
I have asked them to take steps now to build internally to FEMA 
how we build opportunities, to identify people and make it 
competitive to become our next leaders.
    As it is now, it has been an ad hoc system. It is 
oftentimes depending upon who you were working for, at what 
time positions became available.
    We also tended to buttonhole people into what part of FEMA 
they were hired into with where their career was spent. They 
weren't really given an opportunity to move around in FEMA.
    We have too many folks that have been at headquarters, have 
never been in the field. We have too many people in the regions 
that never had an opportunity to come to headquarters.
    So, we want to basically look at this as an opportunity of 
how you build the work force for the future, given that we are 
going to have a huge opportunity with vacancies in the senior 
leadership. I don't want those vacancies to occur, and then 
have to go outside the organization and find everybody.
    I think we need to have balance. We have to give people 
opportunities and identify and make it competitive, so when 
those jobs come open, we have a diverse work force.
    Ms. Norton. Mr. Ahern.
    Mr. Ahern. Yes, just very briefly. You know, we certainly 
will not be in the growth mode we have been in in the last 
several years. That is not any complaint by any means. We have 
had historic growth. Thank you to this committee, and as well 
as our appropriators, for funding us very well in the last few 
years.
    That has been to our advantage. That has also been to our 
disadvantage. As we have seen the huge growth. That is also set 
the percentages at a disadvantage as we go forward to try to--
--
    Ms. Norton. How did that--you heard there was huge growth. 
Why weren't you, in fact, making sure that you used that growth 
in order to diversify your work force?
    Mr. Ahern. Well, in fact, we did on the Border Patrol 
ranks. That carries us certainly for that particular 
profession. We had growth in those numbers that were 
representative of the overall agency numbers, from 50 percent 
in the Border Patrol, 31 percent in the----
    Ms. Norton. So, where were the--where are the issues?
    Mr. Ahern. The issue is actually, as we get to the numbers, 
large organizations, as we start to make incremental change 
going forward here with what we have in the forecasts for the 
future of this fiscal year, even though we have seen some 
significant increase in numbers for females, for African 
Americans, that is not necessarily going to change the overall 
percentage dramatically. So, we have to measure the numbers 
accurately and put the right context on our discussion going 
forward.
    We have had substantial outreach to historically black 
colleges, Hispanic institutions, women's organizations, veteran 
organizations.
    One of the opportunities that I see as we go forward, we 
actually saw as a result of that increase in the applicant 
flow, from 11 percent African American to 17 percent. We 
currently have about 2,000 individuals in a cleared mode to 
fill our attrition coming up this year, where we will see some 
opportunity for getting better representation going forward.
    Ms. Norton. Mr. Chairman, I appreciate your hearing.
    I just want to say, this Department has an opportunity much 
like the opportunities that were provided for the baby boomers. 
Government was expanding. There was an idealistic President in 
office. These people were drawn to the Federal service.
    As we saw in the 1970s, 1980s, and 1990s, the private 
sector became more sexy. People turned away. Federal officials 
were, in fact, criticizing Government.
    Now we have a President that is making Government neat 
again. You have before you the Department that could turn 
around much that the Federal Government lacks in diversity.
    I appreciate very much what you are doing here today.
    Chairman Thompson. Thank you very much.
    Obviously, just numerically, they have a lot of people who 
work for them.
    Mr. Fugate, one of the things we don't have information on 
is the temporary or reservist workers. I would like for you to 
get us some data on those. Those of us who have been involved 
in emergencies, when the cavalry comes, it doesn't look like 
America.
    Mr. Fugate. Yes, sir.
    [The information follows:]

    Please see attached chart.

                                                                                      DAE/CORE DEMOGRAPHICS
                                                                                        As of 10/24/2009
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                   RNO/Gender
                                                                               -----------------------------------------------------------------------------------------------------------------
                             Emp. Type                                 Grand        2 or More       2 or     UnIdentified                   American Indian  American        Asian
                                                                       Total   ------------------   More  ------------------ UnIdentified ------------------  Indian  ------------------  Asian
                                                                                 Female    Male    Total    Female    Male       Total      Female    Male     Total    Female    Male    Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
2yr CORE...........................................................      1,696        1        1        2        0        0           0          6        1         7       14       10       24
2yr Kat............................................................      1,450        0        0        0        0        0           0          3        4         7       19       12       31
4yr CORE...........................................................        185        0        0        0        0        0           0          2        1         3        2        1        3
DAE-L..............................................................        164        1        0        1        1        0           1          1        0         1        2        7        9
DAE-R..............................................................      8,953        8        8       16        1        1           2         66       79       145       58       91      149
                                                                    ----------------------------------------------------------------------------------------------------------------------------
      Grand Total..................................................     12,448       10        9       19        2        1           3         78       85       163       95      121      216
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  DAE/CORE DEMOGRAPHICS
                                                                    As of 10/24/2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                      RNO/Gender
                                                            --------------------------------------------------------------------------------------------
                    Emp. Type                       Grand    African American    African        Hispanic                       Caucasian
                                                    Total   ------------------   American  ------------------   Hispanic  ------------------  Caucasian
                                                              Female    Male      Total      Female    Male      Total      Female    Male      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
2yr CORE........................................      1,696      295      109          404      111       76          187      689      383        1,072
2yr Kat.........................................      1,450      294      159          453       11       17           28      440      491          931
4yr CORE........................................        185       15       10           25       10        2           12       70       72          142
DAE-L...........................................        164       17       18           35        6        5           11       63       43          106
DAE-R...........................................      8,953      691      517        1,208      398      371          769    2,321    4,343        6,664
                                                 -------------------------------------------------------------------------------------------------------
      Grand Total...............................     12,448    1,312      813        2,125      536      471        1,007    3,583    5,332        8,915
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Chairman Thompson. I think we need your help. There are a 
lot of retired people, veterans and other folk, who could help 
make up part of that temporary work force that I think would 
help us get where we need to be.
    Mr. Fugate. Yes, sir.
    Chairman Thompson. I yield 5 minutes to the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. This 
has been a constructive hearing. I thank you for indulgence. 
Many of us are in meetings in different parts of the campus, if 
you will.
    I am going to have some pointed questions, the first one 
to, I think, Ms. Rossides, very much. I indicated in the 
earlier hearing that I had two town hall meetings showing the 
interest of Americans to work in public service and the Federal 
Government. They were Federal job fairs. TSA was represented in 
both. The DHS had Ian Pannell from the human resource capital 
offices.
    But again, I fault the fact that there were no recruiters--
real live people concerned with people outside the Beltway. 
Frankly, this is not directed to TSA, but to everyone--it is 
insulting, because you can't interface with a blank screen.
    There is something to the point that we treat everybody 
fairly. Will you treat the people that can drive fairly from 
this region? I have the greatest respect for them, but you 
don't treat fairly the individuals who are in the hinterlands.
    So, my question would be, going straight down the line, Mr. 
Sullivan, would you join me in my district at one of my 
historically black colleges to discuss opportunities with the 
Secret Service?
    Mr. Sullivan. Absolutely.
    Ms. Jackson Lee. Ms. Rossides.
    Ms. Rossides. Yes, ma'am.
    Ms. Jackson Lee. Mr. Ahern.
    Mr. Ahern. Without question.
    Ms. Jackson Lee. You have a large diversity component, 
because you have a sizable Hispanic component, which I think 
really skews the numbers at DHS. We applaud their 
bilingualness, and they have been vital to your efforts.
    But I know, also, it is important to draw in Pakistani 
Americans, Indo-Americans. Or it may be--diversity may be an 
Anglo American in an area where they have not been, or an 
African American who has proclivity of dealing with Haitians or 
Africans in terms of border issues.
    So, I think you said ``yes.'' You understand what my issue 
is.
    Mr. Ahern. I do.
    Ms. Jackson Lee. You will come down. Let me pose my 
questions to Mr. Fugate.
    Thank you all, and we will be in touch with you.
    Mr. Sullivan, if I have enough time, you might be prepared 
to tell me what the status of the discrimination lawsuit that 
you have been addressing for a number of years.
    Mr. Fugate, I understand that there has been a major 
procurement--excuse me--activity. I also will invite you both 
to my district. But I hope that we will have an opportunity--we 
were supposed to have an opportunity to have a meeting, and we 
were scattered during the summer. So, I look forward to that 
meeting being set up.
    But could you give me an assessment of a recent procurement 
extension I think that you had, or offer, for trailers? You 
were testing some trailers. Could you give me that very 
quickly? I have a quick question after that, that I want you 
to--on.
    But where is the status? You had some prototypes out in 
Maryland, and then you have issued a contract. Can you tell me, 
how much is the contract that you have issued and the prototype 
situation?
    Mr. Fugate. The prototypes are currently at the National 
Emergency Training Center, where we are inviting students and 
residents to stay in those and give Porades feedback on those 
units.
    The other part of your question was, we had gone back at 
the direction of the Post-Katrina Emergency Management Reform 
Act and other activities, to look at the temporary housing 
units----
    Ms. Jackson Lee. Right.
    Mr. Fugate [continuing]. And devise----
    Ms. Jackson Lee. You--just because of my time--you issued a 
contract. How much was that for?
    Mr. Fugate. I believe it is $3.5 billion is the total max. 
It is a contract that we are not purchasing against. It is a 
contract in case we do have a demand for housing.
    Ms. Jackson Lee. But you are buying it from certain 
entities?
    Mr. Fugate. Yes, ma'am.
    Ms. Jackson Lee. Are any of those minority businesses?
    Mr. Fugate. I do not know. I would have to research and 
report.
    [The information follows:]

    It is nearly impossible to determine the exact amount of the $3.5 
billion contract dollars awarded to a minority business. The ethnicity 
of a small business owner is not a determining factor when awarding a 
Federal contract. Nevertheless, there is one socio-economic small 
business group that is likely to be owned by minorities. This group is 
referred to as a Small Disadvantaged Business (SDB). There are two 
types of SDBs; (1) 8(a) Small Business and (2) non-8(a) Small 
Disadvantaged Business. This does not take into account the number of 
woman-owned or HUBZONE or Service Disabled Veteran-owned small 
businesses that are owned by minorities. For this particular 
acquisition, FEMA awarded five contracts as follows:
    With respect to the 2 Bedroom Park Model Units, FEMA made the 
following awards: Circle B Enterprises, Miramar Beach, FL (small 
business)--ordered 375 units @ $9.6 million; and Lexington Homes, 
Lexington, MS (small business)--ordered 375 units @ $9.8 million.
    With respect to the 3 Bedroom Manufactured Homes, FEMA made the 
following awards: ScotBilt Homes, Waycross, GA (Woman-Owned business 
and small business)--ordered 50 units @ $2.5 million; Circle B 
Enterprises, Miramar Beach, FL (small business)--ordered 50 units @ 
$2.2 million; and Indiana Building Systems, Middlebury, IN (small 
business)--ordered 50 units @ $2.2 million.
    As you can see, none of the contracts were awarded to an SDB. 
However, this does not guarantee that the owners of these businesses 
are not minorities.
    Prior to releasing the Request for Proposal, FEMA conducted market 
research using a Sources Sought Notice posted to FedBizOps on June 5, 
2009. After reviewing the responses to the Sources Sought Notice, the 
Contracting Officer determined that there were not two or more vendors 
in any particular socio-economic group who could perform the services 
at a fair and reasonable market price to the Government or in the 
quantity desired by the Government.
    Only four businesses submitted capability statements: Alternative 
Contracting Enterprises of Tucson, AZ (a minority-owned, Veteran-Owned, 
Service Disabled Veteran-Owned business); Franklin Homes of 
Russellville, AL (a small business); Adrian Homes of Adrian, GA (a 
small business); and Nelson LC of Sanford, FL (a small business).
    FEMA determined that the best course of action was to set aside the 
acquisition for competition among small businesses only. In August 
2009, FEMA posted the solicitation as a small business set-aside and 
the following breakdown of proposals was received:
    With respect to the Park Model (2 Bedroom Units), FEMA received 
proposals as follows:
  <bullet> Number of proposals from 8(a) firms: 1;
  <bullet> Number of proposals from HUBZones: NONE;
  <bullet> Number of proposals from Service Disabled Veteran-Owned: 6;
  <bullet> Number of proposals from women-owned: 3;
  <bullet> Number of proposal from minority-owned: 2;
  <bullet> Small Business: 10.
    With respect to the Manufactured Homes (3 Bedroom Units), FEMA 
received proposals as follows:
  <bullet> Number of proposals from 8(a) firms: 1;
  <bullet> Number of proposals from HUBZones: NONE;
  <bullet> Number of proposals from Service Disabled Veteran-Owned: 5;
  <bullet> Number of proposals from women-owned: 5;
  <bullet> Number of proposal from minority-owned: 1;
  <bullet> Small Business: 10.
    After technical evaluations and price analysis was performed on all 
offers submitted, FEMA made awards to the companies identified above.

    Ms. Jackson Lee. Okay. Give me that answer.
    So, let's go to your procurement area.
    Can you tell me, line and verse, the numbers of people in 
your procurement? Because I think FEMA has its own procurement.
    Mr. Fugate. Yes, ma'am.
    Ms. Jackson Lee. I would like to have a breakdown of the 
ethnic population in that area. Do you have that?
    Mr. Fugate. Not before me. We can provide that.
    [The information follows:]

    Demographics of the Acquisition Management Division:
  <bullet> Acquisition staff is composed of both Headquarters and 
        Regional personnel. Some of the Regional personnel support the 
        long-term recovery offices in Mississippi and Louisiana.
  <bullet> Thirty-six percent of the Headquarters staff is African 
        American. Approximately 3 percent of the staff is Asian and 
        Hispanic.
  <bullet> At the GS-15 level, 8 employees are African-American and 6 
        are Caucasian.
  <bullet> At the GS-14 level, 21 employees are African American and 19 
        are Caucasian.
  <bullet> At the GS-13 level, 21 employees are African-American and 24 
        are Caucasian.
  <bullet> At the GS-12 level, 9 employees are African-American and 20 
        are Caucasian.
  <bullet> Nearly half of the Headquarters Acquisition staff is female.

    Ms. Jackson Lee. Would you be able to provide that?
    Do you have any individuals who were Katrina survivors, or 
Rita survivors, or Hurricane Ike survivors? There was, of 
course, Hurricane Andrew, but let me focus on--do you have 
Katrina survivors in that area?
    Mr. Fugate. I would have to----
    Ms. Jackson Lee. Can you provide that for me, as well?
    What about Hurricane Rita survivors?
    Mr. Fugate. Again, if they would identify. We would have to 
ask and provide that, as well.
    [The information follows:]

    Yes, there are Hurricane Katrina survivors on the procurement 
staff.

    Ms. Jackson Lee. I am sure they wouldn't mind. Then I would 
also add Hurricane Ike.
    My issue is that, out of diversity in employment comes 
opportunities in decision-making. I am concerned that a $3.2 
billion contract that is impacting people who were the victims 
of poor decisions on trailers--preceding your time, preceding 
this administration--are either not in the procurement area 
or--I don't know, there may be some Katrina survivors; they 
were predominately African American coming out of the New 
Orleans area--that might have organized and have a trailer or a 
temporary housing company.
    My question is, has any of the people in your procurement 
area reached out to try to get the participants or the 
consumers to be part of the team to make the ultimate decision 
when we have to unfortunately face that again? Do you have any 
idea whether that effort was made?
    Mr. Fugate. I do not. I would have to research and report 
back, ma'am.
    Ms. Jackson Lee. Would you look at that as a viable 
approach to having a more diversified procurement sector of 
FEMA, which is one of the largest purchasers by the Government, 
particularly in times of disaster?
    Mr. Fugate. I will go back to our management section and 
ask them to incorporate that.
    [The information follows:]

    While we strive to have a diverse workforce, we do not consider 
disaster survivors as one of the diversity categories. That said, we 
agree that it would be a good idea to have disaster survivors on the 
procurement teams if they are available. These teams could provide 
valuable input into developing the requirements. FEMA Acquisition 
Management Division will study how best to include disaster survivors 
into the acquisition process.

    Ms. Jackson Lee. I would also like to ask that we are not 
here putting people out of work. We certainly want to make sure 
that they are in work.
    But I would certainly appreciate you looking at the 
viability of senior leadership in the procurement, if not the 
procurement officer for FEMA, being a minority, in particular, 
African American or Hispanic--not to negate anyone else, but 
because of the drastic status that these individuals happen to 
be in in time of a disaster.
    If not, the head of the office--which that is not my 
decision, that is yours--but to make sure that that team is 
fully diverse as it relates to procurement for FEMA.
    Mr. Fugate. My commitment is a diverse work force where we 
hire the most qualified applicants into the open positions that 
we have.
    Ms. Jackson Lee. I agree with you on that. Will you make 
the extra commitment to outreach, so that you could work on 
diversifying that office, finding qualified people who may 
happen to be of diverse background?
    Mr. Fugate. Congresswoman, you hit a couple of points we 
talked about earlier. Again, I understand. Waiting for people 
to apply on-line does not give us a good applicant pool to 
select against.
    Ms. Jackson Lee. Absolutely.
    Mr. Fugate. We have got to go out and recruit people. We 
have to go out and expand our definition of diversity to 
include people that come from the areas we serve, particularly 
those that have local and State experience and those that have 
been in areas of impact, but also geographically just don't 
happen to be in the areas where FEMA's headquarters and offices 
are.
    [The information follows:]

    FEMA has committed to ensuring a diverse workforce in its 
Acquisition Management Division, as well as throughout the 
organization.

    Ms. Jackson Lee. Absolutely.
    Just to note for the Chairman, I am speaking of a $3.2 
billion contract that is already let. That is just not jobs, 
but somebody made a decision about the $3.2 billion. Even if it 
is a drawdown, somebody made a decision to let that contract 
out. It will be a drawdown, but I don't believe that any 
minority company is in the drawdown at this point.
    If----
    Chairman Thompson. Well, and I heard a little bit about it. 
I guess the question is, Mr. Fugate, were you aware that such a 
large procurement was in the works?
    Mr. Fugate. Yes, sir, Mr. Chairman.
    Chairman Thompson. Did you look at that procurement from a 
business perspective of including smaller minority business 
opportunity?
    Mr. Fugate. Mr. Chairman, I would have to go back and ask 
the Chief Procurement Officer Al Sligh, who is over management, 
but he is certified by the Department of Homeland Security as 
our chief procurement officer.
    [The information follows:]

    Yes, FEMA looked at the procurement from a business perspective of 
including smaller minority business opportunity. As previously stated, 
FEMA conducted market research utilizing FedBidOpps.gov and a Sources 
Sought notice. The purpose of such a notice is to determine the 
capability of all types of small businesses who can perform in 
accordance with the terms of the contract and at a fair and reasonable 
price. Had FEMA received a sufficient number of capability statements 
from small businesses, it may have set aside the acquisition for 
competition among 8(a) Small Businesses only.

    Ms. Jackson Lee. What is his name?
    Mr. Fugate. Al Sligh. He is the head of our management, 
associate director for management, and he oversees the 
acquisition, and he serves as the key procurement officer. I 
would ask Al to provide that information, and so we can brief 
back on that, Mr. Chairman.
    Chairman Thompson. Thank you. Now, did you tell me he is 
not a Government employee?
    Mr. Fugate. No, sir. He is a Government employee. He is an 
associate administrator of FEMA.
    Chairman Thompson. Okay. That is all right. Something I--
well, I will yield to the gentlelady.
    Ms. Jackson Lee. If I could just--Mr. Chairman, I want you 
to continue your line of questioning, and I don't want to drop 
that point.
    Mr. Sullivan, could you just do a sentence, whether you 
settled, you have the lawsuit or you don't have the lawsuit, 
because I will let the Chairman continued his line of 
questioning, because I am--he is going where I am going. But 
what is your status? Is there an on-going lawsuit dealing----
    Mr. Sullivan. Let me--you know, we have a racial 
discrimination lawsuit that goes back to 1990----
    Ms. Jackson Lee. Correct.
    Mr. Sullivan [continuing]. Brought forward by eight former 
and current----
    Ms. Jackson Lee. Is your mic on? I am sorry.
    Mr. Sullivan. Yes, ma'am.
    Ms. Jackson Lee. Okay.
    Mr. Sullivan [continuing]. Brought forward----
    Ms. Jackson Lee. 1990s?
    Mr. Sullivan. It goes back to 1998, I believe----
    Ms. Jackson Lee. Right.
    Mr. Sullivan [continuing]. Brought forward by eight current 
and former African-American surveillance agents.
    Ms. Jackson Lee. Right.
    Mr. Sullivan. Currently right now, it is pending several 
motions that are in front of the judge, and we are awaiting his 
decision on those pending motions.
    Ms. Jackson Lee. Well, let me say that the last--the first 
rule of thumb for counsel--and I am a trained lawyer; I am not 
practicing law at this point as a Member of Congress; a 
licensed lawyer--is that we are not attempting to interfere 
with on-going litigation.
    But let me make a policy point that this is 1998. This is 
now 11 years, and I believe the Federal Government, in its good 
intentions, should look closely and keenly at how we can move 
forward on this issue. I frankly believe it is long overdue to 
be resolved, and I don't know whether we are nickel-and-diming 
petitioners who have some legitimate issues, because you can 
kill petitioners by longevity and delay.
    That is typically what the defendants will do, and I think 
this is not an issue that our Government, our new leadership, 
needs to be engaged in. So this is my opinion on the record, 
because I have been engaged with this lawsuit since 1998, and 
to hear that it is still going on is a--this is the very thing 
that will certainly block anybody from trying to come to any 
agency, if the Federal Government cannot resolve its own 
business when employees believe they have been discriminated 
against.
    Mr. Chairman, I just want to conclude and note that I 
will--Mr. Sullivan has a comment--but that $3.2 billion I have 
jumped over, that $3.2 billion and this issue with the Secret 
Service I think argue for this hearing that you have had.
    We would not tell a procurement officer how to make 
decisions, but I can assure you if Katrina survivors, 
credential Katrina survivors and everybody that left Katrina 
were not all one different category, happen to have been 
brought into procurement, or Hurricane Ike, or others who have 
had that experience, somebody from the University of 
Mississippi or University of Florida, Texas--and I know my good 
friend, Mr. Fugate, I think, hails from Florida.
    But these people who have been impacted, were in that 
office, a $3.2 billion contract to possibly get the same kind 
of housing that poisoned the folk in the last time, maybe they 
would have been appalled, and somebody might have reconsidered 
by their own intellect and their ability.
    So this diversity question is far-reaching. It is beyond 
even the idea that I want a job. It permeates the whole way we 
do business and how we secure this Nation. As Mr. Dent was 
talking about terrorism, people who speak Arabic, people who 
come from different communities that may come from nations that 
have challenges, all of that makes for a secure America.
    I am frustrated by this, and I thank you so very much. I 
thank the witnesses for their honesty and integrity and the 
fact that they are going to be visiting with me.
    Mr. Chairman, I yield back to you. Thank you very much.
    Chairman Thompson. Thank you very much.
    Mr. Fugate, you are aware we held some hearings on 
alternatives to the kind of housing that was let under this 
procurement. One of the real concerns we have is that there are 
some better--and when I mean better, I am talking about 
pricewise, healthwise--from an alternative standpoint that I am 
not certain we have fully explored as an agency.
    So when a procurement this size rolls out, it causes real 
concern on our part, and I say that, and what I ask of you is 
that if you will review the winners of the procurement to see 
whether or not some of them have in the past violated some of 
those concerns that FEMA, CDC and some other people have 
expressed, and share what your review gives back to, more 
specifically, whether or not some of them have been 
disqualified from the manufacturer of those type housing.
    I think you know where I am going, but just I am asking you 
to do it and respond back to the committee.
    [The information follows:]

    The excluded parties list was reviewed prior to awarding the 
contract and none of the companies were identified as being barred from 
doing business with the Government.

    Chairman Thompson. The other issue is the committee staff, 
to be quite honest with you, has been concerned, because we 
have pursued information from your shop relative to workforce, 
administration contracts, security contract, ground leases 
contracts, and that information has not been forthcoming.
    So if you would have your staff put together why this 
information can't be forthcoming--and the reason, I tell you, 
there is a procurement on the street right now for those 
services, and we can't figure out how much is being paid for 
those services, because the procurements are bundled so that 
you can't--a layperson can't access that data.
    Our staff has been trying for a week to access the data 
from FEMA, and we still can't get it. Business people all over 
the country are calling our office saying is this another one 
of those Katrina-type contracts being promoted, because the 
transparency that the President and the Secretary talks about 
is not there. So if you would help us with that, we would 
appreciate it.
    Ms. Jackson Lee. Mr. Chairman, would you yield, that I 
could just add addendum? Could he consider debundling those 
contracts, which is a decision that is internal? Could he also 
just add to your request the request that I made about knowing 
who is into procurement office and how those decisions were 
made and whether or not the $3.2 billion has any NWBE to it?
    [The information follows:]

    There were no bundled contracts. Five separate contracts were 
awarded under this acquisition. All of the awards were to small 
businesses.

    Chairman Thompson. Well, the only issue is--and I think, 
Mr. Fugate, you perhaps are aware--those contracts are awarded 
to people thousands of miles away from the site, and there are 
people who live in the impacted area, who would love to 
compete. But they can't, because they can't get the accurate 
bid information.
    All we want is for that process to be transparent, and if 
you will assure us that the process will be transparent. If 
not, then I would say reconsider that procurement until it is, 
so that all parties interested will have their opportunity to 
participate.
    Let me thank all the witnesses. There are some questions 
that we will follow up based on this. Thank you for your 
truthfulness and direction. We ask that in getting those 
questions to you, you respond expeditiously and in writing to 
those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairman Bennie G. Thompson of Mississippi for Jane Holl 
        Lute, Deputy Secretary, Department of Homeland Security

    Question 1. GAO found that in 2007 and 2008, the Department delayed 
nearly all original target completion dates for planned activities 
aimed at eliminating barriers to equal opportunity, for anywhere from 
12 to 21 months, and the Department had not completed any of these 
planned activities.
    What is the reason for these continued delays?
    Answer. Department of Homeland Security (DHS) officials explained 
to GAO that DHS extended some of its fiscal year 2007 target completion 
dates as a result of identifying and implementing approximately 154 new 
and related planned activities in fiscal year 2008. The 154 new and 
related planned Management Directive 715 (MD-715) activities were 
geared to a new diversity and inclusion strategy that emphasized a 
stronger partnership with the Office of the Chief Human Capital 
Officer, implementation of model Equal Employment Opportunities (EEO) 
essential elements (in particular, Demonstrated Commitment from Agency 
Leadership, Integration of EEO into the Agency's Strategic Plan, and 
Management and Program Accountability), and the targeting of activities 
to the under-representation of EEO groups. For example, establishing a 
reconstituted Diversity Sub-Council at DHS was a new activity necessary 
to embrace best practices in EEO leadership.
    DHS staff noted DHS has in fact completed 34 activities originally 
set forth in its fiscal year 2007 and/or fiscal year 2008 reports. 
Although three staff members have been selected for the Diversity 
Management Unit, only one has reported due to security process delays. 
Additionally, the DMU has requested an additional staff member 
(Management Analyst) to assist in data collection, program analysis, 
and reporting.

    Question 2a. GAO attributed some of these delays to the 
Department's failure to establish implementation goals with timelines.
    How is the Department addressing these concerns?
    Answer. The Office for Civil Rights and Civil Liberties (CRCL) and 
the Office of the Chief Human Capital Officer (OCHCO) will identify 
essential activities and establish interim milestones necessary for the 
completion of all planned activities to address identified barriers to 
Equal Employment Opportunity (EEO). Also, to the extent possible the 
Department of Homeland Security (DHS) will incorporate component's 
action plans to address their specific barriers to EEO. On September 2, 
2009, CRCL revised its action plan to include specific steps to 
accomplish the essential activities, as well as interim milestones. In 
addition, on or about August 28, 2009, CRCL issued a Call Letter for 
the fiscal year 2009 MD-715 Report to DHS Components highlighting the 
importance of implementation goals and interim milestones, and on 
October 1, 2009, CRCL provided training to the DHS Components on MD-715 
requirements and reporting and again reiterated stronger project 
management principles and implementing planned timelines. Lastly, the 
DHS fiscal year 2009 MD-715 Report due to EEOC on January 30, 2010 will 
incorporate Components ``updated'' action plans to address their 
specific barriers to EEO.

    Question 2b. Who is responsible for addressing this issue?
    Answer. The Officer for CRCL sub delegated diversity management 
authority--delegated by the Secretary of DHS--to the CRCL Deputy 
Officer for EEO Programs. The Under Secretary for Management (USM) 
assigned diversity responsibilities, through the Chief Human Capital 
Officer (OCHCO), to the OCHCO's Executive Director, Diversity, 
Recruitment, and Veterans Outreach.

    Question 2c. How is this person or office empowered to ensure that 
the Department fully addresses GAO's concerns?
    Answer. Through DHS Delegation Number 3095 (Delegation to the 
Officer for Civil Rights and Civil Liberties for Matters Involving 
Civil Rights, Civil Liberties, and Equal Employment Opportunity) and 
Delegation Number 19,000 (Delegation to The Deputy Officer for Equal 
Employment Opportunity Programs), the Officer for CRCL--through the 
Deputy Officer for EEO and Diversity Programs--is responsible for: 
Processing complaints of discrimination; establishing and maintaining 
EEO programs; fulfilling reporting requirements as required by law, 
regulation or Executive Order; and evaluating the effectiveness of EEO 
programs throughout DHS. At DHS, CRCL has responsibility for 
preparation and submission of DHS's annual MD-715 report. Pursuant to 
the U.S. Equal Employment Opportunity Commission's (EEOC's) Equal 
Employment Opportunity (EEO) Management Directive 715 (MD-715), Federal 
agencies are required to report on the status of their EEO Programs. 
The Deputy Officer for EEO and Diversity Programs also directs DHS's 
diversity initiative.
    CRCL has also emphasized the importance of implementation goals in 
the following documentation: (1) Fiscal Year 2009 MD-715 Training 
slides with emphasis placed on interim milestones and employee input 
and (2) Fiscal Year 2009 Diversity Management Unit Strategic Plan with 
emphasis placed on interim milestones and employee input (still in 
draft). The Fiscal Year 2009 Diversity Management Unit Strategic Plan 
will be finalized Jan. 30, 2010.

    Question 3a. GAO recommends that DHS develop a strategy to 
regularly include employee input in identifying potential barriers to 
equal employment opportunities.
    Besides the issuance of a management directive to improve relations 
with employee associations on issues of equal employment opportunity, 
what is DHS doing to make the changes GAO recommends?
    Answer. The Management Directive sets out the guidelines and 
conditions for Department of Homeland Security (DHS) support for the 
establishment of employee associations. The new Office of Diversity, 
Recruitment, and Veterans Outreach (DRVO) in the Office of the Chief 
Human Capital Officer (OCHCO) will provide technical assistance to 
employees interested in creating an employee organization. As employee 
associations are established, DRVO will coordinate the formation of an 
Employee Association Diversity Round Table for input on diversity-
related issues.
    Additionally, the OCHCO plans to obtain input on potential barriers 
by incorporating related questions into the DHS employee surveys, 
implement a DHS exit survey and follow up process, and conduct focus 
group interviews of veterans employed in DHS. DRVO will be responsible 
for this initiative.
    The Office for Civil Rights and Civil Liberties (CRCL) is working 
on a Department-wide strategy to regularly include employee input from 
the Federal Human Capital Survey (FHCS) and DHS Employee Satisfaction 
Survey as part of DHS's regular barrier analyses. CRCL notes, however, 
DHS component EEO and human capital programs already use employee 
survey data to develop annual action plans to address identified 
management issues. DHS's components track and report the results of 
their action plans on a quarterly basis. CRCL also notes DHS has relied 
upon, and will continue to examine the DHS Today on-line departmental 
newsletter, periodicals, and news media as a means to identify 
potential triggers. Notably, EEO and human capital representatives at 
the component level have worked with OCHCO staff to address component-
specific EEO and Diversity challenges during the past 4 years, and 
successfully achieved improvements as reflected in DHS's fiscal year 
2008 FHCS scores.
    CRCL has also strengthened its fiscal year 2009 MD-715 reporting 
requirements (via a recent call letter) through the following action: 
Requiring the examination of other information sources for possible 
triggers, such as employee input from advocacy groups, exit interviews, 
and employee surveys (both Government-wide employee surveys and 
internal employee surveys) and reports from outside agencies or 
complaints that show specific patterns or trends.

    Question 3b. Will DHS establish a mechanism for obtaining and using 
exit interviews agency-wide to identify potential barriers to equal 
employment opportunity?
    Answer. Yes, the OCHCO's Office of Policy and Programs has 
identified this as a fiscal year 2010 action. Their efforts will be 
coordinated with the new Office of Diversity, Recruitment, and Veterans 
Outreach (DRVO).

    Question 3c. Who will be responsible for making sure DHS collects 
and reviews employee input as part of its barrier analysis?
    Answer. The Officer for CRCL through the Deputy Officer for EEO and 
Diversity Programs will be responsible in coordination with the 
Executive Director of DRVO.

    Question 3d. What authority does this person or office have to make 
sure that the Department fully addresses GAO's concerns?
    Answer. The Deputy Officer for EEO and Diversity Programs directs 
the preparation and submission of DHS's annual MD-715 report and also 
directs DHS's diversity initiative. Also, the Executive Director of 
DRVO and the CRCL Deputy Officer for EEO and Diversity Programs both 
serve as members of the new Diversity Executive Steering Committee, 
chaired by the Deputy Secretary. These offices will receive direction 
from the DESC, and will ensure that GAO's concerns are addressed.

    Question 4. Does DHS headquarters have a role in developing 
component agency diversity plans, and if so, what role does it play in 
this process?
    Answer. The new Diversity Executive Steering Committee, chaired by 
the Deputy Secretary, will exercise this role by providing direction 
and requirements for component agency plans based upon the corporate 
plan.

    Question 5a. The Department stated that the Chief Human Capital 
Officer would set up the e-recruitment system by the end of this year.
    What is the status of this effort?
    Answer. TALENTLink is the Department's enterprise automated 
recruiting, hiring, and on-boarding solution. Users of the TALENTLink 
system conform to the new expectations for hiring process mapping, 
streamlined job announcements, applicant notification, and data 
collection. Currently, DHS Headquarters, the Federal Emergency 
Management Agency (FEMA), and the Office of the Inspector General (OIG) 
are deployed and utilizing TALENTLink.
    The Federal Law Enforcement Training Center (FLETC), U.S. 
Immigration and Customs Enforcement (ICE), National Protection and 
Programs Directorate (NPPD), and U.S. Coast Guard (USCG) are scheduled 
for deployment in fiscal year 2010.

    Question 5b. How will DHS make sure that this deadline is not 
delayed any further?
    Answer. The Office of the Chief Human Capital Officer (OCHCO) will 
work collaboratively with the remaining components to ensure timelines 
are honored and assist with addressing any systemic barriers i.e., 
incompatible systems, etc. OCHCO anticipates establishing a full 
deployment schedule by mid-fiscal year 2010.

    Question 6a. The Department stated that it planned to collaborate 
with the Chief Human Capital Officer on developing guidelines to 
address the lack of diversity on interview panels by the end of this 
year.
    What is the status of these efforts?
    Answer. Secretary Napolitano has stressed her position regarding 
the importance of recruiting and retaining a diverse workforce at the 
Department of Homeland Security (DHS), including among the Executive 
ranks. The Office for Civil Rights and Civil Liberties (CRCL) and the 
Office of the Chief Human Capital Office's (OCHCO) new Office of 
Diversity, Recruitment, and Veterans Outreach (DRVO) will collaborate 
on proposed guidelines for the conduct and composition of interview 
panels in coordination with OCHCO's Office of Policy and Programs. We 
expect to have a draft by the end of 2009.

    Question 6b. How will DHS make sure that this deadline is not 
delayed any further?
    Answer. These draft guidelines will be one of the first items 
presented to the newly forming Diversity Executive Steering Committee, 
chaired by the Deputy Secretary for approval and implementation.

    Question 7a. How will DHS use the Race and National Origin data 
collected through the e-recruitment system to address identified 
barriers to equal employment opportunity in its workforce?
    Answer. As TALENTLink is deployed, the information will be used to 
address workforce participation rates for all groups by grade, 
occupations, and locations. This information is also critical in the 
analysis to determine if policies and procedures are adversely 
impacting any group more than others.

    Question 7b. Will DHS use this tool to assess the success of 
specific recruitment or outreach efforts?
    Answer. Yes, the system will be used as one tool of a larger effort 
to assess the return on investment of recruitment and outreach efforts.

    Question 7c. For example, if DHS goes to a job fair to recruit 
minority applicants, will DHS then be able to use e-recruitment to 
track whether candidates from that job fair later applied for positions 
or got hired at DHS? If not, what is DHS doing to track this data?
    Answer. Yes, the system can be programmed to inquire about specific 
job fairs and recruitment activities. The system will be modified as 
necessary to respond to the changing trends in recruitment. It is our 
goal to utilize the system to track and monitor applicant flow.

    Question 8a. What security and access restrictions has the 
Department established to prevent the misuse of Race and National 
Origin data obtained through e-recruitment?
    Answer. Access to the system is limited to those with a business 
necessity only. Prior to assignment of role and system access, 
personnel assigned as system administrator, hiring manager, and 
staffing specialist are adjudicated for a position of public trust and 
are fully trained on DHS security and privacy policies for protecting 
personally identifiable information (PII) and sensitive PII. In 
addition, personnel assigned these roles are also required to review 
and sign rules of behavior concerning acceptable use of the TALENTLink 
system prior to being granted system access.

    Question 8b. How will the Department monitor these restrictions to 
ensure that the Race and National Origin data is not mishandled?
    Answer. A system administrator can view the Ethnic and Race 
Indicator (ERI) data only for the purpose of troubleshooting system 
problems. The hiring manager and staffing specialist are restricted 
from viewing ERI information during the hiring or staffing process to 
preclude the potential for discriminatory hiring practices.
    Additionally, when creating summary analysis data of applicant 
populations to determine trends, ERI data will be summarized instead of 
being reported at the individual candidate level.

    Question 9a. Your Human Strategic Capital Plan for years 2009-2013 
lists the governing bodies of human capital oversight, but the 
Diversity Council is not mentioned.
    What authorities do governing bodies of human capital oversight 
have that the Diversity Council does not have?
    Answer. The Department recognizes that the Diversity Council must 
function at a higher level and, thus, disbanded the Diversity Council 
and replaced it with Diversity Executive Steering Committee (DESC), 
which is led by the DHS Deputy Secretary. The DESC will determine the 
direction, priority, and resourcing of the Department's diversity 
efforts. The DESC will be able to direct and mandate specific actions 
and requirements. Therefore, governing bodies such as the Human Capital 
Leadership Council (HCLC) will be positioned to issue/modify/rescind 
human capital policies, programs, and requirements; particularly those 
identified as barriers to diversity.

    Question 9b. Without this governing role, what authority does the 
Council have in the context of human capital oversight?
    If the Diversity Council is not fully integrated into the human 
capital oversight governance structure, how does the Department 
prioritize diversity in the context of human capital oversight?
    Answer. The DESC will be positioned at a higher organizational 
level than the former Diversity Council and chaired by the Deputy 
Secretary.

    Question 10a. In your testimony, you mention that DHS invited over 
50 organizations to participate in a DHS Diversity Forum last month. 
You also provided the committee with a list of groups who attended the 
event.
    What did you do to include DHS employee groups or to consider 
employee input as part of the Diversity Forum?
    Answer. The Forum was designed to solicit input from external 
diversity-based organizations to share issues and solutions from 
outside DHS and outside Government. However, component representatives 
were in attendance. In addition, in the future, under the newly issued 
Management Directive for Employee Associations, the Department of 
Homeland Security (DHS) will have the ability to solicit employee 
associations, as they are established.

    Question 10b. How will DHS ensure that employee input is considered 
on the same scale and to the same degree as outside groups' input on 
diversity matters in the future?
    Answer. Both DHS headquarters and its components will meet with 
groups, participate in their annual training conferences, and establish 
regular lines of communication.

    Question 11. Along with the DHS Diversity Forum, DHS opened a 
public docket to ``receive public comments regarding DHS workplace 
diversity and ways to enhance diversity in DHS senior leadership 
positions.''
    In light of GAO's findings and the Department's obligation to seek 
employee input, how will DHS seek input from employees on ways to 
enhance workplace diversity and diversity at senior levels?
    Answer. We will seek input through the aforementioned employee 
association roundtable as well as annual employee surveys, exit 
surveys, and Department-wide suggestion program--Idea Factory. We are 
also exploring the feasibility and potential benefit of conducting an 
organizational cultural audit.

    Question 12. Has DHS made any significant changes to its approach 
to diversity since our last hearing in May 2008?
    Answer. Yes, we have established a new Office of Diversity, 
Recruitment, and Veterans Outreach in the Office of the Chief Human 
Capital Officer (OCHCO) headed by an executive reporting to the CHCO. 
We are also replacing the Diversity Council role by creating a new 
Diversity Executive Steering Committee (DESC), chaired by the Deputy 
Secretary, and composed of each component head, deputy, or high-ranking 
official approved by the Deputy Secretary. This DESC will provide 
Department-wide direction, priority, and resourcing to diversity 
efforts and outcomes. The Office for Civil Right and Civil Liberties 
(CRCL) also established a new Diversity Management Unit (DMU) within 
the EEO & Diversity Programs. The DMU when fully staffed will have 
seven Full-Time Equivalents, including five Senior EEO Manager who are 
regarded as Subject Matter Experts.

 Questions From Ranking Member Peter T. King of New York for Jane Holl 
        Lute, Deputy Secretary, Department of Homeland Security

    Question 1a. Deputy Secretary Lute, at our last hearing on the 
subject of diversity, some of the Members were surprised to learn that 
the primary employment channel the Department uses to identify 
candidates is the USAJOBS website. The Department's witness also 
testified that it was ``expanding networks with local associations and 
universities to inform them of DHS employment opportunities beyond the 
USAJOBS website.''
    Has the Department's engagement of local associations and 
universities been successful in attracting a more diverse workforce to 
DHS?
    Answer. The newly created Office of Diversity, Recruitment, and 
Veterans Outreach (DRVO) will be engaging with more local associations 
and universities to establish long-term working relationships in an 
effort to create partnerships that can be relied upon for years to 
come. We have attracted a more diverse applicant pool through our long-
standing partnership with the Urban Leagues' Black Executive Exchange 
Program (BEEP), outreach to minority-serving institutions for our 
Acquisition Intern program, and our partnership with the Hispanic 
Scholarship Institute. In addition, DHS components have developed 
relationships with Historical Black colleges and universities, Tribal 
colleges, and several professional associations to promote 
opportunities with the Department of Homeland Security.
    DHS also has a Minority Serving Institution (MSI) Outreach Planning 
[MOP] Taskforce. The MOP Taskforce is a collaboration of Science and 
Technology Directorate's University Programs, CRCL/EEO, and the DHS 
Corporate Recruiting Council's local or regional representatives to 
help accomplish Department-wide objectives related to diversity 
outreach and recruitment.

    Question 1b. Do you believe that initiatives such as this will 
enable the Department to sufficiently fill its workforce with a strong 
cadre of diverse employees? What other audiences is DHS targeting?
    Answer. These initiatives are part of broader recruitment strategy. 
Our definition of diversity extends beyond race and gender and we are 
implementing targeted strategies for persons with disabilities, 
veterans, disabled veterans, experienced hired, specialized skills, 
spouses of military veterans, and entry level workers.

    Question 2a. Deputy Secretary Lute, Under Secretary for Management 
Elaine Duke testified before this committee that DHS will implement a 
strategy which will include ``initiatives to identify, train, and 
promote high performing employees and is coupled with external efforts 
to attract, recruit, and hire diverse applicants and potential 
leaders.''
    Has this strategy been implemented? If so, when?
    Answer. The recently established Office of Diversity, Recruitment, 
and Veterans Outreach will integrate all human capital programs and 
initiatives, including training, into the Department of Homeland 
Security's (DHS) human resources policy making and program development, 
from training to recruitment to performance management to retention.

    Question 2b. Could you please elaborate on this strategy and 
describe some of the successes that the Department has had since its 
adoption?
    Answer. Currently, the Office of the Chief Human Capital Officer's 
(OCHCO) Employee Performance Management Council is re-validating the 
Leadership competency contained in manager and supervisory work plans 
through managerial workshops to amplify the diversity advocacy aspects 
contained in the competency's performance standards. These workshops 
are scheduled for December, with components providing managers and 
supervisors in representative occupations for participation, based upon 
an Office of Personnel Management (OPM) approved methodology. Further, 
the Department of Homeland Security's executive performance plans have 
included a ``diversity'' element for three rating cycles. While these 
are some of the things the Department is working on, we have also 
implemented a conversion program for Transportation Security Officers 
(TSO's) at the Transportation Security Administration (TSA). This 
program provides career-ladder opportunities to TSO's for positions 
beyond TSA within DHS.

    Question 2c. What challenges does the Department face in its 
efforts to recruit a diverse cadre of employees to the Senior Executive 
Service level workforce, and what is the Department doing to overcome 
these challenges?
    Answer. The newly established Office of Diversity, Recruitment, and 
Veterans Outreach will be responsible for identifying such barriers and 
will work with the policy functions within the Office of the Chief 
Human Capital Officer to remove barriers identified. We have shared our 
Senior Executive Service (SES) vacancy announcements with groups such 
as the African American Executive Association, National Association of 
Hispanic Federal Executives, and the Asian American Government 
Executives Network. We have recently expanded this practice to those 
organizations which participated in our Diversity Forum last September. 
We have also established a specific incoming e-mail box for SES 
applications coming from these sources. While we have yet to realize a 
more diverse workforce, we believe we are beginning to experience a 
more diverse recruitment pool.
    The Deputy Officer for EEO & Diversity Programs, CRCL, has also 
been asked to participate in the DHS Employee Resources Committee 
(ERC), responsible for reviewing and approving all DHS SES selections, 
and the Employee Resources Council (ERC), responsible for reviewing and 
approving all DHS SES appraisals and awards.

    Question 3. Deputy Secretary Lute, in your testimony you make note 
of the Department's effort to reach out to veterans. Back in July, the 
Department hosted its first Veterans Job Fair in Washington, DC, which 
you attended, and you mentioned that more than 745 veterans attended 
this event.
    Since this July event, what steps has the Department taken to 
follow up with those veterans who expressed interest at developing a 
role within DHS? What additional steps is DHS taking to reach out to 
veterans?
    Answer. The Department has created a Veterans Outreach and 
Awareness Cadre, composed of approximately 180 veterans employed by the 
Department of Homeland Security (DHS). These DHS veterans will provide 
mentoring-like services to potential veteran applicants to include; 
advice on the application process, information on veterans' preference, 
assistance in identifying positions that best match the veterans' skill 
set, and any other inquiries a potential veteran may have with respect 
to employment with DHS. We have increased our staff resources dedicated 
to veterans outreach at the Department level and will soon do so within 
our components. Office of the Chief Human Capital Officer (OCHCO) is 
also creating a veteran applicant file for referrals to components.

    Question 4. The postponement of this hearing from its original date 
back in September has provided us the opportunity to ask questions on 
the first-ever DHS Diversity Forum. The Diversity Forum was an open 
discussion about how to enhance diversity among the Department's SES 
and senior leadership ranks.
    Deputy Secretary Lute, could you please tells us about the DHS 
Diversity Forum? In particular I would like to know what issues were 
raised, what shortcomings were identified, and what solutions were 
recommended by the 50 or so diversity-serving organizations who 
participated in the Forum.
    Answer. Twelve organizations actively participated in the Forum. 
Their recommendations included:
  <bullet> a diversity outreach communications plan,
  <bullet> new Senior Executive Service (SES) selection procedures, 
        including the elimination of managerial endorsement to pursue 
        the Candidate Development Program (CDP), conduct SES 
        preparation workshops, and use of more advertising,
  <bullet> develop/modify human resource (HR) policies and programs 
        which may be barriers; e.g. impact of law enforcement job 
        requirements on women with family obligations,
  <bullet> continue to develop ``diversity'' as an element in managers/
        supervisors performance plans,
  <bullet> deploy formal structured mentoring programs,
  <bullet> establish more partnerships with organizations such as 
        theirs,
  <bullet> begin more aggressive recruitment at minority serving 
        institutions, and
  <bullet> continue diversity forums on a regular basis. (All 
        participants applauded the Department for holding this first 
        Forum)
    We plan to hold forums in the future.

    Question 5a. Pandemic influenza is both a health and homeland 
security issue, and one on which your agency is expending a substantial 
amount of resources.
    What challenges have you faced with the vaccination campaign, and 
how is HHS working to mitigate those challenges?
    From what angles beyond vaccination are you working to approach the 
yearly flu problem, for example, through exercises, community 
preparedness, or development of rapid diagnostic tools?
    Answer. The Department of Homeland Security (DHS) has been actively 
engaged with its Federal, State, local, territorial, Tribal, and 
private sector partners to prepare our Nation and the international 
community for an influenza pandemic. As directed in the 2006 National 
Implementation Plan for Pandemic Influenza, and as authorized in HSPD-
5, DHS is responsible for the coordination of the overall Federal 
response during an influenza pandemic, including implementation of 
policies that facilitate compliance with recommended social distancing 
measures, development of a common operating picture for all Federal 
departments and agencies, and ensuring the integrity of the Nation's 
infrastructure, domestic security, and entry and exit screening for 
influenza at the borders.
    Following the outbreak of 2009 H1N1 influenza pandemic, DHS has 
worked with a number of partners to coordinate and support guidance for 
the business community, continuity of Government planning and 
exercising, in case the virus changes in such a way as to affect 
continuity of government operations.
    Beyond vaccination, DHS has also been working with other Federal 
departments and agencies; State, local, Tribal and private sector 
partners; and the White House National Security Staff (NSS) to meet the 
preparedness and response challenges that the 2009 H1N1 virus presents 
to the Nation.
    Due to the support of Congress in 2006, DHS received funding that 
enabled the Department to build a foundation for pandemic preparedness, 
which includes stockpiles of personal protective equipment and anti-
viral drugs for DHS employees.
    DHS has conducted and participated in more than a dozen pandemic 
influenza related exercises since 2007 with HHS and other Federal 
departments along with State, local, Tribal, and private sector 
stakeholders. The key objectives of the exercises included defining and 
understanding Federal leadership roles and responsibilities and public 
communication strategies necessary during a pandemic.
    Over the last 2 years, the Federal Emergency Management Agency 
(FEMA) has also conducted a series of continuity of Government 
exercises during a pandemic event across the Nation. Titled 
``Determined Accord'' these full-day sessions are targeted to Federal, 
State, and local government continuity and planning personnel to 
highlight specific elements of pandemic planning that should be 
considered in the development and refinement of all levels of 
Government pandemic continuity plans for severe influenza pandemics.
    Since the National Framework for 2009-H1N1 Influenza Preparedness 
and Response was issued by the NSS this past summer, DHS has followed 
its guidance. This framework provides specified tasks and suspense 
dates assigned to Departments for action. The Framework also 
categorizes the tasks into four pillars, surveillance, mitigation 
measures, vaccine, and communication/education. DHS utilized the 
Framework's pillars and leveraged previous pandemic influenza planning 
products to develop the DHS 2009-H1N1 Implementation Plan. The DHS 
2009-H1N1 Influenza Implementation Plan identifies specific component 
roles and responsibilities, and it also directs all DHS components to 
develop plans that address key preparation and response actions, 
performance of mission essential functions, workforce protection, 
continuity of operations, and communications with key stakeholders 
during the 2009 H1N1 influenza pandemic.
    Through guidance and communication, DHS is continuously working 
internally to protect its workforce and externally to support the 
Federal Government issuing of 2009 H1N1-related preparedness and 
response guidance to schools, critical infrastructure and key 
resources, and the private sector.
    Furthermore, the following excerpt from a memorandum dated November 
9, 2009 from Alexander Garza, MD, MPH, Assistant Secretary and Chief 
Medical Officer, to Deputy Secretary Jane Holl Lute provides more 
detail on how DHS is addressing DHS preparedness regarding the 2009 
H1N1 pandemic:

``On September 10, 2009, more than 70 senior leaders representing every 
DHS Component and office participated in an Assistant Secretary-level 
exercise that allowed a candid, solution-focused discussion about DHS 
preparedness, response and continuity policies for a potentially 
escalating H1N1 pandemic. The final After Action Report for the 
September exercise is now available on the Lesson Learned Information 
Sharing (LLIS) website. This exercise was the third in a series of 
pandemic influenza/H1N1 exercises coordinated by the Office of Health 
Affairs (OHA). OHA coordinated a DHS Intradepartmental Pandemic 
Influenza Tabletop Exercise in September 2008, and a DHS Workforce 
Protection for Pandemic Influenza Workshop in April 2009. The After 
Action Report was finalized in late October with the assistance of our 
multi-Component planning team members and OHA.''

    For even more information concerning H1N1-related preparedness, 
please see the accompanying attachment to a QFR addressed to DHS Deputy 
Secretary Jane Holl Lute at a House Homeland Security Committee Hearing 
held on July 29, 2009.
    In September 2009, DHS, HHS's Centers for Disease Control and 
Prevention, and the Small Business Administration developed a 
preparedness guide for small businesses entitled ``Planning for 2009 
H1N1 Influenza: A Preparedness Guide for Small Business''. This booklet 
is designed to help small businesses understand what impact a new 
influenza virus, like 2009 H1N1 flu, could have on their operations, 
and how important it is to have a written plan for guiding their 
businesses through a possible pandemic. The guide is intended to help 
small businesses plan and help spread the message of preparedness. 
Also, the guide encourages employers to educate their employees on how 
to prepare their families, such as having a plan to care for sick 
family members and storing a 2-week supply of food and medical 
supplies.
    DHS and the other agencies worked collaboratively to create the 
Critical Infrastructure Influenza Pandemic Preparedness, Response, and 
Recovery Guide. This guide is available to the general public at 
www.flu.gov and www.ready.gov.
    The Healthcare and Public Health Sector has utilized the HSIN 
website to post the latest guidance from the CDC, Alerts, and 
Advisories. Information is also posted from ASTHO (Association of State 
and Territorial Health Officials, as well as State departments of 
health and the private sector. Mapping information is also posted that 
tracks H1N1.
    In coordination with interagency partners and the individual 
Government Coordinating Councils (GCC) and Sector Coordinating Councils 
(SCC), DHS has conducted a series of webinars with 18 of the Critical 
Infrastructure and Key Resource (CI/KR) sectors to highlight overall 
pandemic preparedness issues. The largest number of participants to 
register for the webinars was the Emergency Services Sector where over 
800 people registered.
    DHS will continue to work with all Federal partners as well as 
State, local, Tribal, and the private sector to evaluate and refine 
pandemic planning and preparedness efforts as the 2009 H1N1 flu events 
unfold and the science of and impact of the current pandemic evolves.

    Question 5b. What exercises have been conducted by DHS regarding 
pandemic influenza (including intradepartmental pandemic influenza 
tabletops and workshops)? Please provide specific dates, information 
regarding attendees, scenarios upon which these exercises were based, 
how/whether the Homeland Security Exercise and Evaluation Program 
(HSEEP) was used, how the National Exercise Program provided support, 
after-action reports, and how information from these exercises 
(including after-action reports) were put into LLIS.
    Answer.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                            HSEEP
       DHS PI Exercises              Type              Dates           Attendees         Scenario         Compliance      NEP Support?   LLIS Reporting?
--------------------------------------------------------------------------------------------------------------------------------------------------------
Intra-DHS....................  Table Top (TTX).  Oct 28, 2008....  DHS Component     Overseas          Yes; standard    NEP staff/       Used as central
                                                                    representatives.  outbreak          planning         liaison          information
                                                                                      spreads to U.S.   conferences      provided for     repository
                                                                                     Focus on DHS       and              technical        during
                                                                                      incident          documentation.   contributions    planning and
                                                                                      management.                        to exercise      hosts the
                                                                                                                         development.     after-action
                                                                                                                                          report.
Intra-DHS....................  TTX.............  Apr 3, 2009.....  DHS Component     Overseas          Yes; standard    NEP staff/       Used as central
                                                                    representatives.  outbreak          planning         liaison          information
                                                                                      spreads to        conferences      provided for     repository
                                                                                      United States;    and              technical        during
                                                                                      Workforce         documentation.   contributions    planning and
                                                                                      protection                         to exercise      hosts the
                                                                                      focused.                           development.     after-action
                                                                                                                                          report.
Intra-DHS....................  TTX.............  Sept 10, 2009...  DHS Assistant     Real-world H1N1   Yes; standard    NEP staff/       Used as central
                                                                    Secretaries/      threat; Focus     planning         liaison          information
                                                                    Component         is Continuity     conferences      provided for     repository
                                                                    leadership.       of operations     and              technical        during
                                                                                      and Workforce     documentation.   contributions    planning and
                                                                                      protection.                        to exercise      hosts the
                                                                                                                         development.     after-action
                                                                                                                                          report.
Principal Level Exercise 1-08  TTX.............  Feb 2008........  Interagency       International     Yes; standard    NEP sponsored..  No; the White
                                                                    Deputy            outbreak.         planning                          House
                                                                    Secretaries.                        conferences                       maintains
                                                                                                        and                               control of the
                                                                                                        documentation.                    Summary of
                                                                                                                                          Conclusions.
Through the Regional Exercise  Workshops,        ................  All levels/       Various.........  Yes; especially  Sponsor of       Various means
 Support Program, DHS/FEMA      Seminars, TTX's                     jurisdictions;                      those            exercise         of information
 has sponsored exercises        Functional,                         including                           utilizing DHS    support-         management
 across the United States at    Full scale.                         senior                              funding.         primarily
 various levels of government.                                      officials.                                           through the
                                                                                                                         Regional
                                                                                                                         Exercise
                                                                                                                         Support
                                                                                                                         Program.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 6. As stated in the President's Executive Order closing 
Guantanamo, the Secretary of Homeland Security is a member of the 
President's Detention Task Force and a key player in reviewing the case 
files of Guantanamo detainees.
    In the event that a detainee is transferred to the United States, 
what type of immigration status will the detainee be given?
    Does the Department have contingency plans in place for the 
transfer of any detainee to the United States? If so, what DHS 
components will take the lead on such actions?
    Answer. While no decision has been made, it is anticipated that any 
detainees brought to the United States would be paroled into the 
country. Under the Department of Homeland Security Appropriations Act, 
2010, Public Law No. 111-83, Department of Homeland Security (DHS) is 
prohibited from using any funds to provide any immigration benefit to 
individuals who were detained as of June 24, 2009, at the Naval Station 
at Guantanamo Bay, Cuba, except for parole into the United States for 
purposes of prosecution or related detention. Therefore the only 
immigration status DHS may legally grant is parole.
    While, as you noted, the Secretary of Homeland Security is a member 
of the task force reviewing the Guantanamo cases, the Department of 
Justice is the lead agency. Any detainees brought into the United 
States would not be detained by DHS, and DHS is actively working with 
other Governmental agencies to ensure any detainee brought into the 
United States would not be a danger to this country.

    Question 7. Many in Congress believe that there should not be an 
expanded guest worker program until our borders are secure.
    What benchmarks or metrics does the Department have in place, 
especially within ICE and CBP, in terms of securing the border and 
implementing a robust interior enforcement program?
    If you were to grade the current status of these efforts compared 
to where they need to be, what grade would you give?
    What is the status of the administration's work in crafting a 
comprehensive immigration reform proposal?
    Answer. The Department's Annual Performance Report for fiscal year 
2008-2010 outlines several measures used to gauge effectiveness in 
achieving results in border control and interior enforcement. The 
report outlines the many Department of Homeland Security (DHS) programs 
and their associated Government Performance and Results Act (GPRA) 
measures supporting border control and interior enforcement. The tables 
display prior year performance results and targets for the future. U.S. 
Customs and Border Protection (CBP) and U.S. Immigration and Customs 
Enforcement (ICE) specific performance measures for border control and 
interior enforcement are indexed below:

   INDEX TO CBP AND ICE SPECIFIC PERFORMANCE MEASURES IN THE FISCAL YEAR 2008-10 DHS ANNUAL PERFORMANCE REPORT
----------------------------------------------------------------------------------------------------------------
                 Goal                         Component                Objective                 Page(s)
----------------------------------------------------------------------------------------------------------------
1: Protect our Nation from Dangerous
 People
                                       CBP....................  1.1: Achieve Effective   23-25
                                                                 Control of Our Borders.
                                       ICE....................  1.2: Protect Our         26-28
                                                                 Interior and Enforce
                                                                 Immigration Laws.
                                       CBP....................  1.3: Strengthening       35-37
                                                                 Screening of Travelers
                                                                 and Workers.
2: Protect our Nation from Dangerous
 Goods
                                       CBP....................  2.1: Prevent and Detect  44-45
                                                                 Radiological/Nuclear
                                                                 Attacks.
                                       CBP....................  2.4 Prevent the          55-57
                                                                 Introduction of
                                                                 Illicit Contraband
                                                                 while Facilitating
                                                                 Trade.
----------------------------------------------------------------------------------------------------------------

    A grade percentage of performance targets achieved is provided for 
the performance of each program and its associated measures as they 
relate to achieving DHS strategic objectives.
    Summaries of CBP and ICE program performance ratings related to 
border control and interior enforcement performance are displayed on 
pages 19, 26, 29, 42, and 53. In addition, trend performance for each 
measure, both targets and actual results, is displayed to evaluate 
current and historical performance.
    Please note that the results for fiscal year 2009 will be available 
in the Annual Performance Report for Fiscal Year 2009-2011 that is 
published the first week in February and available on our public 
website (http://www.dhs.gov/xabout/budget/gc_1214235565991.shtm). The 
main report is attached.* Appendix A of the report is also attached * 
providing more detailed information on the performance measure 
description, data collection, and validation/verification procedures.
---------------------------------------------------------------------------
    * Documents have been retained in committee files.
---------------------------------------------------------------------------
    While performance measurement results have been provided annually 
in the Department's Annual Performance Report and in other documents, 
we recognize that these measures can be improved as DHS continues to 
mature. DHS has for the past 2 years worked collaboratively with the 
Government Accountability Office in reviewing our entire Government 
Performance Results Act (GPRA) measure set, and continue to strive to 
incorporate improvement ideas in future efforts. Another factor 
impacting performance measurement will be the strategic foundation 
being formulated by the Quadrennial Homeland Security Review (QHSR) and 
follow-on activities. The QHSR will establish the strategic foundation 
for homeland security activities over the next 4 years and will drive 
the next DHS Strategic Plan and associated performance measures 
published in our annual performance plan submitted with our annual 
budget.
    With regard to immigration reform, the President recognizes that 
the current system is broken and that comprehensive immigration reform 
is essential to fix it. The President hosted a bipartisan group of 
Members of Congress at the White House on June 25, 2009, to highlight 
the administration's full commitment to this effort. At the meeting, 
the President named Secretary Napolitano to take the lead in working 
with Congress to work through the issues involved in comprehensive 
immigration reform legislation--including the guest worker program. 
Interior Secretary Salazar and Labor Secretary Solis have also been 
actively engaged with the Secretary on behalf of the administration.
    The Secretary has been meeting regularly with Members of Congress 
as well as holding listening sessions with a variety of stakeholder 
groups across the country to obtain a wide range of views and build 
broad-based support for comprehensive immigration reform.
    The President has maintained that only a ``complete solution'' can 
fix the United States immigration system and such a comprehensive 
reform depends on securing our borders, enforcing our laws, and 
reaffirming our heritage as a Nation of immigrants.

Questions From Chairman Bennie G. Thompson of Mississippi for Christine 
      Griffin, Vice-Chair, Equal Employment Opportunity Commission

    Question 1a. GAO found that DHS is not currently using employee 
input to identify barriers to equal employment.
    When did EEOC first publish instructions for Federal agencies on 
how to identify barriers to equal employment in compliance with 
Management Directive 715?
    Answer. Response was not received at the time of publication.

    Question 1b. What did these instructions say about use of employee 
input in addition to workforce data to identify barriers?
    Answer. Response was not received at the time of publication.

    Question 1c. What employee input must agencies use to identify 
barriers?
    Answer. Response was not received at the time of publication.

    Question 1d. In your perspective, should DHS be using exit 
interviews to help to identify barriers to equal employment?
    Answer. Response was not received at the time of publication.

    Question 2a. At DHS, the Acting Officer for Civil Rights and Civil 
Liberties is also the Deputy Officer for Equal Employment Opportunity 
Programs.
    What are the challenges with an agency having the same person act 
as the head of both offices?
    Answer. Response was not received at the time of publication.

    Question 2b. When you have an agency facing low morale, several 
identified barriers to equal opportunity, and deficiencies in the 
agency's efforts to identify and address barriers, how urgent is it 
that the agency establishes political leadership in the Office of Civil 
Rights and Civil Liberties?
    Answer. Response was not received at the time of publication.

    Question 3. What are the areas of opportunity for increasing 
diversity within the DHS workforce?
    Answer. Response was not received at the time of publication.

    Question 4. In GAO's report on equal employment opportunities at 
DHS, GAO provides examples of DHS initiatives on outreach and 
recruitment.
    In your expert opinion, what more could DHS do to promote equal 
employment opportunity?
    Answer. Response was not received at the time of publication.

    Question 5. What are the best practices that EEOC has identified 
for promoting diversity and equal employment opportunities within an 
organization?
    Answer. Response was not received at the time of publication.

    Question 6. In your testimony, you recommend that Federal agencies 
use equal employment opportunity complaint trend information, internal 
and external audits, and studies to identify barriers to equal 
employment.
    How will this information assist the Department in identifying and 
analyzing barriers to equal opportunity?
    Answer. Response was not received at the time of publication.

    Question 7. In your testimony, you mention that the Department 
could improve its analysis to uncover, examine, and remove barriers to 
equal opportunity.
    Please explain how the Department can improve its analysis of these 
barriers.
    Answer. Response was not received at the time of publication.

    Question 8. In your testimony, you state that to successfully 
eliminate barriers to equal employment, it is not enough to just hire 
more diverse employees. You explain that in order to eliminate these 
barriers, agencies must examine why these employees have been 
historically excluded from certain opportunities.
    Answer. Response was not received at the time of publication.

    Question 9. In your opinion, has the Department made a substantial 
effort to examine why groups may have been historically excluded from 
certain opportunities?
    Answer. Response was not received at the time of publication.

    Question 10a. During the hearing, you offered to work through OPM 
to help make DHS a model for diversity. Please to expand on the 
following:
    How can DHS become a model for diversity?
    Answer. Response was not received at the time of publication.

    Question 10b. What tools are available to help DHS achieve this 
goal?
    Answer. Response was not received at the time of publication.

    Question 10c. What would DHS need to do to start the process?
    Answer. Response was not received at the time of publication.

Questions From Honorable Mike Rogers of Alabama for Christine Griffin, 
          Vice-Chair, Equal Employment Opportunity Commission

    Question 1a. Ms. Griffin, could you please give a brief description 
of the Equal Employment Opportunity Commission's Management Directive 
715 and its requirements?
    Could you also please discuss how this directive works in practice?
    Answer. Response was not received at the time of publication.

    Question 1b. What is the compliance rate of DHS compared with other 
Federal agencies?
    Answer. Response was not received at the time of publication.

    Question 2. Ms. Griffin, the EEOC suggests that in addition to 
workforce data, agencies should regularly consult a variety of sources, 
such as employee exit interviews, employee groups, and employee surveys 
to identify ``triggers'' which indicate potential barriers to equal 
employment opportunities. The EEOC also believes that involving 
employees helps to incorporate insights about operations from a 
frontline perspective in determining where potential barriers exist.
    What steps can the Department of Homeland Security take to ensure 
that they do not simply rely on workforce data to identify such 
``triggers''?
    Answer. Response was not received at the time of publication.

    Question 3. Ms. Griffin, could you please go into some detail 
concerning what the Department should do once a trigger has been 
revealed. What steps should be taken to address the lack of equal 
employment opportunities that the trigger has identified?
    Answer. Response was not received at the time of publication.

Questions From Chairman Bennie G. Thompson of Mississippi for Yvonne D. 
  Jones, Director, Strategic Issues, Government Accountability Office

    Question 1. How can DHS establish a mechanism for effective use of 
exit interviews to identify equal opportunity barriers?
    Answer. As we reported in our recent report, employee input can 
come from a number of sources including exit interviews.\1\ At the time 
of our report DHS did not have a Department-wide exit survey, but 
according to a senior official from DHS's Office of the Chief Human 
Capital Officer (OCHCO), DHS plans to develop a prototype exit survey 
with the eventual goal of proposing its use throughout DHS.
---------------------------------------------------------------------------
    \1\ GAO, Equal Employment Opportunity: DHS Has Opportunities to 
Better Identify and Address Barriers to EEO in Its Workforce, GAO-09-
639 (Washington, DC: Aug. 31, 2009).
---------------------------------------------------------------------------
    In order to successfully implement this survey, it will be 
important for DHS to use the same internal controls we recommended for 
implementing the planned activities to address identified barriers. For 
example, DHS should identify the activities necessary for implementing 
the exit survey and establish interim milestones to guide their 
completion.

    Question 2a. At DHS, the Acting Officer for Civil Rights and Civil 
Liberties is also the Deputy Officer for Equal Employment Opportunity 
Programs.
    What are the challenges with an agency having the same person act 
as the head of both offices?
    Answer. We have not assessed the current organizational structure 
of DHS's Office for Civil Rights and Civil Liberties (CRCL).

    Question 2b. When you have an agency facing low morale, several 
identified barriers to equal opportunity, and deficiencies in the 
agency's efforts to identify and address barriers, how urgent is it 
that the agency establishes political leadership in the Office of Civil 
Rights and Civil Liberties?
    Answer. Filling critical leadership positions is important. We have 
previously reported that sustained and consistent leadership can help 
provide the long-term attention required to effectively address 
significant management challenges and transformational needs at DHS and 
that top leader must set the direction, pace, and tone for the 
transformation.\2\ The Equal Employment Opportunity Commission's 
(EEOC), has also recognized the need for top leadership and under 
Management Directive (MD)-715, the first element of a model EEO program 
is demonstrated commitment from agency leadership. MD-715 provides that 
agency heads and other senior management officials demonstrate a firm 
commitment to equality of opportunity for all employees and applicants 
for employment.
---------------------------------------------------------------------------
    \2\ GAO, Department of Homeland Security: A Comprehensive and 
Sustained Approach Needed to Achieve Management Integration, GAO-05-139 
(Washington, DC: Mar. 16, 2005).
---------------------------------------------------------------------------
    Question 3. What are the areas of opportunity for increasing 
diversity within the DHS workforce?
    Answer. It is important for Federal agencies, including DHS, to use 
available flexibilities to acquire, develop, motivate, and retain 
talented individuals who reflect all segments of society and our 
Nation's diversity. According to EEOC, to attract, develop, and retain 
a top-quality workforce, agencies must ensure that their workforces are 
free of barriers to EEO. In our recent report on DHS's EEO efforts, we 
found that DHS was missing opportunities to identify potential barriers 
to EEO because DHS had generally relied on workforce data and had not 
regularly included employee input from available sources to identify 
``triggers,'' the term EEOC uses for indicators of potential barriers. 
We also found that although DHS had articulated planned activities to 
address identified barriers, DHS had modified nearly all of its 
original target completion dates by a range of 12 to 21 months, and had 
not completed any planned activities. Using available tools to identify 
barriers and following through with its plans to address identified 
barriers could help DHS to attract a diverse workforce.
    In addition, according to EEOC's MD-715 instructions, a lack of 
diversity can be an indicator of a potential barrier to EEO. Our report 
provided a summary of indicators of potential barriers that DHS 
reported in its fiscal year 2008 MD-715 report. Among those are areas 
where representation levels for a particular group are below a 
designated benchmark. For example, according to DHS's 2008 MD-715 
report, participation rates for total females and white females at DHS 
were lower than participation rates in the civilian labor force.

    Question 4a. Your report found DHS delayed nearly all of its target 
completion dates for activities aimed at eliminating barriers to equal 
opportunity, for anywhere from 12 to 21 months, and that the Department 
had not completed any of these planned activities.
    What did you find was the cause of this failure to meet deadlines 
and complete activities?
    Answer. In our recent report on DHS EEO efforts, we found that DHS 
had not established interim milestones for the completion of planned 
activities to address barriers. According to DHS officials, its MD-715 
reports and Human Capital Strategic Plan represent the extent of DHS 
project plans and milestones for completing planned activities. 
However, these documents included only the anticipated outcomes, not 
the essential activities needed to achieve those outcomes.

    Question 4b. How did this impact the Department's equal employment 
opportunities?
    Answer. Although we did not assess the specific effects of delayed 
or incomplete planned activities on equal employment opportunity at 
DHS, failure to implement steps to address identified barriers may 
limit opportunities for some employees or potential employees of DHS. 
According to EEOC's MD-715, agencies must regularly evaluate their 
employment practices to identify barriers to equality of opportunity 
for all individuals. Where such barriers are identified, agencies must 
take measures to eliminate them. With these steps, according to MD-715, 
agencies will ensure that all persons are provided opportunities to 
participate in the full range of employment opportunities and achieve 
to their fullest potential.

    Question 4c. What steps should DHS take to improve this process so 
they meet these deadlines in the future?
    Answer. As we recently reported, in order to help ensure that 
agency programs are effectively and efficiently implemented, it is 
important that agencies implement effective internal control 
activities. These activities help ensure that management directives are 
carried out. Further, it is essential to establish and track 
implementation goals and establish a timeline to pinpoint performance 
shortfalls and gaps and suggest midcourse corrections. Identifying the 
critical phases of each planned activity necessary to achieve the 
intended outcome with interim milestones could help DHS ensure that its 
efforts are moving forward and manage any needed midcourse corrections, 
while minimizing modifications of target completion dates.

    Question 5a. In your testimony, you list the lack of recruitment 
initiatives directed towards Hispanics as one of the four barriers DHS 
identified in 2007.
    Since 2007, has DHS improved and or developed new recruitment 
initiatives aimed at Hispanics?
    Answer. We did not assess the extent to which DHS has improved and 
or developed new recruitment initiatives aimed at Hispanics. However, 
agencies are to annually report their efforts to address identified 
barriers to EEOC.

    Question 5b. If yes, have they had a positive impact and increased 
the number of Hispanic recruits?
    Answer. We did not assess the extent to which any recruitment 
initiatives had a positive impact or increased the number of Hispanic 
recruits. However, according to EEOC's MD-715 instructions, agencies 
are to continuously monitor and adjust their action plans to ensure the 
effectiveness of the plans themselves, both in goal and execution. This 
monitoring will serve to determine the effectiveness of the action plan 
and objectives. Conducting this assessment of its efforts to address 
identified barriers and determining whether its efforts have addressed 
those barriers will be an important step for DHS in providing equal 
employment opportunity.

    Question 6a. In your report, you explain that once an agency 
identifies trigger, such as high minority attrition rates, suggesting a 
potential barrier to equal opportunity exists, the next step is to 
investigate to pinpoint the actual barriers and their causes.
    In your opinion, has the Department done enough to identify 
barriers and their causes?
    Answer. According to EEOC's MD-715, agencies must conduct a self-
assessment on at least an annual basis to monitor progress and identify 
areas where barriers may operate to exclude certain groups. As we 
reported, in fiscal year 2007, DHS conducted its first Department-wide 
barrier analysis. This effort involved further analysis of the triggers 
initially identified in 2004 to determine if there were actual barriers 
and their causes. According to its 2007 MD-715 report, DHS limited its 
barrier analysis to an examination of policies and management practices 
and procedures that were in place during fiscal year 2004. Therefore, 
according to the report, policies, procedures, and practices that were 
established or used after fiscal year 2004 were outside the scope of 
this initial barrier analysis. DHS officials reported that they have 
not conducted any other barrier analyses because of resource 
limitations, such as staffing and limited funding to contract for this 
activity.

    Question 6b. Describe what you consider to be the best practices 
for pinpointing barriers and their causes, and explain what you believe 
should be an agency's goals in these efforts.
    Answer. In its instructions for MD-715, EEOC has provided agencies 
with procedures for pinpointing barriers and their causes. According to 
the instructions, ``A thoughtful examination will include, but not be 
limited to: (1) A thorough examination of relevant policies, 
procedures, and practices; (2) An evaluation of all related workforce 
data, statistics, and trends; (3) A review of complaints, survey 
trends, and other information, such as feedback from exit interviews 
and focus groups, research literature, etc.; and (4) An examination of 
whether the pinpointed barrier is job-related and consistent with 
business necessity. From this investigation, useful objectives and 
action items can be developed.''

    Question 6c. How would you rate DHS in its investigation of actual 
barriers to equal employment opportunities?
    Answer. According to EEOC's MD-715, agencies must conduct a self-
assessment on at least an annual basis to monitor progress, identify 
areas where barriers may operate to exclude certain groups, and develop 
strategic plans to eliminate identified barriers. As noted above, DHS 
has not conducted a barrier analysis since 2007, which was based on 
policies and management practices and procedures that were in place 
during fiscal year 2004. We did not assess DHS's investigation of 
actual barriers.

    Question 7a. Your report identifies the inclusion of a diversity 
advocacy competency in SES performance evaluations as a way to address 
accountability for top-level management.
    Do you believe that a diversity competency should also be a part of 
the performance evaluations of non-SES managers and supervisors?
    Answer. In our report on leading diversity management practices,\3\ 
we noted that accountability is a key element for organizations to help 
ensure the success of a diversity management effort. Holding managers 
accountable provides a means for ensuring that managers at all levels 
are made responsible for diversity in their organizations and evaluated 
on their progress toward achieving their diversity objectives and their 
ability to manage a diverse group of employees.
---------------------------------------------------------------------------
    \3\ GAO, Diversity Management: Expert-Identified Leading Practices 
and Agency Examples, GAO-05-90 (Washington, DC: Jan. 14, 2005).
---------------------------------------------------------------------------
    As we reported, DHS was developing plans to implement a competency 
for managers and supervisors in 2010 similar to the DHS SES Diversity 
Advocate competency. At the time of our report, the specific details on 
implementation of the competency for managers and supervisors were not 
yet finalized.

    Question 7b. What are some incentives that you would recommend DHS 
tie to high performance in this category?
    Answer. In our report on leading diversity management practices, we 
stated that an organization may make managers' performance ratings and 
compensation dependent, in part, on their success in achieving 
diversity-related goals. Managers can also be held accountable for, as 
we stated above, their ability to manage a diverse group of employees. 
In 2002, we reported that Senior Executives can foster fairness and 
diversity by protecting the rights of all employees, providing a fair 
dispute resolution system, and working to prevent discrimination 
through equality of employment and opportunity.\4\
---------------------------------------------------------------------------
    \4\ GAO, Results-Oriented Cultures: Using Balanced Expectations to 
Manage Senior Executive Performance, GAO-02-966 (Washington, DC: Sept. 
27, 2002).
---------------------------------------------------------------------------
    Question 7c. What consequences could DHS employ to address poor 
performance in the diversity competency area?
    Answer. DHS officials should provide feedback when performance is 
not meeting expectations in any critical SES performance element. As we 
noted in our report on leading diversity management practices, DHS 
could also withhold bonuses from the poor performing executives or 
managers to send a message that such performance has consequences.

    Question 8a. In your report, you describe some DHS outreach and 
recruitment initiatives. Your report highlights some partnerships DHS 
has with minority groups. In our oversight, we found that DHS has often 
relied on collecting applications at job fairs organized by college 
campuses once or twice a year to recruit candidates.
    How does this compare to what you believe would be an effective 
outreach and recruitment strategy?
    Answer. In our report on leading diversity management practices,\5\ 
we found that recruitment is the first step toward establishing a 
diverse workforce. To ensure that an organization is reaching out to 
diverse pools of talent, it can widen the selection of schools from 
which it recruits to include, for example, historically Black colleges 
and universities, Hispanic-serving institutions, women's colleges, and 
schools with international programs. In addition, it is importance for 
an organization to build formal relationships with such schools to 
ensure the cultivation of talent for future talent pools. Another 
outreach strategy is for an organization to consider partnering with 
multicultural professional organizations and speaking at their 
conferences to communicate its commitment to diversity to external 
audiences and strengthen and maintain relationships.
---------------------------------------------------------------------------
    \5\ GAO-05-90.
---------------------------------------------------------------------------
    Question 8b. What efforts should the DHS recruitment and outreach 
strategy include?
    Answer. Please see my response to question 8a.

 Questions From Honorable Mike Rogers of Alabama for Yvonne D. Jones, 
      Director, Strategic Issues, Government Accountability Office

    Question 1a. Ms. Jones, in the GAO's Equal Employment Opportunity 
(EEO) report, you stated that the Department has generally relied on 
workforce data and has not regularly included employee input in 
identifying potential barriers.
    Could you please elaborate on your findings here, specifically why, 
in your opinion, the Department needs to look beyond workforce data?
    Answer. We found that DHS had generally relied on workforce data 
and had not regularly included employee input from available sources to 
identify ``triggers,'' the term EEOC uses for indicators of potential 
barriers. According to EEOC, in addition to workforce data, agencies 
are to regularly consult a variety of sources, such as exit interviews, 
employee groups, and employee surveys, to identify triggers. These 
sources may reveal triggers that may not be present in the workforce 
data tables. For example, according to EEOC instructions, employee 
surveys may reveal information on experiences with, perceptions of, or 
difficulties with a practice or policy within the agency. Involving 
employees helps to incorporate insights about operations from a 
frontline perspective in determining where potential barriers exist. At 
the time of our report, DHS did not consider employee input from such 
sources as employee groups, exit interviews, or employee surveys in 
conducting its MD-715 analysis.

    Question 1b. What else could the Department be doing to collect 
information on potential barriers?
    Answer. As we reported, employee input can come from a number of 
sources including employee groups, exit interviews, and employee 
surveys. DHS officials said that they had not considered input from 
employee groups in conducting its MD-715 analysis, but the Diversity 
Council's Diversity Policy and Planning Subcouncil had recently begun 
to reach out to form partnerships with employee associations such as 
the National Association of African-Americans in the Department of 
Homeland Security. In addition, according to DHS's 2008 MD-715 report, 
DHS did not have a Department-wide exit survey, but according to a 
senior OCHCO official, OCHCO planned to develop a prototype exit survey 
with the eventual goal of proposing its use throughout DHS.

    Question 2. In your testimony, you state that at DHS, according to 
the DHS Acting Officer for Civil Rights and Civil Liberties (CRCL) and 
the Deputy Officer for EEO Programs, component EEO directors do not 
report directly to CRCL but to their respective component heads.
    Do you think that this chain of command should be changed or do you 
support retaining the status quo? If so, why is that?
    Answer. While we did not assess whether the chain of command should 
be changed, we recently reported that the Deputy Officer for EEO 
Programs stated that he relies on a collaborative relationship with the 
EEO directors of the components to carry out his responsibilities; 
component EEO directors do not report directly to CRCL but to their 
respective component heads. DHS officials indicated that this 
organizational structure is similar to other cross-cutting lines of 
business (LOB); however, other crosscutting LOBs have indirect 
reporting relationships, established through management directives, 
between the component LOB head and the DHS LOB chief for both daily 
work and annual evaluation. A management directive interpreting the 
scope of authority delegated by the Secretary of Homeland Security to 
the Officer for CRCL to integrate and manage the DHS EEO program was 
awaiting approval at the time of our report.

Questions From Chairman Bennie G. Thompson of Mississippi for W. Craig 
Fugate, Administrator, Federal Emergency Management Agency, Department 
                          of Homeland Security

    Question 1. Temporary, or reservist workers, represents about 90% 
of the FEMA workforce deployed during disasters. Earlier this year, the 
New Orleans temporary office drew national attention due to dozens of 
equal employment complaints and serious corruption allegations aimed at 
the office's Chief of Staff.
    How is FEMA making sure that situations like this do not occur in 
the future at temporary offices?
    Answer. Ethics training is essential to FEMA employees' 
understanding of the Federal ethics rules and what they should do if 
they should witness corruption. Also, we have attorneys assigned at 
Temporary Recovery Offices (TROs) who also assist employees with their 
ethics questions and advise them if they perceive there is fraud, 
waste, or abuse of an office or other ethics issues.
    We also are working to ensure that all new temporary or reservist 
workers receive initial ethics training at all Joint Field Offices 
(JFOs) and TROs and related non-headquarters locations within 90 days 
of their appointments. The training will soon be available via a web-
based application irrespective of whether an employee is currently 
activated. In addition, we soon will have the agency's annual ethics 
training loaded on the FEMA intranet site, as well as on the internet 
site at FEMA.gov.
    Further, Disaster Assistance Employee (DAE) field attorneys provide 
live ``new employee'' ethics training and advice at all JFOs to which 
an attorney is assigned. Also, we send out a DVD of this annual 
training to those JFOs without attorneys. This training can be viewed 
by all new or current JFO or TRO employees, both individually and in 
groups.
    Importantly, FEMA Administrator W. Craig Fugate has published a 
short introduction to a video on ethics that advises FEMA staff of his 
expectations that all FEMA employees will act ethically, that FEMA 
employees who take action against corruption should be rewarded by 
their managers, and that FEMA employees should not be retaliated 
against for raising issues regarding ethical violations, or for raising 
matters of fraud, waste, and abuse of authority to their supervisors or 
to the DHS Office of the Inspector General, the U.S. Office of Special 
Counsel, the FEMA Ethics Office, and Office of Equal Rights, or other 
relevant entities.
    The Louisiana Transitional Recovery Office (LATRO) and the other 
FEMA Transitional Recovery Offices (TROs) in Mississippi and Florida, 
as a result of increased concerns about ethics at the LATRO after 
recent Congressional hearings, is ensuring that all FEMA employees are 
receiving annual ethics training. This training will emphasize a policy 
of ``no retaliation'' against whistleblowers by TRO managers, 
consistent with the direction of Administrator Fugate, with training to 
be completed not later than December 31, 2009.
    Additionally, the FEMA Security Office, Human Capital Division, and 
Office of the Chief Counsel have jointly initiated an internal 
investigations unit to investigate allegations of waste, fraud, and 
abuse of authority by LATRO and other TRO officials, including 
whistleblower retaliation and ethics violations. This internal 
investigations unit, consisting of trained law enforcement officials, 
will conduct investigations of alleged misconduct and ethics 
violations, including whistleblower retaliation, and make 
recommendations concerning whether the agency should take disciplinary 
action against FEMA managers and employees found to have violated such 
laws and regulations. If criminal violations are alleged or found, they 
will be referred to the DHS Office of the Inspector General for further 
investigation or action.
    In response to the work environment issues at the LATRO, FEMA sent 
a coordinated strike force to address the concerns. As part of a 
standard protocol for this type of situation, the agency conducted on-
site work environment surveys to determine problems, extent of issues 
impeding equal employment opportunity, and other issues or concerns 
that impact the work environment. The survey was expanded to include an 
online aspect for greater inclusion. The immediate survey feedback and 
analysis determined immediate resonant strategies that responded to the 
issues and concerns. Part of the resonant strategy was targeted 
contracted equal employment opportunity (EEO) and work environment 
training coordinated with the Equal Employment Opportunity Commission 
(EEOC). Additionally, FEMA subject EEO matter experts, including the 
Director of FEMA's Office of Equal Rights and the Informal Complaints 
and EEO Alternative Dispute Resolution Program Manager, were deployed 
strategically to the TRO to address issues on-site.
Office of Equal Rights
    The Office of Equal Rights hires Equal Rights Specialists that are 
assigned to temporary offices to support the agency's commitment to 
equal employment opportunity. All complaints of discrimination are 
considered serious and addressed first informally and, if not resolved, 
through independent formal investigation by contract equal employment 
opportunity investigators. Where applicable, alternative dispute 
resolution (ADR) is utilized. The equal rights specialists receive 
guidance from headquarters Office of Equal Rights in conducting 
appropriate discrimination complaint processes and coordination with 
other FEMA programs to address discrimination issues.
    Where indicated, the agency conducts work environment surveys to 
determine problems, extent of issues impeding equal employment 
opportunity, and other issues or concerns that impact the work 
environment. After analysis, strategies are developed to address all 
issues and concerns.
    During disasters, the Office of Equal Rights deploys a cadre of 
trained equal rights specialists and subject matter experts to support 
the agency's mission at joint field offices (JFO) and other disaster 
work sites. Equal rights training is required for all temporary 
employees on an annual basis. This training is offered during 
deployments and conducted by equal rights specialists. On-line training 
for employees and supervisors is also required.
    All equal rights specialists are required to attend annual update 
training to develop and refine their skills in recognizing and 
addressing discrimination issues. This training is conducted by the 
Office of Equal Rights and includes presentations and training in 
collaboration with other FEMA programs. The skills and core 
competencies of the equal rights specialists are further developed 
through credentialing of the equal rights cadre to support consistent 
and adequate approaches to conduct and resolution of discrimination 
issues and complaints.
    Signs, literature, policies, and posters that provide information 
on equal employment opportunity, discrimination, and the agency's 
commitment to equal employment opportunity are prominently displayed in 
the work area and made available to all employees. A memorandum stating 
the commitment to equal employment opportunity is issued by the head of 
the temporary recovery office and joint field office and sent to all 
hands on the work site. By Equal Employment Opportunity Commission 
(EEOC) regulation, employees are provided confidential informal EEO 
counseling where requested.

    Question 2a. What are the unique equal employment opportunity 
challenges facing FEMA's temporary workforce?
    How does FEMA track workforce diversity issues among temporary 
workers?

    Question 2b. How is FEMA addressing the equal employment 
opportunity concerns of its temporary workers?
    Answer. An important component of realizing FEMA's mission is 
providing effective support for the varied demographics of the entire 
disaster community. While this does not translate directly to matching 
emergency management demographics, one important factor is having 
sufficient different perspectives to identify and address all elements 
of the community.
    The challenges that impact recruitment and hiring for temporary 
positions within FEMA's emergency workforce likewise influence 
recruitment and hiring a diverse group of workers. The intermittent, 
part-time nature of the temporary workforce, coupled with lack of 
benefits, eliminates large numbers of otherwise interested persons. 
Promoting intermittent employment, with no benefits, in an austere 
working environment is challenging.
    A significant portion of FEMA's temporary workforce consists of 
public and private sector retirees. These individuals seek part-time 
intermittent work without regard to benefit as their benefits, in most 
instances, are part of their retirement package.
    The nature of the applicant pool for emergency managers is a 
challenge to broadening demographics in specialized positions. One very 
critical element that impacts the available pool of applicants is 
recruitment. Recruitment must be sufficiently broad-based and inclusive 
to provide effective promotion and visibility not only within media and 
markets used by workers generally but within minority communities as 
well and by minority emergency management workers, specifically.
    Most of the data used to track demographics among the temporary 
workforce comes from voluntary self-identification. This data is 
believed to be accurate enough to support the Equal Employment 
Opportunity Commission's (EEOC) required Management Directive (MD) 715 
annual report.
    The MD-715 report identifies diversity issues through demographics 
and addresses equal employment opportunity (EEO) barriers demonstrated 
by the data.
    FEMA has a Disaster Reserve Workforce Division (DRWD) that handles 
general issues among the temporary disaster workforce. Specific equal 
employment opportunity concerns and issues are handled by FEMA's Office 
of Equal Rights (OER) through a deployed cadre of trained equal 
employment opportunity specialists and subject matter experts that 
support FEMA's mission at joint field offices (JFO) and other locations 
in the field during declared disasters.
    In addition to other metrics and practices, through collaboration 
and coordination with FEMA program areas, OER uses the MD-715 self-
assessment, part H, part I and part J to identify EEO issues, concerns, 
barriers, problems, and effective practices to support the agency's 
efforts to develop a model EEO program, part of which includes a vital 
diversity component.

 Questions From Honorable Mike Rogers of Alabama for W. Craig Fugate, 
   Administrator, Federal Emergency Management Agency, Department of 
                           Homeland Security

    Question 1. Administrator Fugate, could you please provide this 
committee with some examples of how you addressed the issue of 
diversity during your time in Florida?
    I would specifically like to better understand the challenges that 
you faced with regard to the recruitment of minority employees, and the 
professional development of your staff. Do you believe some of the 
programs you used in Florida could be replicated at the Federal level?
    Answer. During my tenure at the Florida Division of Emergency 
Management, some of the activities undertaken to create a diverse 
workforce included:
  <bullet> Creation of an Intern Program with Florida Agricultural and 
        Mechanical University (FAMU), a Historically Black College and 
        University;
  <bullet> Execution of a MOU with the Florida NAACP and adding their 
        State executive team to the State Emergency Response Team;
  <bullet> Development of a program to create deputies to each of the 
        Bureau Chiefs to increase diversity within the Division 
        Leadership, the first class of Deputy Bureau Chiefs included 5 
        Deputies, including 4 women and/or minority candidates.
    Some of the preparedness activities to reach out to a diverse 
population included:
  <bullet> Worked with the Department of Elder Affairs to support 
        outreach and preparedness efforts for Florida's seniors;
  <bullet> Development of emergency public information in English and 
        Spanish. For example: Developing your family's disaster plan--
        in Spanish http://www.floridadisaster.org/family/
        index.cfm?lang=spa:
  <bullet> Provided information for Disabled Populations in easy to 
        access formats on the internet http://www.floridadisaster.org/
        disability/index.html;
  <bullet> Developed video: ``Preparedness Messages in American Sign 
        Language'' http://www.floridadisaster.org/disability/Video/
        index.htm; and
  <bullet> Developed preparedness information for children at http://
        www.kidsgetaplan.com.
    FEMA is looking at ways to implement some of these programs, 
including creating an internship program to bring in students from 
diverse backgrounds. We have just redesigned the FEMA en Espanol 
website to broaden our reach and products for the community, http://
www.fema.gov/esp/.

    Question 2. We have the National preparedness goal, the target 
capabilities list, National planning scenarios, and the State 
preparedness reports, just to name a few.
    How does FEMA plan to integrate the country's national response 
programs?
    Answer. FEMA will stand up a Congressionally-mandated Task Force 
later this fall that will be comprised of State, local, Tribal, and 
various Federal officials to examine and evaluate all existing 
preparedness efforts. The Task Force will make recommendations on steps 
necessary to better focus our National effort. FEMA's efforts to better 
integrate myriad preparedness programs will be predicated on 
recommendations from our partners and stakeholders.

    Question 3a. With the beginning of the new administration, I 
understand that you may be re-examining the FEMA Disaster Emergency 
Communications Division.
    Can you give us a description of your view of FEMA's role in 
disaster emergency communications and your plans for that division?

    Question 3b. Since your confirmation, what are some of the 
management reforms you have instituted?
    Answer.
FEMA's Role
    The Federal Emergency Management Agency (FEMA) leads and 
coordinates the Federal Government's disaster response, continuity 
efforts, and restoration of information technologies and communications 
essential for an effective response in support of State and local 
officials. Through FEMA's Disaster Operations Directorate (DOD), 
communications activities are accomplished which are necessary to unify 
all communicators around one common effort--the delivery of information 
to emergency responders. This common vision within FEMA establishes an 
interconnected system of communications capabilities across all levels 
of government that provides mission critical information and 
situational awareness vital to decision making. Strategic, operational, 
and tactical infrastructures must converge to provide seamless 
connectivity throughout the designated disaster area, from the incident 
site to national-level command and control facilities.
Disaster Emergency Communications Division
    FEMA's commitment to the Nation's need for rapid, reliable, 
operable, survivable, and interoperable communications serves as a 
driving force in FEMA's vision for supporting Federal, State, local, 
and Tribal agencies in accomplishing their mission. The Disaster 
Emergency Communications (DEC) Division is the focal point within FEMA 
for executing the emergency communications portion of our vision and 
mission.
    One of the DEC Division's near-term goals is to build a robust 
emergency communications program that delivers the information needed 
for operational and tactical command and control during disaster 
response operations. Many of the elements necessary to achieve this 
goal are being set in motion. We are aggressively defining the agency's 
National strategy for rapid response communications support, 
coordinating FEMA Regional Emergency Communications Working Groups in 
each region, which bring together local, State, and Federal 
communications experts for regional coordination, supporting States in 
their development of State operational emergency communications plans, 
reviewing internal agency communications assessments, conducting 
strategic policy reviews, performing equipment system enhancements, 
refining our requirements-based approach to procurement, and developing 
interagency communications doctrine. The groundwork is clearly 
established to address and resolve current and future operability and 
interoperability issues while providing new capabilities to the 
Nation's disaster responders.
    Since my confirmation, we have done a bottom-up review of our 
emergency communications activities and organization, streamlined it 
and focused our efforts on ensuring the regional response teams have 
the preparation, planning, and operational support they need to 
accomplish the mission.

    Question 4. How would you assess FEMA's readiness for the remainder 
of the 2009 hurricane season? After your experiences thus far this 
year, what new steps, if any, do you plan to take to prepare for the 
2010 hurricane season?
    Answer. FEMA's readiness remains robust since the start of the 2009 
hurricane season. In contrast to the active 2008 hurricane season, the 
2009 season has been relatively quiet with little cause for operational 
mobilization. On November 9, 2009, the National Response Coordination 
Center was activated for Hurricane Ida, when the storm potentially 
threatened the Gulf Coast. All requested interagency partners responded 
for the activation and national level coordination was provided in 
support of several States. Any after-action items will be incorporated 
into plans for the 2010 hurricane season.
    The changes that will be made will likely reflect more global 
changes to FEMA hurricane emergency management policy, particularly 
with regard to evacuation and population protection (i.e., work to 
shelter more and evacuate less, shorten the distance those that are 
evacuated travel, increase our effort to educate the public about the 
distinction between a hurricane ``victim'' and a hurricane 
``survivor.'').

  Questions From Chairman Bennie G. Thompson of Mississippi for Gale 
     Rossides, Acting Assistant Secretary, Transportation Security 
            Administration, Department of Homeland Security

    Question 1a. According to DHS data, approximately 80% of African 
American TSA employees are paid at the equivalent of a GS-9 or below.
    What barriers prohibit African American employees from advancing to 
higher-level positions at TSA?

    Question 1b. What steps is TSA taking to address these barriers?

    Question 1c. How is DHS headquarters involved in this process?
    Answer. During TSA's rapid stand-up after 9/11, the agency hired a 
large number of senior, experienced, former military, law enforcement, 
and private industry experts. Many of those hired at the higher pay 
grades were not minorities because the pool of these senior individuals 
did not have high minority participation. TSA recognizes the need for 
improvement with regard to minority employment in positions at the GS-
11 equivalent level and above and has developed a series of 
developmental programs to address this challenge. Both the Senior 
Leadership Development Program and Mid-Leadership Development Program 
are aimed at building the next generation of mid-level and senior-level 
leaders within TSA. TSA recently launched the Career Resident Program 
(CRP) and Career Evolution Programs (CEP) which are designed to recruit 
and build diversity in entry-level positions within the agency. The CRP 
recruits from outside the agency while the CEP is a hiring initiative, 
for internal candidates only, designed to identify and maximize the 
incredible talents and experience of our existing and diverse 
workforce.
    TSA has done much in the last several years to promote career 
progression among the Transportation Security Officer (TSO) workforce, 
offering additional opportunities for professional growth by allowing 
TSOs to continue to advance in their work based on their skills and 
performance. This effort has allowed for more opportunities for TSOs to 
potentially qualify for security, protection, or law enforcement jobs 
elsewhere within the Department of Homeland Security (DHS). In addition 
to Lead and Supervisory TSO positions, TSA also introduced new 
positions called Behavior Detection Officers and Bomb Appraisal 
Officers. These positions offer qualified TSOs additional opportunity 
for advancement and career growth within the agency.
    TSA, like other DHS components, reports regularly to the DHS Office 
of Civil Rights and Liberties concerning its efforts to improve 
diversity. Secretary Napolitano and Deputy Secretary Lute continue to 
emphasize the importance of diversity in the DHS workforce. The 
Department recently implemented the DHS Diversity Forum. Members 
include a large range of diversity, minority, and law enforcement-based 
groups as well as representatives from all DHS components. TSA 
participates in the forum and works with the Department on diversity 
initiatives.

    Question 2a. Women represent only 4.7% of the Federal Air Marshals 
workforce, compared to 44% of the overall Federal workforce, and 
approximately 16% of the Federal law enforcement sector.
    What are the barriers to equal opportunities for women in the Air 
Marshals workforce?
    Answer. There are several reasons that explain the representation 
of women in the Federal Air Marshal Service's (FAMS) workforce. 
Fundamentally, the workforce composition of the present day FAMS is a 
direct result of the unprecedented hiring and stand-up that was 
conducted post 9/11 to expand the FAMS into its current mission 
capability. Prior to 9/11, the FAMS consisted of fewer than 50 armed 
air marshals. In response to the order by President Bush to expand the 
FAMS, thousands of applicants were hired during spring 2002, with an 
emphasis on hiring applicants with prior military and law enforcement 
experience. At that time, the majority of the applicants were male, 
which resulted in fewer females selected for the FAM position as 
compared to those represented in other Federal law enforcement 
positions.
    Since the post 9/11 stand-up, the representation of females FAMS 
has remained consistent at approximately 5 percent largely due the 
limitation of recruiting new hires primarily to offset attrition. 
Moreover, while the focus of recent efforts has included recruiting 
greater numbers of highly qualified women and minority applicants, 
Federal law enforcement remains a non-traditional career for women. As 
a result of these barriers, the FAMS have not had the ability to 
significantly alter the original workforce composition.

    Question 2b. What is TSA doing to address these barriers and 
eliminate this disparity?
    Answer. In order to gain a better understanding of the decision-
making dynamics that influence women who may be considering a career in 
law enforcement, the Transportation Security Administration's (TSA's) 
Office of Law Enforcement (OLE) recently conducted barrier analysis 
research to identify specific obstacles to recruiting and retaining 
women as FAMs. A survey instrument was administered to female attendees 
at the 2008 annual Women in Federal Law Enforcement (WIFLE) training 
conference and explored several issues: (1) Factors that female law 
enforcement officers (LEOs) identified as important when making their 
initial career decisions into the field of Federal law enforcement; (2) 
factors that female LEOs identify as most important now if they were to 
make a career switch; and, (3) identifying respondents' perceptions and 
knowledge about a Federal Air Marshal career.
    The findings revealed a prioritization of the most and least 
important factors that influence career choices in Federal law 
enforcement, and also identified a variety of misperceptions that the 
respondents held about the FAM career.
    The results from the research are being used to directly inform 
strategic initiatives to encourage greater numbers of women to consider 
and apply for a career as a FAM. Specific activities include revising 
recruiting and marketing materials; continuing to conduct workforce 
analyses on a quarterly basis to monitor the diversity/gender 
composition of the workforce; identifying trends as a basis for shaping 
diversity program goals in general; and, exploring the feasibility of 
implementing creative intern and special hire programs to provide 
flexible hiring opportunities for women (and other highly qualified 
persons) to work in a developmental capacity as one pathway to 
expeditious selection as a FAM.
    Additionally, OLE/FAMS conducts Focus Group sessions with female 
FAMs to address recruitment and retention issues, and to identify 
concerns and recommendations. OLE/FAMS also maintains its partnership 
with WIFLE to promote women's issues in Federal law enforcement, as 
well as market/advertise FAM vacancies.

    Question 2c. Who is responsible for these efforts, and do they have 
the authority to make sure that management follows through on these 
plans?
    Answer. The initiatives represent a collaborative effort between 
the TSA Office of Civil Rights and Liberties, TSA Office of Human 
Capital, and OLE/FAMS. The Assistant Administrators, Deputy Assistant 
Administrators, and Executive level staff from each component partner 
office are personally engaged to ensure progress toward reducing 
barriers for women and ensuring continued equal opportunity for women 
in the Federal Air Marshal workforce.

    Question 2d. How is DHS headquarters involved in this process?
    Answer. The Department of Homeland Security (DHS) is sensitive to 
the challenges associated with the recruitment of women and minorities 
into TSA and DHS law enforcement positions. DHS has recently launched 
Diversity Forums to seek input from, and maintain dialogue with, 
professional organizations representing women, minority, and diversity 
issues to inform DHS recruitment and retention efforts.

    Question 3a. According to GAO, agencies should use employee input 
to identify potential barriers to equal employment.
    How is TSA using employee input to identify these potential 
barriers?
    Answer. The Transportation Security Administration's (TSA's) 
Diversity Advisory Council (DAC) was established in 2007 and is 
comprised of TSA employees from both the field and headquarters. The 
purpose of the Council is to implement diversity initiatives, identify 
best practices, and ensure that TSA achieves the goals identified in 
the TSA Diversity Action Plan. The DAC reports to TSA's Senior 
Leadership Team.

    Question 3b. Does TSA use exit interviews to identify barriers?
    Answer. In 2005, TSA established the TSA National Exit Survey which 
collects information from departing employees on their reasons for 
leaving and their opinions on work life areas such as job satisfaction 
and advancement opportunities. The survey also collects demographic 
information and quarterly reports are used to examine the differences 
between groups. Exit interviews are encouraged but not mandatory as the 
survey provides a confidential and anonymous opportunity for candid 
feedback. Headquarters and field representatives in charge of exit 
clearance are given guidance on how to conduct interviews should they 
or the separating employee wish to do so. Guidance includes questions 
that can and cannot be asked, direction for Equal Employment 
Opportunity Commission complaints, and how to handle and store data.

    Question 3c. Has DHS headquarters provided TSA with any guidance on 
whether to use exit interviews or on what employee inputs to rely on to 
identify barriers?
    Answer. The Department of Homeland Security (DHS) and TSA have 
discussed future collaboration on plans to standardize exit survey 
tools and analysis across DHS components by the end of fiscal year 
2011. TSA has provided DHS with details on the TSA National Exit Survey 
program as well as process guidance, supporting documents, and lessons 
learned from TSA's existing exit survey program. DHS has provided TSA 
with key drivers of employee satisfaction based on data from the 2007 
DHS All Employee Survey. DHS has also provided a plan of action for 
increasing employee satisfaction at DHS through leadership 
effectiveness in response to the 2008 Federal Human Capital Survey 
results. We are currently in discussion with DHS for the 2009 DHS All 
Employee Survey on metrics for leveraging employee engagement and 
effectiveness.

    Question 4a. One of your on-going diversity initiatives is to 
implement a diversity performance element for all TSA supervisors.
    Has this been implemented yet?

    Question 4b. What are the consequences TSA supervisors will face if 
their performance is deemed unsatisfactory in this category?
    Answer. All Transportation Security Administration (TSA) 
Transportation Security Executive Service (TSES) have a performance 
agreement that contains a ``Diversity Advocate'' critical performance 
element. It requires that the TSES employee ``promotes workforce 
diversity, provides fair and equitable recognition and equal 
opportunity, and promptly and appropriately addresses allegations of 
harassment or discrimination.'' As of June 2009, a ``Diversity 
Performance'' critical element was added to the Performance Agreement 
for Supervisory Employees (Non-TSES, Non-PASS). It requires all non-
PASS supervisors to recruit, develop, and retain a diverse high quality 
workforce in an equitable manner; to lead and manage an inclusive 
workplace that maximizes the talents of each person to achieve sound 
business results; and to respect, understand, value, and seek out 
individual differences to achieve the mission and vision of the 
organization.

    Question 5a. According to your 2007 Diversity Action Plan, the 
Diversity Advisory Council was to develop metrics to measure TSA's 
progress in achieving its diversity goals.
    Have these metrics been developed?
    Answer. The Transportation Security Administration's (TSA's) Office 
of Human Capital (OHC) maintains metrics on hiring, retention, and 
separations from the agency, by gender, pay band, and race and national 
origin and these metrics are provided to organizational leaders on a 
quarterly basis. In addition, TSA's Deputy Administrator, as Chair of 
the Executive Resources Council, monitors diversity metrics for all 
TSES positions.

    Question 5b. If not, when do you expect these metrics to be 
developed?
    Answer. The Diversity Advisory Council is in the process of 
developing metrics with the goal of completion in early 2010.

    Question 5c. What will TSA do to continue to hold itself 
accountable for achieving diversity goals?
    Answer. Understanding that certain populations in various mission-
critical positions were underrepresented, TSA began its Diversity 
Initiative by analyzing the demographic statistics of its mid-level and 
senior-level positions. TSA will continue to gather, analyze, and 
monitor these statistics to ensure that we eliminate barriers to 
achieving a diverse workforce at all levels of the agency. TSA's 
diversity performance element is another tool to bring managerial 
accountability to diversity performance and sustaining a culture of 
inclusion.
    In addition, approximately 300 TSA senior hiring and managerial 
officials have participated in Diversity Training Workshops since 
December 2008. In those workshops, participants are asked to draft 
sample diversity action plans for their offices and to include 
specifics on how to measure success in improving the diversity of their 
offices.

    Question 5d. What role will DHS have in this process?
    Answer. TSA is proactively engaged with the Department of Homeland 
Security (DHS) on Diversity Subcouncil and initiative projects and will 
consult and seek advice from DHS in a collaborative way.

   Questions From Ranking Member Peter T. King of New York for Gale 
     Rossides, Acting Assistant Secretary, Transportation Security 
            Administration, Department of Homeland Security

    Question 1a. Thank you for your service as Acting Administrator of 
TSA during the transition between administrations. It has been nearly 9 
months since President Obama took office and last month he announced 
his intent to nominate Erroll G. Southers as the next administrator of 
TSA.
    Can you tell us what kind of turnover TSA has experienced since the 
change of administration? How has this affected the work of TSA?
    Answer. The Transportation Security Administration's (TSA's) 
overall attrition rate is approximately 7 percent and has stayed 
relatively constant since January 2009. The 13 Executive career members 
of the Senior Leadership Team have all stayed on (all but Public 
Affairs and Legislative Affairs, which are political appointments), and 
as a result, TSA has achieved numerous congressional and program 
milestones in 2009.

    Question 1b. Will you return to your role as the deputy 
administrator for TSA after a new administrator is confirmed?
    Answer. Yes, I will return to the role of deputy administrator and 
I am looking forward to assisting the new administrator in taking TSA 
to the next level.

    Question 2a. Data reflects that as of August 2009, TSA had a 
workforce with approximately 41.45% being minority employees.
    Could you please provide more information on how TSA managed to 
reach this level?
    Answer. The Transportation Security Administration (TSA) 
aggressively includes minority candidates in its recruitment activities 
and advertising initiatives, such as recruitment events and attendance 
at professional and educational conferences targeting minority and 
female professionals in security and law enforcement. Targeted Online 
Recruitment is a primary strategy used to reach a large group of 
prospective applicants. TSA has aggressively created on-line posting 
and advertising campaigns to include, job postings, banner 
advertisements, email blasts, and newsletters. Additionally, TSA has 
advertised in targeted publications to reach specific audiences. TSA 
created the Diversity National Flyers with the goal to target and 
engage with diverse populations. Overall, TSA continuously conducts 
outreach efforts to develop and maintain on-going relationships with 
professional organizations, historically diverse colleges and 
universities, other interest groups, and the community to connect with 
underrepresented employment populations.

    Question 2b. What steps have you taken during your service as 
acting administrator in this area?
    Answer. TSA has implemented several programs during my tenure which 
have had a positive impact on minority hiring. In fall 2008, TSA's 
Senior Leadership established the New Horizons Executive Steering 
Committee to encourage strategic efforts to develop a professional 
workforce that is reflective of America.
    The TSA Career Resident Program (CRP), a core component of the New 
Horizon's initiative, is a fast-track opportunity for the next 
generation of high-performing career Federal employees. It is an entry-
level, full-time, career development program at headquarters. After 
successfully completing the 2-year program, residents are considered 
for permanent career positions with TSA.
    TSA engaged in open and targeted recruitment for the Career 
Resident Program which included building partnerships with Tougaloo 
College in Jackson, MS, Salish Kootenai Tribal College in Montana, 
Gallaudet University, and University of Puerto Rico. The first class of 
over 34 employees has been selected and 76 percent of the participants 
are minorities.
    The Career Evolution Program (CEP) is a hiring initiative, for 
internal candidates only, designed to identify and maximize the 
incredible talents and experience of our diverse workforce. The program 
is an exceptional opportunity for intensive training in the stimulating 
environment of TSA Headquarters.
    The Associates Program Pilot is a Career Development Program for 
our Transportation Security Officers (TSOs) to help them to achieve an 
Associate's Degree in Homeland Security with the initial three courses 
at their work place. Currently, less than 10 percent of TSO's have an 
associate's degree or higher. As this program is implemented in a wider 
scope it will allow our diverse workforce the opportunity to further 
their education, thus affording them more opportunities for advancement 
within the agency.

    Question 3. Under the 9/11 Act, TSA is required to provide for an 
air cargo inspection regime ``commensurate'' with that of covering 
passenger baggage. However, TSA indicated at our air cargo hearing this 
past summer that TSA will not be able to meet the 100% screening of 
foreign in-bound cargo by the August 2010 date.
    Can you give us an update on the efforts TSA is making with its 
international partners to meet--at some point--the 100% screening of 
foreign in-bound air cargo transported on passenger planes?
    Answer. The Transportation Security Administration (TSA) continues 
to work closely with international partners, organizations, and 
stakeholder groups to address the many challenges associated with 
implementing 100 percent screening of in-bound air cargo transported on 
passenger aircraft. TSA is currently engaged in efforts with the United 
Nations' (UN)--International Civil Aviation Organization (ICAO); the UN 
body that sets world-wide standards for procedures and processes for 
aviation security. TSA's engagement with ICAO focuses on the 
introduction of the air cargo supply chain security concept to other 
nations through the ICAO Aviation Security Panel. TSA's proposed 
changes to ICAO's Standards and Recommended Practices were accepted in 
draft at a meeting of the ICAO Amendment 12(A12) Panel in Singapore in 
October 2009. TSA will continue to advance these proposed changes 
through the Amendment 12 process in Annex 17 to the Convention on 
International Civil Aviation.
    TSA continues to work closely with international stakeholder 
groups, including the International Air Transport Association (IATA), 
to collaborate on outreach activities and to promote the development of 
global air cargo regulatory requirements. TSA is also engaged in 
numerous bilateral and multilateral agreements aimed at sharing 
information to develop and recognize commensurate systems of air cargo 
screening, in addition to introducing the supply chain approach to 
securing air cargo into respective country programs and regulations. 
TSA's foreign partners involved in these agreements are Canada, 
Australia, and the 27 Member States of the European Union (EU).
    TSA has recently partnered with Transport Canada to complete a 
series of vulnerability assessments at Canadian airports and cargo 
facilities. Foreign vulnerability assessments are a critical component 
of TSA's risk management approach to securing in-bound air cargo. TSA 
also continues to work with the EU and the Quadrilateral Working Group 
on the development and comparison of security requirements.
    In addition, TSA is working closely with U.S. Customs and Border 
Protection (CBP) in an effort to leverage CBP's Automated Targeting 
System (ATS) for the screening of high-risk cargo on international 
flights destined to U.S. airports. TSA and CBP have formed a joint 
working group to assess how current CBP ATS air cargo rules support the 
TSA aviation security mission and to consider the policy requirements 
and operational impacts of using TSA-specific rules in a fully 
operational, pre-departure setting.

    Question 4. Recently, TSA made the decision to prevent Delta 
Airlines from offering service from the United States to Nairobi, 
Kenya. We understand that decision was based on valid security 
concerns.
    Can you tell us if TSA intends to change its position any time 
soon? Are you keeping Delta Airlines apprised of your on-going 
analysis?
    Answer. The regional security situation affecting U.S. civil 
aviation interests in east Africa that necessitated the denial of 
service for Delta Air Lines into Nairobi, Kenya (pursuant to 49 U.S.C. 
 44905) will require a long-term approach. The Transportation Security 
Administration (TSA) constantly reviews the threat intelligence 
information for the region and updates its airport-specific threat 
assessment based on the new intelligence data as it is received. TSA 
routinely meets with Delta Air Lines' corporate security officers to 
discuss items of interest to both the TSA and Delta.

    Question 5. The Final Rule for Secure Flight was published just 
about a year ago. Can you give us a status update on the program and 
tell us when we can expect FULL implementation of the program?
    Answer. Secure Flight implementation is currently underway. Initial 
deployment began in mid-January 2009. To date, the Transportation 
Security Administration (TSA) has completed full deployment to ten 
domestic aircraft operators. Additionally, TSA is currently in Parallel 
Operations with eight additional aircraft operators (i.e. airline has 
started Parallel Operations with Secure Flight, but is not yet applying 
Secure Flight's Boarding Pass Printing Results). TSA is scheduled to 
complete full deployment for the first foreign air carrier in November 
2009. TSA continues to follow a structured implementation plan that 
systematically adds additional aircraft operators and flights in order 
to limit risk. Implementations will continue through 2009 and 2010 with 
full implementation scheduled for the end of calendar year 2010.

  Questions From Chairman Bennie G. Thompson of Mississippi for Mark 
   Sullivan, Director, U.S. Secret Service, Office of Government and 
            Public Affairs, Department of Homeland Security

    Question 1a. What has the Secret Service done to address 
sensitivity, workplace environment, and management accountability?
    Who is responsible for these efforts?
    Answer. Director Mark Sullivan routinely emphasizes that our 
employees are the key to accomplishing our protective and investigative 
missions, and that recruiting, developing, and retaining a diverse 
workforce is an essential step towards meeting our strategic goals. He 
and his staff take active roles in promoting and supporting diversity 
awareness throughout the Secret Service, and our commitment to 
diversity is also embodied in our current strategic plan.
    Official messages are regularly sent out to all employees from the 
Office of the Director to reaffirm the Secret Service's commitment to 
providing equal employment opportunity and a working environment free 
of all forms of discrimination, harassment, or retaliation for engaging 
in protected activity. These messages are also used to:
  <bullet> Remind all supervisors, managers, and employees of the need 
        for them to understand our non-discrimination policy, and to 
        work towards achieving a workplace that is free from 
        discrimination and harassment,
  <bullet> Encourage supervisors and managers to continue to foster a 
        work environment where equality of opportunity enables each 
        employee to reach their full potential so that they are able to 
        contribute their best efforts to the Secret Service mission, to 
        include reacting to and properly addressing reports of 
        discriminatory actions that come to their attention, and
  <bullet> Emphasize that accountability is the foundation for the 
        success of these efforts, and that all employees must, and will 
        be held accountable for their actions.
    Training that addresses these policies and principles is provided 
by the Secret Service Diversity Management Program, through regular 
sponsorship of Conferences on Cultural Diversity and Inclusion, which 
are designed to:
  <bullet> Raise awareness about diversity,
  <bullet> Provide skills to identify and challenge assumptions about 
        others,
  <bullet> Recognize different communication styles and increase one's 
        ability to communicate across these differences, and
  <bullet> Identify ways that greater appreciation and understanding of 
        diversity can positively impact the mission of the Secret 
        Service.
    The Secret Service's Equal Employment Opportunity (EEO) office also 
has a training module during this training wherein they provide 
information on prevention of workplace harassment, supervisory 
responsibilities for reasonable accommodation, and other EEO program 
components.
    Additionally, in its efforts to address sensitivity, workplace 
environment, and management accountability the Secret Service carefully 
examines data from the DHS Annual Employee Survey results and the 
Federal Human Capital Survey for symptoms of EEO barriers related to 
the workplace environment. When survey results point to potential EEO 
barriers, the Secret Service creates EEO MD-715 work plans designed to 
mitigate or eliminate the potential barriers. Specific efforts, based 
upon survey results, have included the creation of the Special Agent, 
Uniformed Division, and the administrative, professional, and technical 
support employee working groups. Additional efforts have included the 
partnership with LifeCare, which positively influences an individual 
employee's quality of work life, seminars held at headquarters 
discussing life issues with impact on quality of work life issues, the 
``Opt-Out'' program that allows eligible Special Agent employees to opt 
of transfers to other posts of duty, and the discontinuance of force 
employee relocations. Managers and supervisors are held accountable for 
EEO/Diversity performance through the agency's performance appraisal 
system.
    As noted previously, ensuring that opportunity is equal in the 
Secret Service is the responsibility of all employees. While the 
importance of these efforts is regularly highlighted by Director 
Sullivan and his staff, implementation of programs and training that 
directly address these issues is the responsibility of the Office of 
Equal Employment Opportunity (EEO), which is housed in the Office of 
the Deputy Director, and the Diversity Management Program, which is 
contained within the Office of Human Resources and Training.

    Question 1b. What is DHS headquarters' role in these efforts?
    Answer. The Department of Homeland Security (DHS) Office of Civil 
Rights and Civil Liberties and the Office of the Chief Human Capital 
Officer coordinate a range of councils and working groups, in which the 
Secret Service participates. When and where possible, the Secret 
Service partners with them on a variety of DHS-wide initiatives that 
address EEO and diversity related issues.

    Question 2a. What employee input does the Secret Service consider 
in identifying barriers to equal opportunity?
    Does the Secret Service conduct exit interviews and use these to 
identify barriers to equal opportunity?
    Answer. In development of the agency's EEO MD-715 report, the 
Secret Service considers exit interviews data; information provided by 
the Special Agent, Uniformed Division, and Administrative, 
Professional, and Technical Support Employee Working Groups; the Annual 
DHS Employee Survey results; the results of the Federal Human Capital 
Survey; and the Town Hall meetings held by the Secret Service Director 
during fiscal year 2009.
    All of this information is reviewed and considered in the process 
of both identifying potential barriers to EEO, and in developing 
strategies for the removal/elimination of such barriers.
    Yes, the Secret Service conducts exit interviews of separating 
employees. The Secret Service uses aggregate data from the exit 
interviews as part of the MD-715 barrier analysis process in order to 
identify potential barriers to equal opportunity.

    Question 2b. How does the Secret Service decide what employee input 
to consider in identifying barriers to equal opportunity?
    Answer. The Secret Service bases its decisions on what employee 
input to consider in identifying barriers to equal opportunity on 
several factors. Factors considered include the availability of data, 
the relatedness between the employee input and an identifiable barrier 
related to an agency policy, practice, or procedure, and the validation 
analysis (i.e., issue significance, identified from more than 1 
employee, etc.) of the employee input.

    Question 2c. Has DHS headquarters provided any guidance to the 
Secret Service on whether or how to consider employee input in 
identifying equal opportunity barriers?
    Answer. DHS routinely provides guidance via training and/or written 
procedures on identifying barriers to equal opportunity including the 
use of the DHS Annual Employee Survey as well as the Federal Human 
Capital Survey.

    Question 3a. According to the data provided in your 2008 Federal 
Equal Opportunity Recruitment Plan Accomplishment Report, 24% of the 
applicants for Criminal Investigator positions identified themselves as 
minorities. Yet only 15.4% of the new hires were minorities.
    What barriers contributed to this disparity?
    Answer. Applicants for the Special Agent/Criminal Investigator 
position who meet the minimum qualifications for the position are 
afforded the opportunity to take the Treasury Enforcement Agent (TEA) 
written exam. Those who pass proceed to the following steps:
  <bullet> Initial interview,
  <bullet> Panel/security interview,
  <bullet> Polygraph,
  <bullet> Physical, and
  <bullet> Background investigation.
    The failure to successfully complete any one of these steps results 
in the applicant being notified that his or her application is no 
longer being considered.
    Those applicants who successfully complete all of the requirements 
are presented to a hiring panel, at which time a final decision is made 
as to whether or not to approve the applicant for hire and placement in 
the next available Special Agent Introductory Training Class.
    The Office of Human Resources and Training, Research, and 
Assessment Office, is in the process of examining some of these steps 
for possible adverse impact, and is also studying whether or not the 
questions in the TEA exam and panel/security interview are consistent 
with the results of a recently completed job analysis for the special 
agent position.
    At this time, the Secret Service has identified several potential 
barriers that may be contributing to the disparity between the 
applicant rate and the rate of new hires from underrepresented EEO 
groups.
    The Secret Service has identified each potential barrier based on 
where in the application process applicants from underrepresented EEO 
groups fall out of the application process in greater-than-expected 
rates. Further, it is possible that each potential barrier affects all 
applicants equally. Potential barriers include the Secret Service Drug 
Policy, the requirement for all employees to obtain a Top Secret 
Security Clearance, Vision, and other physical fitness and medical 
suitability requirements, and the requirements for all applicants for 
the Criminal Investigator positions and Uniformed Division Officer 
position to submit to a Polygraph Examination. The Secret Service 
revised its drug policy during fiscal year 2009 and the impact of this 
change on applicant selection rates is not known at this time. The 
Secret Service will remove barriers that are not consistent with 
business necessity or security-clearance requirements.
    Beginning in April 2009, in lieu of the traditional initial 
interview process, the Secret Service instituted the use of 
CareerConnector, which replaces our earlier system for tracking 
applicants and introduced an online portal for applicants to apply for 
a position as a Criminal Investigator or Uniformed Division Officer. 
Since the inception of CareerConnector, there has been a considerable 
increase in the number of applicants for these positions. The Secret 
Service will be able to determine the effects this may have on the 
hiring rate for applicants from underrepresented EEO groups within the 
next 2 years.

    Question 3b. What is the Secret Service doing to eliminate these 
barriers and who is responsible for these efforts?
    Answer. In order to eliminate barriers relating to the hiring of 
new employees from underrepresented EEO groups the Secret Service has a 
multi-faceted approach. First, the Secret Service has expanded its 
recruitment activities to include the establishment of the Recruitment 
Program.
    The Recruitment Program, under the purview of the Office of Human 
Resources and Training, has actively recruited at national diversity 
conferences and many career fairs throughout the United States and is 
cultivating a partnership with the Hispanic Association of Colleges and 
Universities in an effort to broaden its reach to students at Hispanic 
Serving Institutions. Further, during fiscal year 2009, the Secret 
Service established a Uniformed Division Hispanic Female Working Group 
to discuss recruitment and other issues. This was a follow-up to the 
fiscal year 2008 establishment of the Special Agent, Uniformed 
Division, and Administrative, Professional, and Technical Support 
Employee Working Groups. Since fiscal year 2007, the Secret Service has 
spent considerable time and effort in revamping the application process 
for Special Agents in efforts to ensure the fairness of the entire 
process. The Assistant Director of the Office of Human Resources and 
Training has the responsibility for all recruitment efforts and the 
removal of associated barriers in the employee hiring process lie with 
the Assistant Director of the Office of Human Resources and Training.

    Question 3c. What involvement does DHS headquarters have in 
assisting or overseeing these efforts?
    Answer. As has been stated previously, in the identification and 
removal of barriers, DHS headquarters assists and oversees these 
efforts through the provision of training, guidance, and technical 
advice.

    Question 4. How does the Secret Service hold top management 
accountable for recruiting, retaining, and promoting a diverse 
workforce?
    Explain how these accountability efforts include both rewards and 
consequences.
    Answer. Secret Service managers and supervisors are held 
accountable for their overall equal employment opportunity (EEO) 
program performance, including support of E.O. 13171, through annual 
performance appraisals that include a separate EEO performance 
standard.
    Our EEO program provides a monthly program activities report to the 
Secret Service Director and Deputy Director and each of the agency's 
Assistant Directors. This provides the opportunity for Secret Service 
senior leadership to receive regular EEO program information, advice, 
and assistance along with workforce distribution reports by race/
ethnicity and gender of both the overall workforce, as well as for 
leadership positions of the agency's three major occupations. 
Additionally, to improve program visibility among the general 
workforce, the EEO program places the monthly overall workforce 
distribution report on the Secret Service Intranet website for the use 
and information of employees.
    The Secret Service EEO Officer is also a member of the agency's 
Executive Resources Board. This provides additional opportunities for 
EEO program interaction with senior leaders and facilitates the 
exchange of EEO program advice and counsel on agency wide programs, 
policies, and procedures.
    Secret Service managers and supervisors are held accountable for 
their overall EEO program performance, including support of E.O. 13171, 
through annual performance appraisals that include a separate EEO 
performance standard.

    Question 5a. Your recruitment program plan lists your agency's 
diversity recruitment initiatives since 2007. However, it does not 
evaluate the success of these initiatives.
    How does the Secret Service measure the success of its recruitment 
initiatives?
    Answer. The Secret Service Recruitment Program (REC) has 
implemented a yearly national recruitment strategy with specific 
initiatives, incentives, and strategies to attract and recruit a high-
quality, diverse workforce. Key elements include:
  <bullet> Attendance at Nation-wide career fairs, including those 
        specifically targeting minority groups, Nation-wide military 
        recruitment events, Nation-wide diversity conferences;
  <bullet> Focused outreach to Historically Black Colleges and 
        Universities (HBCUs), Hispanic Serving Institutions (HSIs), 
        women's colleges and universities;
  <bullet> Targeted recruiting of veterans of the United States Armed 
        Forces, who represent a source of highly qualified, diverse 
        candidates for Secret Service positions in all occupational 
        categories; and
  <bullet> Using the services of a contractor, LEAP Frog solutions, a 
        minority women-owned business, to help coordinate print and 
        radio advertising that specifically target diverse populations.
    For each component of the national recruitment strategy, efforts 
are made to measure results through the level of attendance/
participation/responses generated, and by trying to identify any links 
between these components and the number of applications that are 
received. Due to the number of variables involved, and the complexities 
of capturing some of this data with our current IT systems, the Secret 
Service is being careful not to overreact to individual data points, 
but will evaluate strategies once sufficient data has been captured.

    Question 5b. Who is accountable for the effectiveness of agency's 
diversity initiatives?
    Answer. As noted in the answer above, Secret Service managers and 
supervisors are held accountable for their overall EEO program 
performance through annual performance appraisals that include a 
separate EEO performance standard.
    The Office of Human Resources and Training is responsible for 
developing and implementing a national recruiting strategy, managing 
the Secret Service's Diversity Management Program, and overseeing the 
hiring process as a whole, with the assistance of field office 
personnel, who report to the Office of Investigations. Ultimately, the 
Assistant Director of the Human Resources and Training Division is 
responsible for ensuring the agency's diversity initiatives are 
effective.

    Question 6a. What role and discretion do Secret Service field 
offices and their leadership have to further advance or stop a 
candidate's further consideration in the hiring process? For hiring 
recommendations made at Secret Service field offices, are special 
agents in charge (SAICs) or others involved in the hiring process 
entitled to decline further review of a candidate based, in whole or in 
part, on the assessment that there are ``Better Qualified Applicants'' 
(BQA) available?
    Explain what rational basis SAICs or others involved in the hiring 
process must demonstrate to justify BQA determinations. At what point 
in the hiring process are these decisions reviewed, if at all? Who 
reviews these decisions?
    Answer. Applicants for the special agent and Uniformed Division 
officer positions must successfully complete all of the following steps 
prior to being hired:
  <bullet> Determination regarding meeting the minimum qualifications 
        for the position,
  <bullet> Treasury Enforcement Agent written exam (special agents) or 
        Police Officer Selection Test (Uniformed Division officers),
    <bullet> Initial interview,
    <bullet> Panel/security interview,
    <bullet> Polygraph,
    <bullet> Physical, and
    <bullet> Background investigation.
    The failure to successfully complete any one of these steps results 
in the applicant being notified that his or her application is no 
longer being considered.
    Secret Service field office personnel, to include Special Agents in 
Charge (SAICs), are involved in many of these steps, but they do not 
directly make decisions as to whether or not an applicant should 
continue on in the process, nor do they make final decisions with 
respect to hiring. All such decisions are made at the Headquarters 
level.
    Furthermore, Secret Service field office personnel, to include 
SAICs, do not have the ability to ``overrule'' decisions made at the 
Headquarters level, whether to end further consideration of an 
applicant, or to allow an applicant to continue to receive 
consideration despite having failed to successfully complete one of the 
required steps.
    As noted in the answer above, Secret Service field office 
personnel, to include SAICs, do not directly make decisions as to 
whether or not an applicant should continue on in the process, nor do 
they make final decisions with respect to hiring. All such decisions 
are made at the Headquarters level.

    Question 6b. Given the potential for BQA decisions to become a 
barrier to equal employment opportunity or worse, to facilitate 
discrimination, explain what Secret Service leadership is doing or has 
done to address potential problems associated with this element of the 
candidate review process.
    Answer. In an effort to standardize our application process, the 
Secret Service has begun using Career Connector, the Department of 
Treasury's automated staffing system, which is a web-based system that 
affords the Secret Service the ability to electronically accept 
applications for entry-level Special Agent and Uniformed Division 
positions.
    The Career Connector program was implemented for a variety of 
reasons due to the advantages it offers to the Secret Service. By 
automating the application submission, the Secret Service is able to 
increase the efficiency of all aspects of the initial stages of 
applicant processing. It will also allow for a system of quantitative 
metrics to measure, track, and catalog application statistics.
    The use of Career Connector has also allowed the Secret Service to 
centralize its application collection location, affording the 
opportunity to consolidate multiple employment locations, administer a 
single applicant intake process, standardize application processing 
procedures, and provide one location for the issuance of job/vacancy 
announcements.
    The Secret Service maintains vacancy announcements for the Special 
Agent and Uniformed Division positions on the USAJOBS website, where 
all Federal Government vacancies are advertised. These vacancies are 
specific to the established Secret Service regions, and potential 
applicants apply to the vacancy region of their permanent residence.
    Applicants submit their application using their USAJOBS profile, 
which contains a resume built with the USAJOBS resume builder. Using 
this profile, applicants will then be linked to Career Connector to 
answer vacancy specific questions. These questions will use job 
specific questions for determining minimum qualifications.
    For Section 508 compliance issues, applicants unable to complete 
the on-line application will be able to submit a paper application 
directly to the Personnel Division, or to submit their application via 
fax.
    Once an application is submitted and its associated vacancy has 
closed, the Career Connector program will automatically disqualify 
applicants who fail to meet minimum qualifications based on the 
assessment of their submitted answers. The Secret Service Personnel 
Division manually reviews these disqualifications to determine veracity 
of the automated system. Applicants who fail to meet those 
qualifications are notified via e-mail of their disqualification. 
Applicants who are disqualified for administrative non-compliance are 
notified by e-mail in regards to corrective actions they need to make 
in order for their application to be considered.
    The Personnel Division conducts an additional manual review of the 
remaining applications to ensure qualifications are being met for 
Secret Service hires. Applicants who do not pass this vetting are 
notified via e-mail. Applicants who continue in the process are placed 
on a certificate and forwarded to the field office closest to proximity 
of their permanent residence.
    Once the field office has received the certificate listing from 
PER, they will have 180 days to complete the following four phases of 
the applicant screening process:
  <bullet> Phase 1.--Within 45 business days the application is 
        reviewed, those applicants meeting the minimum qualifications 
        are referred, given the TEA exam or POST, initial interviews 
        are conducted, and the conditional job offer is extended.
  <bullet> Phase II.--Within the next 35 business days, the applicant 
        receives a panel interview/security interview, and takes a 
        report writing exam.
  <bullet> Phase III.--In the following 70 business days, the applicant 
        receives a polygraph and physical examination, and the 
        background investigation is completed.
  <bullet> Phase IV.--In the remaining 30 business days, the hiring 
        panel reviews the applicant's complete file, and makes final 
        decisions concerning selection.

   Questions From Ranking Member Peter T. King of New York for Mark 
   Sullivan, Director, U.S. Secret Service, Office of Government and 
            Public Affairs, Department of Homeland Security

    Question 1. Has the Secret Service conducted a recruitment barrier 
analysis recently? If so, what did the analysis show?
    Answer. The barrier identification and elimination planning process 
used by the Secret Service EEO office includes the review and analysis 
of workforce data and information, affirmative employment plans, agency 
policies, procedures, strategies, and performance reports dealing with 
recruitment, retention, or accessibility.
    The major approaches, which make up the EEO Plan to Eliminate 
Identified Barriers, are as follows:
  <bullet> Provide training for employees that address diversity 
        awareness, EEO guidance and regulations, including providing 
        reasonable accommodation to employees with disabilities and 
        ensuring compliance with the documentation requirements of 
        Section 508 and accessibility for Persons with Disabilities; 
        and Federal hiring/selection procedures.
  <bullet> Monitor recruitment initiatives and other initiatives and 
        policies established by the Workforce Planning Office, the 
        Recruitment Program, or the Diversity Management Program at the 
        Secret Service.
  <bullet> Focus the Secret Service's resources for barrier analysis 
        and elimination on areas of primary concern for the agency. 
        Those areas are recruitment and retention.
  <bullet> Ensure accountability of Secret Service managers and 
        supervisors in the area of EEO as outlined in EEO Management 
        Directive 715.

    Question 2. As the Director of the Secret Service, how have you 
ensured the integration of diversity into the organization?
    Answer. Director Mark Sullivan routinely emphasizes that our 
employees are the key to accomplishing our protective and investigative 
missions, and that recruiting, developing, and retaining a diverse 
workforce is an essential step towards meeting our strategic goals. He 
and his staff take active roles in promoting and supporting diversity 
awareness throughout the Secret Service, and our commitment to 
diversity is also embodied in our current strategic plan.
    Official messages are regularly sent out to all employees from the 
Office of the Director to reaffirm the Secret Service's commitment to 
providing equal employment opportunity and a working environment free 
of all forms of discrimination, harassment, or retaliation for engaging 
in protected activity. These messages are also used to:
  <bullet> Remind all supervisors, managers, and employees of the need 
        for them to understand our non-discrimination policy, and to 
        work towards achieving a workplace that is free from 
        discrimination and harassment,
  <bullet> Encourage supervisors and managers to continue to foster a 
        work environment where equality of opportunity enables each 
        employee to reach their full potential so that they are able to 
        contribute their best efforts to the Secret Service mission, to 
        include reacting to and properly addressing reports of 
        discriminatory actions that come to their attention, and
  <bullet> Emphasize that accountability is the foundation for the 
        success of these efforts, and that all employees must, and will 
        be held accountable for their actions.
    Training that addresses these policies and principles is provided 
by the Secret Service Diversity Management Program, through regular 
sponsorship of Conferences on Cultural Diversity and Inclusion, which 
are designed to:
  <bullet> Raise awareness about diversity,
  <bullet> Provide skills to identify and challenge assumptions about 
        others,
  <bullet> Recognize different communication styles and increase one's 
        ability to communicate across these differences, and
  <bullet> Identify ways that greater appreciation and understanding of 
        diversity can positively impact the mission of the Secret 
        Service.
    The Secret Service's Equal Employment Opportunity (EEO) office also 
has a training module during this training wherein they provide 
information on prevention of workplace harassment, supervisory 
responsibilities for reasonable accommodation, and other EEO program 
components.
    Additionally, in its efforts to address sensitivity, workplace 
environment, and management accountability the Secret Service carefully 
examines data from the DHS Annual Employee Survey results and the 
Federal Human Capital Survey for symptoms of EEO barriers related to 
the workplace environment. When survey results point to potential EEO 
barriers, the Secret Service creates EEO MD-715 work plans designed to 
mitigate or eliminate the potential barriers. Specific efforts, based 
upon survey results, have included the creation of the Special Agent, 
Uniformed Division, and the Administrative, Professional, and Technical 
support employee working groups. Additional efforts have included the 
partnership with LifeCare, which positively influences an individual 
employee's quality of work life, seminars held at headquarters 
discussing life issues with impact on quality of work life issues, the 
``Opt-Out'' program that allows eligible Special Agent employees to opt 
of transfers to other posts of duty, and the discontinuance of force 
employee relocations. Managers and supervisors are held accountable for 
EEO/Diversity performance through the agency's performance appraisal 
system.

    Question 3. Recently at Presidential site visits, citizens have 
been showing up with weapons. Is this a concern to the Secret service? 
What have you done to mitigate your concerns?
    Answer. As part of the protective advance process that occurs prior 
a Presidential visit, Secret Service personnel meet with State and 
local law enforcement partners to assess any matter that may affect the 
safety of the President, to include State and local ordinances 
permitting the carriage of firearms and other weapons in public. 
Information collected during the advance process is then utilized to 
design a unique security plan for each location to be visited by the 
President. Depending upon the assessed nature of the potential threat, 
this security plan may require the Secret Service and its partners to 
deploy additional technical assets or human resources to mitigate any 
concerns. In addition, the security plan may include a larger security 
perimeter to increase stand-off distance between the site and any 
unscreened members of the public who may be in possession of weapons.

 Questions From Chairman Bennie G. Thompson of Mississippi for Jayson 
    Ahern, Acting Commissioner, U.S. Customs and Border Protection, 
                    Department of Homeland Security

    Question 1a. According to DHS estimates, women represent 
approximately only 21.8% of the CBP workforce, but make up about 44% of 
the Federal workforce.
    What accounts for this disparity?
    Answer. CBP's core occupations are primarily law enforcement 
positions, which are still to some extent non-traditional employment 
roles for women. As you might expect, over 70% of the occupations in 
CBP are law enforcement positions; i.e., CBP Officers, Border Patrol 
Agents, and Air and Marine Interdiction Agents. CBP's female law 
enforcement personnel comprise 11.7% of all law enforcement-related 
positions, as compared to the Federal sector average percentage of 
15.5%. We believe the Federal sector law enforcement workforce affords 
a more appropriate standard for comparison than the Federal workforce 
as a whole. Within CBP's non-law enforcement positions, women comprise 
49% of CBP's workforce, a percentage which compares favorably to their 
44% representation in the civilian labor force. CBP will continue its 
efforts to increase the percentages of women in its law enforcement 
positions through targeted recruitment efforts.

    Question 1b. What has CBP done to assess the causes of potential 
barriers to equal opportunities for women?
    Answer. CBP annually prepares the U.S. Equal Employment Opportunity 
Management Directive 715 Accomplishment Report, which requires Federal 
agencies to conduct a barrier analysis of its total workforce. 
Potential barriers are identified through statistical analysis and 
workplace surveys. This effort includes preparing analyses and reports 
of comparisons of CBP's workforce data with the civilian labor force 
data published by the Census Bureau. For example, CBP conducts an 
analysis of its workforce profile, by race, national origin, and 
gender, as compared to the profile of the civilian labor force for 
similar or like occupations. Further, CBP has established an applicant 
tracking system to ensure we are attracting a diverse applicant pool 
from which to draw qualified candidates. We also review attrition data 
in order to determine whether there are any artificial barriers in 
place which may impact the recruitment, hiring, advancement, and 
retention of women in our workforce.

    Question 1c. What is CBP doing to address this problem?
    Answer. CBP has established a Diversity and Inclusion Management 
Council to provide policy, and develop action plans and initiatives to 
improve outreach, recruitment, hiring, advancement, and retention of 
women in all job categories. In addition, CBP is engaged in outreach 
efforts at colleges and universities, professional associations, 
community organizations, and through television and media broadcasts 
targeting female applicants. Further, CBP has identified specific 
women's magazines to publish articles about career opportunities with 
CBP, and has made efforts to attract women from military installations 
who might be interested in the homeland security mission.

    Question 1d. Is CBP focusing any recruiting efforts on entry-level 
law enforcement positions?
    Answer. Yes. CBP projects 2,300 new hires for entry-level law 
enforcement positions due to attrition. Through its recruitment 
efforts, CBP will continue to take proactive steps to focus on 
underrepresented groups. These steps will include regularly attending 
and recruiting applicants at events that focus on women in law 
enforcement, as well as targeting female applicants through specific 
media outlets that concentrate on female audiences.

    Question 1e. How is DHS headquarters involved in this process?
    Answer. CBP annually prepares the EEOC's Management Directive 715 
Accomplishment Report which is provided to DHS to inform the Department 
of the recruitment efforts and potential barriers identified. DHS has 
funded corporate initiatives to include all of the DHS components to 
attract women into CBP careers. DHS has also organized forums at 
national conferences with senior level women speaking on panels focused 
on attracting women into DHS careers. These initiatives also include 
DHS-wide career fairs in which CBP participates in cooperation with all 
other DHS components.

    Question 2a. What employee input does CBP consider in identifying 
barriers to equal opportunity?
    Does CBP conduct exit interviews and use these to identify barriers 
to equal opportunity?
    Answer. CBP considers input from managers, supervisors, and 
employees to identify barriers to equal opportunity. For example, in 
fiscal year 2009 the Office of Equal Opportunity conducted a customer 
satisfaction and awareness survey to determine with employees were 
pleased with the service provided by the office, and whether employees 
believed that the program was being implemented in accordance with the 
applicable Federal laws, regulations, and policies. The survey results 
were considered in our efforts to identify barriers to equal 
opportunity in CBP employment programs. The results indicated that 57 
percent of CBP employees, and 87 percent of the managers and 
supervisors believe they receive adequate training regarding EEO 
policies, processes, statutory protections, and regulatory compliances. 
All surveyed groups indicated the need for continuous EEO training. 
Based on this information, CBP will refine training materials and 
delivery methods to reach all CBP employees.
    In addition, CBP's Office of Human Resources Management, Personnel 
Research, and Development Division (PRAD), conducts in-depth workplace 
reviews and surveys applicants and new employees to determine whether 
there are potential barriers to advancement in the agency.
    For example, CBP deploys national targeted recruitment efforts in 
most communities throughout the Nation. During the recruitment process, 
CBP noted that a high percentage of African American applicants were 
not appearing for the written test part of the application process. 
This was a matter of major concern to senior management. Accordingly, 
CBP's researchers analyzed random samplings obtained through telephonic 
and written surveys of those applicants who were available, in an 
effort to identify and understand the reasons African American 
applicants had discontinued the application process. There has also 
been concern about the high attrition rate for women trainees at the 
Border Patrol Academy. We have instituted exit interviews and telephone 
surveys of all Border Patrol candidates, in order for CBP to become 
better informed about factors that affect trainees' decisions whether 
to remain with the agency.
    As a result of the information provided by PRAD, in fiscal year 
2009, CBP formed three working groups to address the issues of: (1) 
Attrition, (2) physical training requirements, and (3) pre-academy 
physical training. The reviews included interviews of employees 
recently hired, employees who resigned, and instructors. The working 
groups should provide a report to the Commissioner before the end of 
fiscal year 2010. This information will be incorporated into CBP 
efforts to identify any potential barriers to EEO.
    Lastly, the EEO complaint process is also a useful tool in 
identifying potential barriers to equal opportunity for employees. The 
EEO suggestion e-mail box is also available for employees to provide 
comments and suggestions for ways to maximize equality of opportunity 
within the agency for all employees.
    Yes. Exit surveys are conducted at the CBP Academies among all 
individuals who depart the agency voluntarily, particularly in the core 
positions of Border Patrol Agent and CBP Officer. These surveys help to 
identify and evaluate the reasons for an employee's decision to end his 
or her employment with CBP. CBP's Office of Human Resources Management 
(HRM) also sends exit surveys to every employee who retires or gives 
advance notice of his or her departure. When triggers, a preliminary 
indicator of a barrier, are identified, CBP's Office of Equal 
Opportunity works with PRAD to conduct an in-depth review and analysis 
to determine root causes.

    Question 2b. How does CBP decide what employee input to consider in 
identifying barriers to equal opportunity?
    Answer. CBP does not have a formal process to decide what employee 
input to consider in identifying barriers to equal opportunity. 
Therefore, all information gathered through surveys and program 
assessments are utilized to identify and correct barriers to equal 
opportunity. In addition, individual employees frequently meet with 
local EEO Managers to discuss issues, which affect them individually. 
The Office of Equal Opportunity will also review EEO complaints that 
emanate from specific locations and/or specific managers in order to 
make an assessment whether there is a pattern of activity which 
contravenes the agency's policy of equal treatment and opportunity for 
all employees.

    Question 2c. Has DHS headquarters provided any guidance to CBP on 
whether or how to consider employee input in identifying equal 
opportunity barriers?
    Answer. DHS Headquarters provided the components with a 
comprehensive briefing on how to prepare a barrier analysis for 
submission to the department. DHS Headquarters invited subject matter 
experts who provided standard techniques for conducting workforce 
analysis designed to determine barriers to equal opportunity.

    Question 2d. Are there any DHS policies that limit CBP's ability to 
decide which employee input it considers?
    Answer. There are no DHS policies which prevent employee input or 
limit the sources of information available to CBP. CBP has taken 
advantage of a team approach through a linkage of its Diversity 
Management Council and DHS Headquarters. CBP uses standard research 
methodologies that incorporate observations of both field staff and 
applicants. CBP's decision-making process also incorporates review of 
any new policy by subject matter experts as well as by the Office of 
Chief Counsel for legal sufficiency.

    Question 3a. Hispanic Americans comprise 31.55% of the CBP 
workforce. Although they represent 32.27% of the CBP's GS-9 level and 
below, they are only 14.29% of the CBP SES.
    Answer. The percentage of Hispanic Americans in CBP's workforce 
(including SES ranks) exceeds the percentage of their representation in 
the civilian labor force.

    Question 3b. What is CBP doing to address identified barriers?
    Answer. Because of CBP's recruitment and hiring of Hispanic 
Americans, DHS is one of only a few Federal agencies in which this 
group is not under-represented. Hispanic Americans represent 30% of CBP 
employees in supervisory positions; therefore, they are the employees 
who, with continued work experience, skill development and training, 
will be in line to assume leadership roles in CBP's senior-level 
positions. In addition, the number of Hispanic Americans at the Senior 
Executive Service (SES) level has increased from seven (8.8% of SES) in 
fiscal year 2007 to 15 (14.3% of SES) in fiscal year 2009--
demonstrating a 114% increase in the representation of Hispanic 
Americans in CBP's Senior Executive ranks.

    Question 3c. Will DHS headquarters be involved in this effort? If 
so, how?
    Answer. The annual accomplishment reports are compiled by OEO 
conducting analyses in partnership with other program offices via a 
number of mediums including surveys, telephone surveys and statistical 
tracking of workforce profiles. It is the responsibility of OEO to 
prepare Executive summaries and an implementation plan for submission 
to DHS Headquarters, Office of Civil rights and Civil Liberties, which 
they review and submit ultimately to the Equal Employment Opportunity 
Commission (EEOC). DHS provides oversight by requesting status reports 
on an annual basis with regards to progress towards our goals and 
objectives to address potential barriers for employment of minorities 
and women. After the DHS compiles all reports from the different 
components and merge the information, they submit it to EEOC. EEOC 
provides each component with a summary evaluation of the components 
progress towards meeting the standards of Model EEO Program. Normally, 
the evaluation is submitted in the form of letter to both DHS 
Headquarters and the respective DHS components.

  Questions From Ranking Member Peter T. King of New York for Jayson 
    Ahern, Acting Commissioner, U.S. Customs and Border Protection, 
                    Department of Homeland Security

    Question 1a. Mr. Ahern, over the past 4 years, the Border Patrol 
has developed a robust recruitment, hiring, and training program in 
order to meet the Congressional mandate to double the number of agents.
    How many agents are currently on board and how many will be in the 
field by the end of the year?

    Question 1b. How does the Border Patrol select locations and events 
for recruitment activities?
    Answer. In response to the Presidential mandate to hire 6,000 
agents within a short period, Office of Border Patrol (OBP) and CBP 
Human Resource Management (HRM) were involved in a very aggressive 
recruitment campaign over the past 3 years that led us to develop 
various recruitment programs. Such programs included sports 
sponsorships, a National Recruitment Team headed by HRM to target a 
diverse pool of applicants, advertising campaigns, and participation at 
thousands of recruitment events throughout the country. Due to the 
historic ratio of applicants to actual hires (30:1) the Border Patrol 
selected its recruitment events largely based on the anticipated net 
gain in raw applicant numbers. The methodology utilized during this 
unprecedented hiring initiative was to cast a wide net in order to fill 
the applicant in-flow pipeline. In addition to this approach, several 
factors played a key role in event selection: Diversity of potential 
applicants, cost, location, out-reach potential, historical data from 
previous events, and probability of future return on investment. Using 
this same methodology, representatives from the Border Patrol's 20 
sectors attended numerous local recruitment events throughout the 
country to include career fairs, colleges, open houses, sporting 
events, and military bases.
    As of fiscal year 2010, HRM has taken the lead for the National 
Recruitment Plan (NRP). Under the new CBP Integrated Recruitment model 
for the NRP, HRM will determine which recruitment events to attend on a 
national level. OBP has submitted to HRM a comprehensive list of 
recommended recruitment events that include various diversity career 
fairs, colleges, and targeted special events throughout the Nation. OBP 
recruitment will play a limited supplemental role in fiscal year 2010 
and will focus on participating in local recruitment events that 
attract qualified applicants while highlighting all CBP careers.

    Question 2a. Data reflects that as of August 2009, CBP had a 
workforce with approximately 41.84% being minority employees.
    Could you please provide more information on how CBP managed to 
reach this level?
    Answer. CBP has created an employment process in which applicants 
for employment compete on a ``level playing field'' based on bona-fide 
job qualifications. For the majority of positions, CBP has created a 
selection process that includes validated written tests, structured 
interviews, and physical requirements which are directly related to job 
performance. CBP is continually evaluating and assessing its employment 
process through barrier analysis to further improve the process and 
meet agency mission to recruit the best and brightest.

    Question 2b. What steps have you taken during your service as 
Acting Commissioner in this area?
    Answer.
  <bullet> Established Diversity and Inclusion and Management Council 
        composed of senior officials to address the challenges and 
        review all policies and procedures to determine whether any 
        step in the employment process has an adverse impact on target 
        groups with low representation in the workforce.
  <bullet> Implemented a Diversity and Inclusion Management Plan.
  <bullet> Ensured that all CBP program offices coordinated the 
        recruitment process to ensure maximum efficiency of resources.
  <bullet> Ensured proper funding and development of policies and 
        procedures that maximized CBP's ability to diversify its 
        workforce.
  <bullet> Ensured that Equal Opportunity is a vital part of the agency 
        strategic mission.
  <bullet> Instituted CBP-wide awards programs recognizing managers who 
        best supported the Equal Opportunity Programs.
  <bullet> Established a commitment among Senior Executives to fully 
        support all major EEO initiatives including dedicating 
        resources to Special Emphasis Programs and increasing outreach 
        efforts to include minority-serving colleges and universities 
        and women's colleges.
  <bullet> Ensured the participation of Senior Executives to serve as 
        guest speakers and role models at minority-serving institutions 
        and national conferences.

    Question 3. It has been noted multiple times that while the Border 
Patrol has grown significantly, the number of CBP Officers at the ports 
of entry has seen much smaller growth.
    What is the status of CBP Officer staffing and what hiring and 
recruitment activities are on-going?
    Answer. Customs and Border Protection (CBP) must balance its 
staffing needs against the agency's ability to hire, train, and deploy 
officers in a timely manner. Staffing needs at the ports of entry are 
determined based on workload volume, training capacity at the Federal 
Law Enforcement Training Center (FLETC), the constraints of current 
facilities and infrastructure, the current number of terminals or lanes 
at the ports of entry, and threat assessment. CBP continues to assess 
its staffing needs throughout the year, based in part upon information 
we receive from our Field Offices. These submissions, combined with 
National and local initiatives, all play a role in how we allocate our 
personnel throughout the country within CBP's financial resources.
    Recruitment is a high priority within CBP, and the Agency has hired 
a Recruiting Program Manager and 17 dedicated Field Office recruiters 
to support this priority. CBP has analyzed hiring plans to ensure that 
all actions proceed according to priorities. This includes the 
monitoring of attrition and careful tracking of hiring to ensure that 
adjustments are made as needed to leverage resources for the best 
possible outcome.

                                 <all>

</pre></body></html>
